No. 19-____
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA
Respondent.
On Petition for a Writ Of Certiorari to the
United States Court Of Appeals
for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
KATHLEEN M. SULLIVAN
DEREK L. SHAFFER
QUINN EMANUEL URQUHART Counsel of Record
& SULLIVAN, LLP
WILLIAM A. BURCK
51 Madison Avenue
JONATHAN G. COOPER
22nd Floor
QUINN EMANUEL URQUHART
New York, NY 10010
& SULLIVAN, LLP
(212) 849-7000
1300 I Street NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@
quinnemanuel.com

Counsel for Petitioner
August 26, 2019

i
QUESTION PRESENTED
Whether the exacting scrutiny this Court has long
required of laws that abridge the freedoms of speech
and association outside the election context—as called
for by NAACP v. Alabama ex rel. Patterson, 357 U.S.
449 (1958), and its progeny—can be satisfied absent
any showing that a blanket governmental demand for
the individual identities and addresses of major donors to private nonprofit organizations is narrowly
tailored to an asserted law-enforcement interest.

ii
RULE 29.6 STATEMENT
Americans for Prosperity Foundation is a nonprofit corporation organized under the laws of Delaware. It has no parent corporation and no publicly
held company owns 10% or more of its stock.

iii
RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1, Petitioners
state that the following proceedings are directly related to the action that is the subject of this Petition.
United States District Court (C.D. Cal.):
Ams. for Prosperity Found. v. Harris, No. 14-cv9448 (Feb. 23, 2015) (order granting preliminary
injunction)
Ams. for Prosperity Found. v. Harris, No. 14-cv9448 (Apr. 21, 2016) (order granting judgment in
favor of Plaintiff and entering permanent injunction)
United States Court of Appeals (9th Cir.):
Ams. for Prosperity Found. v. Harris, No. 15-55446
(Dec. 29, 2015) (partially vacating preliminary injunction)
Ams. for Prosperity Found. v. Becerra, Nos. 1655727 & 16-55786 (Sept. 11, 2018), petition for
reh’g denied, Mar. 29, 2019 (reversing judgment
for plaintiffs, vacating permanent injunction, and
remanding for entry of judgment for Defendant)

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED........................................... i
RULE 29.6 STATEMENT .......................................... ii
RELATED PROCEEDINGS ..................................... iii
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 4
JURISDICTION .......................................................... 5
CONSTITUTIONAL PROVISION INVOLVED ........ 5
STATEMENT OF THE CASE .................................... 5
A.

The Challenged California Policy ................. 5

B.

The
Demonstrated
Pattern
Of
Confidentiality Violations By California ...... 7

C.

AFPF And Its Donors .................................. 10

D.

The District Court Proceedings ................... 13

E.

The Ninth Circuit Decision ......................... 15

REASONS FOR GRANTING THE WRIT ................ 17
I.

THE DECISION BELOW CONFLICTS
WITH THIS COURT’S PRECEDENTS
AND CREATES A CIRCUIT SPLIT ................ 17
A.

The Ninth Circuit’s Holding Conflicts
With This Court’s Precedents ..................... 17

B.

The Ninth Circuit’s Holding Creates A
Circuit Split.................................................. 24

v
TABLE OF CONTENTS – continued
Page
II.

THIS CASE RAISES EXCEPTIONALLY
IMPORTANT
FIRST
AMENDMENT
ISSUES .............................................................. 28

III. THIS CASE IS AN IDEAL VEHICLE TO
ADDRESS THE QUESTION PRESENTED .... 33
CONCLUSION .......................................................... 36
APPENDIX A—Ninth Circuit Opinion,
Sept. 11, 2018......................................... App. 1a
APPENDIX B—District Court Opinion
& Order, Apr. 21, 2016 ........................ App. 41a
APPENDIX C—Ninth Circuit Opinion,
Dec. 29, 2015 ........................................ App. 57a
APPENDIX D—District Court Opinion
& Order, Feb. 23, 2015 ........................ App. 70a
APPENDIX E—Ninth Circuit Order Denying
Rehearing En Banc, Dissent From The
Denial, And Response To The Dissent,
Sept. 11, 2018....................................... App. 74a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Board of Trustees v. Fox,
492 U.S. 469 (1989) ................................................ 21
Buckley v. Valeo,
424 U.S. 1 (1976).............................. 2, 18, 20, 22, 23
California Bankers Association v. Shultz,
416 U.S. 21 (1974) .................................................. 19
Center for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir. 2015)............................ 7, 15
Christian Legal Society Chapter of University
of California, Hastings College of Law v.
Martinez,
561 U.S. 661 (2010) ................................................ 20
Citizens United v. FEC,
558 U.S. 310 (2010) ................................................ 22
Citizens United v. Schneiderman,
882 F.3d 374 (2d Cir. 2018) ............................. 26, 27
Clark v. Library of Congress,
750 F.2d 89 (D.C. Cir. 1984) .................................. 27
Davis v. FEC,
554 U.S. 724 (2008) ................................................ 22
Doe v. Reed,
561 U.S. 186 (2010) .......................................... 15, 22
Familias Unidas v. Briscoe,
619 F.2d 391 (5th Cir. 1980)............................ 24, 25

vii
TABLE OF AUTHORITIES– continued
Page(s)
Gibson v. Florida Legislative Investigation
Commission,
372 U.S. 539 (1963) .................................. 1, 2, 19, 23
Hollingsworth v. Perry,
558 U.S. 183 (2010)................................................ 32
Humphreys, Hutcheson, & Moseley v. Donovan,
755 F.2d 1211 (6th Cir. 1985)................................ 27
Janus v. American Federation of State, County
& Municipal Employees, Council 31,
138 S. Ct. 2448 (2018)...................................... 18, 21
Kusper v. Pontikes,
414 U.S. 51 (1973) .................................................. 20
Local 1814, International Longshoremen’s
Association, AFL-CIO v. Waterfront
Commission of New York Harbor,
667 F.2d 267 (2d Cir. 1981) ............................. 25, 26
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961) ............................................ 2, 19
Maness v. Meyers,
419 U.S. 449 (1975) ................................................ 33
Master Printers of America v. Donovan,
751 F.2d 700 (4th Cir. 1984).................................. 27
McCutcheon v. FEC,
572 U.S. 185 (2014) ............................................ 6, 21
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ..................... 1, 16, 18, 21-24, 32

viii
TABLE OF AUTHORITIES– continued
Page(s)
In re Primus,
436 U.S. 412 (1978) ................................................ 20
Riley v. National Federation of the Blind of
North Carolina, Inc.,
487 U.S. 781 (1988)................................................ 21
Roberts v. Pollard,
393 U.S. 14 (1968), summarily affirming
283 F. Supp. 248 (E.D. Ark. 1968) ....................... 19
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) .................................... 18, 19, 20
Ruckelshaus v. Monsanto Co.,
463 U.S. 1315 (1983) .............................................. 32
Shelton v. Tucker,
364 U.S. 479 (1960) ............................................ 2, 19
Talley v. California,
362 U.S. 60 (1960) .................................................. 18
Trade Waste Management Association v. Hughey,
780 F.2d 221 (3rd Cir. 1985) ................................. 27
United States v. Comley,
890 F.2d 539 (1st Cir. 1989) .................................. 27
Village of Schaumburg v. Citizens for a
Better Environment,
444 U.S. 620 (1980) ................................................ 20
Watchtower Bible & Tract Society of
New York, Inc. v. Village of Stratton,
536 U.S. 150 (2002) ................................................ 18

ix
TABLE OF AUTHORITIES– continued
Page(s)
Williams-Yulee v. Florida Bar,
135 S. Ct. 1656 (2015)............................................ 18
Wilson v. Stocker,
819 F.2d 943 (10th Cir. 1987)................................ 27
Constitution, Statutes, and Rules
U.S. Const. amend. I ...................................................5
26 U.S.C. § 6104(b) ......................................................6
26 U.S.C. § 6104(d)(1) .................................................6
26 U.S.C. § 6104(d)(3)(A) ............................................6
26 U.S.C. § 7213 ..........................................................6
26 U.S.C. § 7431 ..........................................................6
28 U.S.C. § 1254(1) ......................................................5
Cal. Civ. Code § 1798.24 .............................................9
Cal. Code Regs., tit. 11, § 301 .....................................5
Cal. Gov. Code § 12598................................................5
Legislative Materials
S. Rep. No. 91-552 (1969), reprinted in
1969 U.S.C.C.A.N. 2027 .................................................. 6

INTRODUCTION
The Ninth Circuit has upheld against First
Amendment challenge the California Attorney General’s demand that thousands of registered charities
annually disclose to the State the individual names
and addresses of their major donors. In doing so, the
court departed from decades of precedent and held
that the Attorney General need not show such a blanket demand is narrowly tailored to advancing the government’s purported law-enforcement interests. The
decision prompted sharp disagreement on the Ninth
Circuit, with five members of that court dissenting
from denial of rehearing en banc. App. 74a-112a
(Ikuta, J., dissenting from the denial of rehearing en
banc, joined by Callahan, Bea, Bennett, and R. Nelson, JJ.). As the dissenters recognized, the Ninth Circuit’s rejection of any narrow tailoring requirement in
this context “eviscerates the First Amendment protections long established” by this Court. App. 96a. Because the Ninth Circuit’s holding conflicts with this
Court’s precedents, creates a circuit split, and casts a
nationwide chill upon the exercise of freedoms of
speech and association, this Court’s review is warranted.
“[P]rivacy in group association” has long been held
“indispensable to preservation of freedom of association, particularly where a group espouses dissident
beliefs.” NAACP v. Alabama ex rel. Patterson, 357
U.S. 449, 462 (1958). Accordingly, government demands for the names of a charity’s supporters are subject to exacting scrutiny. To satisfy such scrutiny,
government must “convincingly show a substantial relation between the information sought and a subject
of overriding and compelling state interest,” Gibson v.

2
Fla. Legislative Investigation Comm’n, 372 U.S. 539,
546 (1963), and any such compelled disclosure must
be “narrowly drawn,” Louisiana ex rel. Gremillion v.
NAACP, 366 U.S. 293, 297 (1961) (citation omitted).
“[E]ven though the governmental purpose be legitimate and substantial, that purpose cannot be pursued
by means that broadly stifle fundamental personal
liberties when the end can be more narrowly
achieved.” Shelton v. Tucker, 364 U.S. 479, 488
(1960).
In the decision below, however, the Ninth Circuit
purported to apply “exacting scrutiny,” App. 15a,
while jettisoning any requirement that California
“narrow[ly] tailor[]” its chosen means to fit its asserted ends, App. 22a. The court sought to justify this
holding by citing cases upholding disclosure requirements governing elections, where public disclosure of
donors is recognized as the “least restrictive means of
curbing the evils of campaign ignorance and corruption.” Buckley v. Valeo, 424 U.S. 1, 68 (1976) (per curiam). But there is a categorical distinction between
the election context, where compelled public disclosure can be an affirmative good, and the non-election
context, where compelled disclosure (even to government itself) is at best a necessary evil. That is why
this Court and others in the non-election context have
consistently vindicated the “strong associational interest in maintaining the privacy of membership
lists,” Gibson, 372 U.S. at 555-56, by holding unconstitutional governmental demands for disclosure of a
group’s anonymous supporters.
This case has nothing to do with elections or any
claimed interest in public transparency. Petitioner,
as a 501(c)(3) charity, is prohibited from undertaking

3
any election-related advocacy.
Even California
acknowledges that the donor information at issue
should remain confidential. Yet ample means exist
for California to achieve its claimed law-enforcement
interests without forcing thousands of charities to divulge the names and addresses of their top donors. Indeed, California lacks any satisfying explanation for
why it is not content to send targeted, individualized
requests for such information to the handful of charities it actually investigates each year, or why California cannot, at the very least, put in place genuine,
robust confidentiality protections before collecting
such information. The court of appeals’ decision cannot be squared with well-settled constitutional protection for private association outside the election
context or with this Court’s and other circuits’ precedents reaffirming that protection. To quote one amicus submission urging en banc review below, “Donor
anonymity is too important a First Amendment right
to be sold at so cheap a price.” Brief of Philanthropy
Roundtable et al., ECF No. 107, at 13.1
Beyond creating precedential conflict that warrants this Court’s review, this case raises issues of exceptional public importance, as evidenced by
submissions in the Ninth Circuit from a broad spectrum of concerned amici at the panel stage and then
in support of en banc review—including a coalition of
States’ Attorneys General, the NAACP Legal Defense
and Education Fund, the Council on American Islamic
Relations, the Philanthropy Roundtable, and more.

Unless otherwise indicated, all docket citations refer to Case
No. 16-55727 in the proceedings before the Ninth Circuit below.
1

4
The grave threat posed by California’s blanket demand for donor-identity lists is compounded by the
fact that, as the district court found, California has
“systematically failed to maintain the[ir] confidentiality.” App. 51a. As amicus Pacific Legal Foundation
observed, “the risk of donor harassment posed by intentional or inadvertent public disclosure makes the
impact of California’s mandate reverberate nationwide.” ECF No. 109 (“PLF Br.”), at 6.
This Court should now determine whether government may compel across-the-board identification of
donors, where that practice so clearly stands to chill
speech, association, and donor contributions around
the country. Unless this Court intercedes, the Ninth
Circuit has opened the door for the major donors of
thousands of charities to be exposed and chilled
through California’s dragnet. If this Court declines
review, the resulting chill will be profound and lasting.
OPINIONS BELOW
The opinion of the court of appeals is reported at
903 F.3d 1000 and is reproduced at App. 1a-40a. The
order of the court of appeals denying rehearing en
banc, along with the opinions dissenting from the denial and responding to the dissent, are reported at 919
F.3d 1177 and are reproduced at App. 74a-112a. The
district court’s opinion is reported at 182 F. Supp. 3d
1049 and is reproduced at App. 41a-56a.
The court of appeals’ prior opinion at the preliminary-injunction stage is reported at 809 F.3d 536 and
is reproduced at App. 57a-69a. The district court’s
preliminary-injunction opinion is unreported and is
reproduced at App. 70a-73a.

5
JURISDICTION
On March 29, 2019, the court of appeals denied Petitioner’s timely petition for rehearing en banc. On
May 28, 2019, Justice Kagan extended the time for filing a petition for a writ of certiorari to August 26,
2019. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISION
INVOLVED
The First Amendment to the United States
Constitution provides, in relevant part: “Congress
shall make no law … abridging the freedom of speech,
… or the right of the people peaceably to assemble.”
U.S. Const. amend. I.
STATEMENT OF THE CASE
A.

The Challenged California Policy

Charities soliciting donations in California must
register with the Registry of Charitable Trusts (“Registry”) and renew annually by filing certain forms, including their federal tax return, IRS Form 990. Cal.
Code Regs., tit. 11, § 301. This registration requirement is enforced by California’s Attorney General,
who has primary responsibility to supervise charitable organizations operating in California. Cal. Gov.
Code § 12598.
Schedule B to federal income tax Form 990, titled
the “Schedule of Contributors,” has existed and been
used by the Internal Revenue Service (“IRS”) since
2000. See Supplemental Excerpts of Record, ECF
No. 23 (“SER”), at 452-59. It requires that most charities list the names, addresses, and donation amounts

6
of major donors—i.e., individuals who either contributed $5,000 or more in a given tax year or accounted
for 2% of all charitable receipts that year. See, e.g.,
SER480-85.
This donor information is extremely sensitive and
strongly protected by federal law. Under 26 U.S.C.
§ 6104(b), the IRS is forbidden from disclosing the
“name or address of any contributor” listed on Schedule B, and under § 6104(c)(3), the IRS generally cannot share a 501(c)(3)’s tax return (including Schedule
B) with state regulators (except under narrow, specified circumstances where an entity has been deemed
noncompliant). Federal employees who violate these
strictures face civil and criminal penalties. See 26
U.S.C. §§ 7213, 7431. Charities must publicly disclose
most of their tax return, see 26 U.S.C. § 6104(d)(1), but
they are “not required to publicly disclose their donors.” McCutcheon v. FEC, 572 U.S. 185, 224 (2014)
(plurality opinion); see 26 U.S.C. § 6104(d)(3)(A) (exempting charities from having to disclose “the name
or address of any contributor”). In short, a charity’s
Form 990 is public, but its Schedule B is not.
The legislative history surrounding the relevant
federal statute explains that Congress explicitly provided for donor privacy “because some donors prefer
to give anonymously” and because “requir[ing] public
disclosure in these cases might prevent the gifts.” S.
Rep. No. 91-552, at 53 (1969), reprinted in 1969
U.S.C.C.A.N. 2027, 2081.
No California law or regulation expressly requires
charities to file their Schedule Bs with the California
Attorney General in renewing their annual registrations. As a result, for over a decade, thousands of

7
charities registered and renewed their annual registrations with the Registry without submitting Schedule B donor information. See Excerpts of Record, ECF
No. 9 (“ER”), at 581-83.
Starting in 2010, however, the Registry began issuing deficiency letters to charities demanding that
they submit their Schedule B as part of their annual
registration renewal. App. 10a. Between 2010 and
2015, the Registry sent some eight thousand Schedule
B deficiency letters to different charities, effectively
creating a de facto requirement that the tens of thousands of charities registered in California must annually submit to the State their Schedule B in order to
renew their registration. ER375-76.
B.

The
Demonstrated
Pattern
Of
Confidentiality Violations By California

Despite pledging to maintain the confidentiality of
Schedule Bs, California has pervasively violated that
pledge.
When charities wrote back to California expressing concerns about potential exposure of their donors
listed on Schedule Bs, the Assistant Attorney General
in charge of the Registry provided express assurances
to each that “[t]he Registry has for at least the last 21
years maintained Schedule B for public charities as a
confidential document” and that she was “not aware
of an inadvertent disclosure in the last 21 years.”
SER201-06. The Attorney General’s Office likewise
represented, in staving off a preliminary injunction in
Center for Competitive Politics v. Harris, 784 F.3d
1307 (9th Cir. 2015), and then in opposing a preliminary injunction in this case that “there is no evidence

8
to suggest that any ‘inadvertent disclosure’ has occurred.” Answering Brief, Ctr. for Competitive Politics
v. Harris, No. 14-15978, ECF No. 17-1, at 32-33 (9th
Cir. July 8, 2014); see Appellant’s Opening Brief, Ams.
for Prosperity Found. v. Harris, No. 15-55446, ECF
No. 12-1, at 9-10 (9th Cir. May 7, 2015); Appellant’s
Reply Brief, Ams. for Prosperity Found. v. Harris, No.
15-55446, ECF No. 23, at 15 (9th Cir. July 8, 2015).
But it turned out that these representations were “inaccurate” when they were submitted, as multiple representatives of the Attorney General acknowledged
when cross-examined at trial. ER634, ER1042-46.
In the course of this litigation, Petitioner discovered 1,778 Schedule Bs that the Attorney General’s
Registry had publicly posted online, and it learned
that the Registry had known of for years (but swept
under the rug) at least 25-30 other Schedule Bs it had
previously posted online. App. 52a; ER816-17. Affected charities include many associated with controversial causes. “For instance, in 2012 Planned
Parenthood became aware that a complete Schedule
B for Planned Parenthood Affiliates of California, Inc.,
for the 2009 fiscal year was publicly posted; the document included the names and addresses of hundreds
of donors.” App. 92a. As the Attorney General’s designee recognized when testifying, “posting that kind
of information publicly could be very damaging to
Planned Parenthood.” ER626-27.
Even those lapses were just the tip of the iceberg.
During trial, “California’s computerized registry of
charitable corporations was shown to be an open door
for hackers.” App. 92a. In particular, Petitioner discovered that “every confidential document in the registry—more than 350,000 confidential documents”

9
(including Schedule Bs)—were publicly accessible
online. App. 92a. A flaw in the Registry’s filing protocol permitted any Internet user to obtain “confidential” documents (including but not limited to Schedule
Bs) “merely by changing a single digit at the end of
the website’s URL.” App. 92a. Even after recognizing
this gaping vulnerability, the Attorney General’s office still spent eight days patching the hole. ER93647.
Before witnesses were placed under oath and made
to testify in this case, the California Attorney General’s Office had never reported any of these known
lapses to anyone—not to other state agencies, to affected charities, or to exposed donors. ER765-66. At
trial, the officer in charge of the Registry testified that
the inadvertent public release of a Schedule B would
not even qualify as a “breach” of the office’s confidentiality policy, and, further still, that the Registry has
been internally interpreting the governing statute to
permit a range of deliberate Schedule B disclosures,
including in response to public-record requests and academic inquiries. ER1033-34, ER1054-56; Cal. Civ.
Code § 1798.24.
Further underscoring the lack of substance behind
California’s assurances of “confidentiality,” the Attorney General has afforded third-party vendors unfettered access to Schedule Bs, without interposing any
oversight or instruction. ER928-36. Never once has
the Attorney General penalized anyone for any of

10
these improper disclosures of Schedule Bs. ER81314.2
C.

AFPF And Its Donors

Petitioner Americans for Prosperity Foundation
(“AFPF”) is a 501(c)(3) charity that fundraises nationwide and educates the public about free-market solutions. App. 10a, 41a. It has a sister organization
named Americans for Prosperity, which is a 501(c)(4)
organization focused on policy and legislative change.
App. 10a. The general public, including protestors,
does not differentiate between AFPF and Americans
for Prosperity. ER202-03. Charles and David Koch
have been closely associated with these organizations;
they both helped establish AFPF, and David Koch
served as chairman of the board. ER230.
Since 2001, AFPF had renewed its registration annually with the Registry without disclosing individual
donors on Schedule B, and for over a decade the Registry accepted each renewal. App. 89a-90a. Starting
in 2013, however, the Registry began sending Schedule B deficiency letters to AFPF. App. 10a-11a. The
final letter prompted this litigation by threatening to
suspend AFPF’s registration, disallow its tax exemption, and impose fines on any of AFPF’s officers personally responsible for the failure to file Schedule B.
SER185-86.

2

Although the Attorney General adopted, post-trial, a regulation to “codify” the office’s approach to confidentiality, that regulation concededly does nothing to improve the Attorney General’s
protocols for handling sensitive information, nor does it establish
penalties for breaches. SER490.

11
AFPF’s donors are the organization’s lifeblood.
ER196. Schedule B donors are especially vital because they are AFPF’s largest contributors—each accounts for at least 2% of AFPF’s annual revenue.
App. 8a. The donors listed on AFPF’s Schedule Bs are
limited in number (in recent years, they have totaled
fewer than a dozen), App. 8a-9a, but their financial
contributions are outsized, ER318. Losing even one
Schedule B donor could require AFPF to shut down
parts of its operation. ER201, ER318.
To protect its donors, AFPF treats all of its donoridentifying information—including Schedule Bs—as
strictly confidential. ER195-96. It does so for good
reason: as the district court found after a multi-day
trial, persons perceived to be affiliated with AFPF face
threats, harassment, and violence. App. 49a-50a.
It is undisputed that security threats arise against
AFPF on a “regular basis.” ER311-12. Those seeking
to intimidate and silence AFPF have posted online the
names and addresses of its reported supporters—and
even the addresses of their children’s schools.
App. 79a. They have also sent countless threats of
death and violence, with some even targeting the supporters’ grandchildren. App. 50a. A contractor who
worked at AFPF’s headquarters wrote online about
infiltrating the “belly of the beast” and threatening to
slit the throat of AFPF’s CEO. App. 88a. A disturbing
first-person shooter video game was posted online
that had players entering Americans for Prosperity’s
headquarters to murder employees, who were depicted as zombies. ER447-49; SER550. AFPF itself
has been the victim of a serious bomb threat and a
cyberattack. ER313-14; ER300.

12
Sometimes the animosity boils over into physical
violence. At a Michigan rally, knife-wielding protestors tore down Americans for Prosperity’s heavy tent,
which collapsed on supporters, including elderly supporters who could not escape on their own. ER205-07;
SER551. At one of AFPF’s annual summits in Washington, D.C., protestors physically blocked exits,
“tried to push and shove and keep people in the building,” and caused a 78-year-old attendee to tumble
down the stairs. ER468-70; SER760-63.
Actual, potential, and even perceived donors report
that they have been singled out for audits and investigations by government officials as a result of their
donations (real or perceived). ER310-13. California
officials, including the predecessor Attorney General,
have taken aim at the relevant network in an effort to
stamp out anonymous giving, which they denigrate as
“dark money.” ER254-66; SER448-49.
Efforts to identify and publicize AFPF’s donors are
manifold and unrelenting. Individuals have infiltrated AFPF events to surreptitiously record and then
publicize suspected donors. ER266. Media have published donor information even when it is years old: In
2013, for example, the National Journal published
decade-old Schedule Bs of AFPF after finding them
mistakenly posted on a state government’s website.
ER199-200; SER554-57.
Given the grave, demonstrated risks they face of
violence, harassment, and targeting around the country, AFPF’s anonymous donors are deeply concerned
about the prospect that their affiliation with AFPF
might become public. ER306-08.

13
D.

The District Court Proceedings

In December 2014, AFPF challenged the Attorney
General’s disclosure demand as unconstitutional. It
secured a preliminary injunction, which a panel of the
Ninth Circuit (Reinhardt, Fisher, and Nguyen, JJ.)
vacated in December 2015 with instructions to enter
a new, more limited preliminary injunction that
would allow the Attorney General to collect AFPF’s
Schedule Bs but not publicize them. App. 68a-69a.
Despite that ruling, the parties reached a standstill
agreement that allowed AFPF to continue to withhold
its Schedule Bs until the district court entered its final
judgment.
Following a multi-day bench trial in early 2016,
the district court (Real, J.) issued a permanent injunction that enjoined the Attorney General’s disclosure
demand as applied to AFPF. App. 56a.
The district court first found that the Attorney
General’s sweeping demand for Schedule B disclosures each year from the tens of thousands of registered charities “demonstrably played no role in
advancing the Attorney General’s law enforcement
goals for the past ten years.” App. 47a. As the court
noted, “[t]he only logical explanation for why [AFPF’s]
‘lack of compliance’ went unnoticed for over a decade
is that the Attorney General does not use the Schedule
B in its day-to-day business.” App. 45a. Indeed, less
than 1% (5 out of 540) of the Attorney General’s investigations of charities over the past ten years had even
implicated Schedule B, and, even in those five investigations, the investigators were able to obtain the
pertinent Schedule B information from other sources.
App. 45a. A demand that thousands of charities submit confidential donor information each year just to

14
facilitate a mere five investigations over ten years does
not “substantially relate” to a governmental interest—especially when all of the relevant information is
available through other channels. App. 45a.
Relatedly, the district court also ruled that the Attorney General’s dragnet demand is not narrowly tailored to the asserted law-enforcement interest.
App. 45a-48a. In the rare case where a Schedule B
might be useful, the Attorney General’s investigators
can obtain that Schedule B just by following their uniform practice of issuing audit letters or subpoenas to
the specific charity or charities being investigated.
See App. 45a-48a; ER1028. Indeed, the district court
found that “[t]he record before the Court lacks even a
single, concrete instance in which pre-investigation
collection of a Schedule B did anything to advance the
Attorney General’s investigative, regulatory or enforcement efforts.” App. 47a.
Further still, the district court found that the disclosure demand imperils the anonymity of AFPF’s donors
because
the
Attorney
General
has
“systematically failed to maintain the confidentiality
of Schedule B forms.” App. 51a. As the court found,
the Registry had published over “1,778 confidential
Schedule Bs” on its website, “including 38 which were
discovered the day before this trial.” App. 52a. Many
of these Schedule Bs (revealing innumerable individual donors) had been publicly available for years.
ER850-51. The court concluded that this “pervasive,
recurring pattern of uncontained Schedule B disclosures—a pattern that has persisted even during this
trial—is irreconcilable with the Attorney General’s assurances and contentions as to the confidentiality of
Schedule Bs collected by the Registry.” App. 52a.

15
Given these failings, and especially given the “ample evidence establishing that [AFPF], its employees,
supporters and donors face public threats, harassment, intimidation, and retaliation once their support
for and affiliation with the organization becomes publicly known,” App. 49a, the court issued a permanent
injunction that enjoined the Attorney General’s demand for Schedule B as applied to AFPF, App. 56a.
The court emphasized it was “not prepared to wait until an [AFPF] opponent carries out one of the numerous death threats made against its members.”
App. 50a.
E.

The Ninth Circuit Decision

On appeal and cross-appeal of the final judgment,
a panel of the Ninth Circuit vacated the injunction
and directed judgment for the Attorney General.
App. 1a-40a (Fisher, J., joined by Nguyen and Paez,
JJ.).3 The court held that the district court had legally
erred by requiring narrow tailoring of means to ends
when applying exacting scrutiny in this context.
App. 22a (“[N]arrow tailoring and least-restrictivemeans tests … do not apply here.”). In jettisoning any
requirement of narrow tailoring, the court of appeals
relied on cases such as Doe v. Reed, 561 U.S. 186
(2010), which apply less exacting scrutiny to disclosure requirements in the electoral context. App. 16a3

The late Judge Reinhardt, who presided over the first panel
(which decided the preliminary-injunction appeal in this case),
passed away before oral argument in the appeal from the final
judgment. Judge Reinhardt was then replaced by Judge Paez,
who had written a related opinion for the court in Center For
Competitive Politics v. Harris, 784 F.3d 1307 (9th Cir. 2015) (affirming denial of a request for preliminary injunction to restrain
California’s demand for Schedule Bs).

16
17a. The court of appeals’ rejection of narrow tailoring was indispensable to its reversal of the district
court’s ruling, which had expressly found that California could achieve its interests through narrower
means that would avoid casting excessive chill upon
protected associational activity.
The court of appeals also ruled that the district
court had erred in concluding that the submission of
Schedule Bs does not advance the governmental interest in policing charitable fraud; that forcing AFPF to
provide the Attorney General with its Schedule B
would chill contributions to AFPF; and that providing
the Schedule B presents a significant risk of public
disclosure of donor information in light of the Attorney General’s systematic confidentiality lapses.
App. 22a-23a, 39a.
Five judges dissented from the Ninth Circuit’s denial of rehearing en banc. App. 77a-97a. They criticized the panel for committing “crucial legal errors,”
particularly by “declin[ing] to apply NAACP v. Alabama” and instead applying “a lower form of scrutiny
adopted by the Supreme Court for the unique electoral
context” that does not separately inquire into narrow
tailoring. App. 79a. In the view of the dissenters, the
panel’s adoption of this lesser scrutiny broke with decisions from multiple sister circuits, App. 84a-85a &
n.1, en route to a conclusion that “is contrary to the
reasoning and spirit of decades of Supreme Court jurisprudence,” App. 96a.
The dissenters also lamented the “equally egregious” “factual errors” made by the panel, which “not
only failed to defer to the district court, but also
reached factual conclusions that were unsupported by

17
the record.” App. 91a. The panel, according to the dissenters, “violated our standard of review as well as
common sense” by rejecting the district court’s wellfounded factual findings. App. 92a-93a. The dissenters emphasized the panel’s lack of warrant for overturning, in particular, the district court’s findings that
“the state did not have a strong interest in obtaining
the Schedule B submissions to further its enforcement
goals,” App. 93a, and that “the state’s promise of confidentiality was illusory” particularly insomuch as
“the state’s database was vulnerable to hacking and
scores of donor names were repeatedly released to the
public, even up to the week before trial,” App. 78a79a.4
The court of appeals granted AFPF’s timely application to stay the mandate pending this Court’s disposition of this Petition. Throughout these years of
proceedings, AFPF has protected the Schedule Bs at
issue against demand for disclosure by the Attorney
General, and it continues to do so pending this Court’s
disposition of the instant petition.
REASONS FOR GRANTING THE WRIT
I.

THE DECISION BELOW CONFLICTS WITH
THIS
COURT’S
PRECEDENTS
AND
CREATES A CIRCUIT SPLIT
A.

The Ninth Circuit’s Holding Conflicts
With This Court’s Precedents

As this Court has long recognized, the First
Amendment guarantees the “right to associate with
others in pursuit of a wide variety of political, social,
4

Responding to the dissent, the panel judges defended their
resolution of the merits. App. 98a-109a.

18
economic, educational, religious, and cultural ends,”
Roberts v. U.S. Jaycees, 468 U.S. 609, 622 (1984), as
well as the right to support causes anonymously, see
Watchtower Bible & Tract Soc’y of N.Y., Inc. v. Vill. of
Stratton, 536 U.S. 150, 166-67 (2002); Talley v. California, 362 U.S. 60, 64-65 (1960). The seminal example is NAACP v. Alabama ex rel. Patterson, 357 U.S.
449 (1958), where the Court struck down the Alabama
Attorney General’s demand that the NAACP divulge
the names of its members. Recognizing that “privacy
in group association” is “indispensable to preservation
of freedom of association, particularly where a group
espouses dissident beliefs,” the Court held in NAACP
v. Alabama that compelled disclosure of the identities
of an expressive group’s supporters must satisfy exacting scrutiny in order to pass constitutional muster.
Id. at 462-63; see also Buckley v. Valeo, 424 U.S. 1, 64
(1976) (per curiam) (describing NAACP v. Alabama as
calling for “exacting scrutiny”).5

5

When describing the level of scrutiny governing a First
Amendment challenge, this Court sometimes treats “exacting
scrutiny” interchangeably with “strict scrutiny.” Compare, e.g.,
Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656, 1664-65 (2015) (variously describing as “exacting scrutiny” and “strict scrutiny” a
test requiring a speech limitation to be “narrowly tailored to
serve a compelling interest”), with, e.g., Janus v. Am. Fed’n of
State, Cty., & Mun. Emps, Council 31, 138 S. Ct. 2448, 2465
(2018) (applying a version of “exacting” scrutiny that is “a less
demanding test than … ‘strict’ scrutiny”). Here, whether the test
set forth by NAACP v. Alabama and its progeny is labeled “exacting scrutiny” or “strict scrutiny” is inconsequential to the fundamental point, on which this Court and circuits other than the
Ninth align, that the requirement of narrow tailoring is essential
to the analysis, as explained infra, at 19-21, 23-28. See App. 81a
(“While the Supreme Court has articulated this three-part test

19
To satisfy this exacting scrutiny, the government
must “convincingly show a substantial relation between the information sought and a subject of overriding and compelling state interest.” Gibson v. Fla.
Legislative Investigation Comm’n, 372 U.S. 539, 54546 (1963); see also Cal. Bankers Ass’n v. Shultz, 416
U.S. 21, 98 (1974) (Marshall, J., dissenting) (“The
First Amendment gives organizations such as the
ACLU the right to maintain in confidence the names
of those who belong or contribute to the organization,
absent a compelling governmental interest requiring
disclosure.”).
For decades, a core component of exacting scrutiny
has required that any government demand for member or donor lists be “narrowly drawn.” Louisiana ex
rel. Gremillion v. NAACP, 366 U.S. 293, 297 (1961);
accord Shelton v. Tucker, 364 U.S. 479, 488 (1960)
(holding unconstitutional a sweeping government demand for information about associations of public
school teachers because, “even though the governmental purpose be legitimate and substantial, that purpose cannot be pursued by means that broadly stifle
fundamental personal liberties when the end can be
more narrowly achieved”); Roberts v. Pollard, 393 U.S.
14 (1968), summarily affirming 283 F. Supp. 248, 257
(E.D. Ark. 1968) (three-judge court) (absent narrow
tailoring, governments could demand “sweeping and
indiscriminate identification of all of the members of
the group in excess of the State’s legitimate need for
information”); see also Roberts, 468 U.S. at 634
in various ways, it has made clear that the test affords substantial protection to persons whose associational freedoms are
threatened,” including by requiring that the government’s
“means were narrowly tailored”).

20
(O’Connor, J., concurring in part and concurring in
the judgment) (“Reasonable, content-neutral state
regulation of the time, place, and manner of an organization’s relations with its members or with the State
can pass constitutional muster, but only if the regulation is ‘narrowly drawn’ to serve a ‘sufficiently strong,
subordinating interest’ ‘without unnecessarily interfering with First Amendment freedoms.’” (quoting
Vill. of Schaumburg v. Citizens for a Better Env’t, 444
U.S. 620, 636-37 (1980))).
This Court’s decisions align around a basic principle: a State can never interfere with associational
rights unless it uses means “closely drawn to avoid
unnecessary abridgement of associational freedoms.”
In re Primus, 436 U.S. 412, 432 (1978) (quoting Buckley, 424 U.S. at 25); see also, e.g., Christian Legal Soc’y
Chapter of Univ. of Cal., Hastings Coll. of Law v. Martinez, 561 U.S. 661, 680 (2010) (“restrictions” on “associational freedom” are “permitted only if they serve
‘compelling state interests’ that … cannot be advanced
‘through … significantly less restrictive [means]’”
(quoting Roberts, 468 U.S. at 623)); Kusper v. Pontikes, 414 U.S. 51, 59 (1973) (“a State may not choose
means that unnecessarily restrict constitutionally
protected liberty”).
More broadly, narrow tailoring is part and parcel
of the heightened scrutiny that always attends laws
abridging interests protected under the First Amendment. As this Court has explained:
In the First Amendment context, fit matters. Even when the Court is not applying
strict scrutiny, we still require “a fit that is
not necessarily perfect, but reasonable; that
represents not necessarily the single best

21
disposition but one whose scope is in proportion to the interest served … that employs
not necessarily the least restrictive means
but … a means narrowly tailored to achieve
the desired objective.”
McCutcheon v. FEC, 572 U.S. 185, 218 (2014) (plurality opinion) (quoting Bd. of Trs. v. Fox, 492 U.S. 469,
480 (1989)); see also Janus, 138 S. Ct. at 2465 (“‘exacting’ scrutiny,” while “less demanding … than … ‘strict’
scrutiny,” looks for “means significantly less restrictive of associational freedoms”); Riley v. Nat’l Fed’n of
the Blind of N.C., Inc., 487 U.S. 781, 798-801 (1988)
(applying “exacting First Amendment scrutiny” to
strike down disclosure requirement imposed on charitable fundraisers because it was “not narrowly tailored”).
The Ninth Circuit’s decision squarely conflicts
with this long and settled line of precedent. To uphold
the California Attorney General’s broad disclosure demand, the court of appeals held that “narrow tailoring
and least-restrictive-means tests … do not apply
here.” App. 22a. As the en banc dissenters recognized, however:
[T]here is no doubt that the NAACP v. Alabama test—requiring a compelling government interest, a substantial relation
between the sought disclosure and that interest, and narrow tailoring so the disclosure does not infringe on First Amendment
rights more than necessary—remains applicable for cases arising outside of the electoral context, where a plaintiff needs its

22
crucial protection against forced disclosures
that threaten critical associational rights.
App. 84a.
It is no answer to suggest that this case should be
governed instead by cases upholding disclosure laws
governing elections, which do not ask whether a donor
disclosure requirement is narrowly tailored to the government’s interests. See, e.g., Doe v. Reed, 561 U.S.
186, 195-96 (2010); Citizens United v. FEC, 558 U.S.
310, 369-70 (2010); Davis v. FEC, 554 U.S. 724, 744
(2008). None of these cases “discuss[es] whether disclosure was narrowly tailored to address the government’s concern” because “Buckley [v. Valeo] already
held that it is.” App. 83a. But this Court “has applied
Buckley’s test only in cases that involve election-related disclosures”; “outside of the electoral context,” in
contrast, the Court “has maintained NAACP v. Alabama’s standard.” App. 83a-84a (collecting cases).
These separate lines of cases reflect the categorical
distinction between donations to candidates for electoral office, where compelled public disclosure can be
an affirmative good, and donations in the non-election
context, where compelled disclosure is, at best, a necessary evil. As the dissent from denial of rehearing en
banc recognized, the government has a unique interest in “ensuring our election system is free from corruption or its appearance.” App. 82a. Furthermore,
unlike when citizens associate in private, voting involves the machinery of government, over which
states enjoy considerable latitude. As noted in Doe v.
Reed, “We allow States significant flexibility in implementing their own voting systems.” 561 U.S. at 195.
Due to the unique interests at play in the electoral
context, this Court has held since Buckley v. Valeo

23
that public disclosure of election-related donors is the
“least restrictive means of curbing the evils of campaign ignorance and corruption.” 424 U.S. at 68. In
other words, Buckley “fashioned a per se rule” that
“the narrow tailoring prong of the NAACP v. Alabama
test is satisfied” when a government invokes its venerable interest in compelling disclosure specifically of
donors who give money to influence elections.
App. 82a.
Outside of the election context, however, this
Court has long and consistently vindicated the “strong
associational interest in maintaining the privacy of
membership lists.” Gibson, 372 U.S. at 555-56. Indeed, giving law enforcement wide latitude to enforce
sweeping demands for donor information simply because law enforcement desires it is tantamount to abdicating NAACP v. Alabama.
Accordingly, this Court should grant certiorari “to
reaffirm the vitality of NAACP v. Alabama’s protective doctrine, and to clarify that Buckley’s watereddown standard has no place outside of the electoral
context.” App. 97a. The brief of amicus NAACP Legal
Defense and Education Fund well explained to the
merits panel below why exacting scrutiny—truly exacting scrutiny—remains no less essential today: “By
collecting and aggregating confidential information
about an organization’s donors or members, the government creates a loaded gun that a future administrat[ion] might decide to fire.” ECF No. 45 (“NAACP
Br.”), at 28.

24
B.

The Ninth Circuit’s Holding Creates A
Circuit Split

The Ninth Circuit’s disavowal of narrow tailoring
likewise splits from the holdings of its sister circuits.
As the en banc dissent below explained, “[u]ntil recently, the circuit courts, including the Ninth Circuit,
have agreed that NAACP v. Alabama is still good law,
and they have applied it when considering state action
that has the effect of burdening individuals’ First
Amendment rights by requiring disclosure of associational information.” App. 84a. The First, Second,
Third, Fourth, Fifth, Sixth, Tenth, and D.C. Circuits
have all agreed, in applying exacting scrutiny outside
the election context, that any compelled disclosure of
a group’s supporters must be narrowly tailored to or
the least-restrictive means of achieving the asserted
governmental interest.
For example, the Fifth Circuit held in Familias
Unidas v. Briscoe that compelled disclosure will not be
upheld absent narrow tailoring. 619 F.2d 391, 399
(5th Cir. 1980). Familias Unidas concerned a Texas
statute that authorized county judges to compel membership lists from organizations that interfered with
the operation of public schools. Id. at 394. When a
local judge invoked Texas’s disclosure law to order a
school-reform group to disclose its members, the group
sued in federal court, arguing that the statute violated
the First Amendment. Id. at 395-97.
The Fifth Circuit held that the statute violated the
First Amendment precisely because it was not narrowly tailored. Id. at 402. The Fifth Circuit first
acknowledged that Texas had a “legitimate and compelling” interest in the “peaceful, undisrupted functioning of its public schools” and that the disclosure

25
law bore a “relevant correlation” to that interest. Id.
at 400. Nevertheless, the Fifth Circuit struck down
the law as one that “swe[pt] too broadly.” Id. “Even
when related to an overriding, legitimate state purpose, statutory disclosure requirements will survive
this exacting scrutiny only if drawn with sufficiently
narrow specificity to avoid impinging more broadly
upon First Amendment liberties than is absolutely
necessary.” Id. at 399.
The Second Circuit has likewise struck down a
compelled disclosure because it was not narrowly tailored. In Local 1814, International Longshoremen’s
Association, AFL-CIO v. Waterfront Commission of
New York Harbor, a government commission was investigating claims that a local union had coerced its
members into contributing to the union’s political action committee. 667 F.2d 267, 269-70 (2d Cir. 1981).
When the commission issued a subpoena seeking the
names of 450 members who had contributed during
the relevant period, the union and its political action
committee sued to enjoin the subpoena, arguing that
the compelled disclosure violated the First Amendment. Id. at 270.
The district court agreed that the subpoena was
likely to chill the union members’ First Amendment
rights, while simultaneously recognizing that “disclosure was reasonably related to the compelling state
interest in fighting crime.” Id. To balance these interests, the court ultimately modified the subpoena to
authorize disclosure of only 45 of the 450 members.
Id. While the union appealed the limited disclosure,
the commission cross-appealed, arguing that the district court should have authorized the disclosure of all
requested members. Id. at 269.

26
The Second Circuit rejected the commission’s argument and held the unmodified subpoena unconstitutional. Although the court agreed that the original
subpoena related to a compelling state interest, the
court held that it nevertheless violated the First
Amendment to the extent it was not narrowly tailored:
Our determination that disclosure is significantly related to the achievement of a
compelling governmental interest does not
end our inquiry, however, for we must still
examine the scope of the proposed action. …
[W]e think it is appropriate in determining
whether the governmental interest justifies
the inevitable chilling effect of some disclosures to assess whether the disclosures will
impact a group properly limited in number
in light of the governmental objective to be
achieved. … [W]e agree with [the district
court] that, at this stage, disclosure of all
450 names of these contributors would
sweep unnecessarily beyond the Commission’s legitimate needs.
Id. at 273-74 (citations omitted).
The Second Circuit’s recent decision in Citizens
United v. Schneiderman, 882 F.3d 374 (2d Cir. 2018),
does not disturb its prior holding that compelled disclosures must be narrowly tailored. While the court
affirmed the dismissal of a First Amendment challenge to New York’s demand for Schedule Bs, it did so
on grounds that did not reach the requirement of narrow tailoring. Moreover, it specifically distinguished

27
the instant case by noting California’s “systematic incompetence in keeping donor lists confidential.” Id. at
384 (citing App. 51a).
The First, Third, Fourth, Sixth, Tenth, and D.C.
Circuits have likewise agreed that narrow tailoring is
a necessary part of exacting scrutiny in this context.6
As the Fourth Circuit put it: “To survive the ‘exacting
scrutiny’ required by the Supreme Court, … the government must show that the disclosure and reporting
requirements are justified by a compelling government interest, and that the legislation is narrowly tailored to serve that interest.” Master Printers of Am. v.
Donovan, 751 F.2d 700, 705 (4th Cir. 1984) (emphasis
added).

6

See United States v. Comley, 890 F.2d 539, 543-44 (1st Cir.
1989) (“Once [a prima facie showing of First Amendment infringement] is made, the burden then shifts to the government
to show both a compelling need for the material sought and that
there is no significantly less restrictive alternative for obtaining
the information.”); Trade Waste Mgmt. Ass’n v. Hughey, 780 F.2d
221, 239 (3rd Cir. 1985) (when scrutinizing compelled disclosure
laws of social or political associations, courts must determine
“whether the state’s ends could be achieved through less intrusive means”); Humphreys, Hutcheson, & Moseley v. Donovan, 755
F.2d 1211, 1222 (6th Cir. 1985) (upholding a challenged disclosure law only after determining that the law’s provisions were
“carefully tailored so that first amendment freedoms [were] not
needlessly curtailed”); Wilson v. Stocker, 819 F.2d 943, 949 (10th
Cir. 1987) (“The law must be substantially related to a compelling governmental interest, and must be narrowly drawn so as to
be the least restrictive means of protecting that interest.”); Clark
v. Library of Congress, 750 F.2d 89, 94 (D.C. Cir. 1984) (to “compel[] disclosure” of a person’s associations, the government must
establish that the “means chosen to further its compelling interest are those least restrictive of freedom of belief and association”).

28
The Ninth Circuit’s decision creates a stark split
from these uniform decisions by eschewing any regard
for narrow tailoring. The Ninth Circuit has thus injected uncertainty into an area where clear rules are
essential—particularly for charitable organizations
that operate and fundraise nationally. This Court’s
intervention is needed to clarify the limits of compelled disclosure laws and ensure uniformity in the
standard of review they must answer to under the
First Amendment.
II.

THIS CASE RAISES EXCEPTIONALLY
IMPORTANT FIRST AMENDMENT ISSUES

The Ninth Circuit’s decision further warrants review because it threatens grave harm to vital First
Amendment interests on a national basis. By its
terms, the Ninth Circuit’s holding condones compelled
disclosures from tens of thousands of charities across
the country, merely because they operate and register
in California. The resulting chill will be felt nationwide as numerous organizations and their donors
grapple with disclosure requirements and the attendant threats to confidentiality. Recognizing as
much, dozens of charities from across the political
spectrum and nearly a dozen States submitted amicus
briefs supporting AFPF’s position in the proceedings
below.7
7

See ECF No. 26 (Pacific Legal Foundation) (panel stage)
(supporting AFPF), ECF No. 30 (Electronic Privacy Information
Center) (same), ECF No. 31 (Philanthropy Roundtable) (same),
ECF No. 36 (Arizona, Alabama, Louisiana, Nevada, Texas, and
Wisconsin), ECF No. 37 (American Target Advertising, Inc.)
(same), ECF No. 42 (Free Speech Defense and Education Fund,
Free Speech Coalition, Citizens United, Citizens United Foundation, National Right to Work Committee, U.S. Constitutional

29
The factual record established in this case highlights the dramatic consequences of the Ninth Circuit’s legal errors. Not only did the Ninth Circuit
jettison any need for narrow tailoring in concluding
that Schedule B disclosure enhances “investigative efficiency,” App. 19a, but it dismissed contrary findings
and record proof by effectively demanding deference
to self-serving, conclusory statements by state wit-

Rights Legal Defense Fund, U.S. Justice Foundation, Family Research Council, Western Center for Journalism, Conservative
Legal Defense and Education Fund, The Leadership Institute,
Public Advocate of the United States, Downsize DC Foundation,
DownsizeDC.org, Gun Owners Foundation, Gun Owners of
America, 60 Plus, 60 Plus Association, America’s Foundation for
Law and Liberty, America’s Liberty Committee, Citizen Outreach Foundation, Citizen Outreach, LLC, Law Enforcement Alliance of America, Liberty Guard, Coalition for a Strong America,
The Jesse Helms Center, Americans for Constitutional Liberty,
CatholicVote.org, Eberle Communications Group, Inc., ClearWord Communications Group, Davidson & Co., and JFT Consulting, Inc.) (same), ECF No. 43 (Pacific Research Institute,
Cato Institute, and Competitive Enterprise Institute) (same),
ECF No. 44 (Alliance Defending Freedom) (same), ECF No. 45
(NAACP Legal Defense and Education Fund) (same),
ECF No. 46 (Proposition 8 Legal Defense Fund) (same); see also
ECF No. 107 (Philanthropy Roundtable, Liberty Education Forum, Pacific Research Institute, and Alliance Defending Freedom) (en banc stage) (supporting vacatur of panel decision),
ECF No. 108 (Council on American-Islamic Relations) (same),
ECF No. 109 (Pacific Legal Foundation) (same), ECF No. 114
(Citizens United, Citizens United Foundation, Free Speech Defense and Education Fund, and Free Speech Coalition) (same),
ECF No. 115
(American
Target
Advertising)
(same),
ECF No. 118 (Arizona, Alabama, Arkansas, Kansas, Louisiana,
Nebraska, Nevada, South Carolina, Texas, and Wisconsin)
(same), ECF No. 121 (New Civil Liberties Alliance) (same),
ECF No. 122 (Proposition 8 Legal Defense Fund) (same).

30
nesses, App. 18a-21a. By disregarding copious evidence of First Amendment chill and governmental
overreach while deferring to the feeblest of claimed
justifications by the government, the Ninth Circuit
laid down a precedent that transcends Schedule B and
invites States to demand and collect any donor list
based on law enforcement’s say-so.8 As the en banc
dissent below explained, “[u]nder the panel’s standard, a state’s self-serving assertions about efficient
law enforcement are enough to justify disclosures notwithstanding the threats, hostility, and economic reprisals against socially disfavored groups that may
ensue.” App. 96a. And, as amicus Pacific Legal Foundation warned, “The panel decision … slams shut the
courthouse doors by establishing a nearly insurmountable bar to as-applied challenges to such laws.”
PLF Br. at 8.
The Ninth Circuit’s weakening of exacting scrutiny
compromises First Amendment rights and interests
across the political spectrum. Any group, and anyone
who donates to it, may wind up on the wrong side of a
particular government official, in a particular part of
the country, at a particular point in time—just as any
leak of identifying information may radiate around
the country, at the push of a button, thereafter to be
permanently etched on the Internet. All expressive
Although the panel noted that relatively few names appear on
Schedule B, App. 8a-9a, the same qualification weighs on both
sides of the scales—for Schedule B’s utility to law enforcement
extends no further than the list is long. Under the panel’s approach, therefore, the identities of all donors are no less subject
to compulsion once the government asserts an interest in accessing complete donor information to facilitate possible investigation.
8

31
organizations of every political stripe are threatened
by this dynamic. It should be no surprise that a prominent Muslim charity warns that “[s]ubjecting governments to only rational basis review”—as the Ninth
Circuit effectively did—“creates a world that permits
sweeping associational surveillance.” Brief of Council
on American-Islamic Relations, ECF No. 108, at 15;
see also PLF Br. at 8.
Especially problematic is the court’s treatment of
confidentiality concerns. The record reveals the very
real danger posed by California’s demand for Schedule
B as well as the chill that will be cast upon charities
and donors that rationally value privacy in their association. See supra, at 7-12. The California Attorney
General’s assurances of confidentiality have proved
unreliable, at best. Indeed, the Attorney General’s assurances and representations proved irreconcilable
with known breaches, revealed in the court proceedings below, that the Attorney General’s office had previously denied occurred.
Upholding the Attorney General’s demand under
these circumstances plainly chills associational activity protected under the First Amendment. Because
Schedule Bs systemically leaked in the past—with no
consequences for those responsible—donors have
every reason to fear leaks in the future. If the Attorney General’s demand nevertheless stands, informed
donors who want to safeguard their identities from
public disclosure will have good reason to cease or curtail their giving.
Confronting California’s record of hollow assurances and uncontrolled leaks, the Ninth Circuit
acknowledged that “this history raises a serious concern” about the absence of confidentiality. App. 35a.

32
But the Ninth Circuit nonetheless reversed the district
court’s relevant findings. App. 38a-40a. The court below was content to accept the Attorney General’s latest promises of new safeguards and to “encourage all
interested parties to work cooperatively to ensure that
Schedule B information in the hands of the Attorney
General remains confidential.” App. 37a-38a n.11.
As the dissent from the denial of en banc rehearing
observed, however, “no evidence” supports the claim
that California’s new safeguards “would obviate future disclosures,” and such a claim “is contrary to any
real-world experience.” App. 93a. Notably, the Attorney General’s hollow assurances of confidentiality
never would have been debunked absent successful
litigation and judicial relief, which would henceforward be foreclosed if the Ninth Circuit’s decision
stands. Under the decision below, a challenge like
this would be doomed at its inception, as no donor or
charity would be able to state a valid First Amendment claim in court (as opposed to appealing to the
Attorney General’s cooperative impulses). That state
of the law is no more satisfying than it would have
been had this Court decided NAACP v. Alabama the
opposite way while simply urging the State of Alabama to be fair and work cooperatively with the
NAACP.
To the extent that Schedule Bs continue to leak (as
they consistently have throughout the period covered
by this record), the damage will be irreversible.
“[O]nce confidential information enters the public domain, there is no effective way to claw it back.”
NAACP Br. at 30; see Hollingsworth v. Perry, 558 U.S.
183, 196 (2010); Ruckelshaus v. Monsanto Co., 463
U.S. 1315, 1317 (1983) (Blackmun, J., in chambers);

33
see also Maness v. Meyers, 419 U.S. 449, 460 (1975).
Such irreversible public disclosure presents a grave
risk of threats, harassment, and violence for AFPF’s
donors and for the donors of thousands of other charities whose Schedule B is unsafe in the California Attorney General’s hands.
Moreover, other States will be rendered powerless
to protect donors and facilitate anonymous donations
to the extent that California is permitted to become a
weak link in the chain. Whenever California enables
release of confidential information about donors, the
release radiates nationwide, thereby nullifying the
careful measures other jurisdictions take to protect
and encourage anonymous giving.
III. THIS CASE IS AN IDEAL VEHICLE TO
ADDRESS THE QUESTION PRESENTED
This case affords an excellent opportunity to clarify the framework governing compelled disclosure of
group affiliations outside of the election context.
AFPF, as a 501(c)(3) charity, is strictly prohibited
from undertaking any election-related advocacy. And
the Attorney General has disavowed the traditional
interest in public disclosure that has been credited in
election cases. App. 59a.
Moreover, the proceedings here yielded a rich factual record drawing on days of live witness testimony
that make the First Amendment concerns at stake
vivid and non-hypothetical. Among AFPF’s witnesses
at trial were multiple high-level officers who have
navigated security threats and efforts to out and to attack donors; a former board member and longstanding
public donor whose travails afford a “cautionary tale”
for those who might become publicly linked to AFPF;

34
an academic expert who opined specifically about the
value and importance of anonymous giving, and the
harms that arise from involuntary disclosure; and a
statistical expert, who systematically studied and assessed the incidence of California’s known confidentiality breaches. App. 49a-50a; see ER193, ER296,
ER331-32, ER367-68, ER472, ER503, ER513. Among
the Attorney General’s witnesses were the senior deputy responsible for supervising the Registry as well as
her predecessor; the current and former Registrars;
the lead auditor responsible for investigating charities; and an attorney who supposedly used Schedule B
for a charitable investigation. App. 20a; ER736-37,
ER966-67, ER991-92, ER1012.
When all was said and done, the revelations were
dramatic. After presiding over the multi-day bench
trial and studying the record, the district court found
“ample evidence establishing that [AFPF], its employees, supporters and donors face public threats, harassment, intimidation, and retaliation once their support
for and affiliation with the organization becomes publicly known.” App. 49a. It further found that “the Attorney General has systematically failed to maintain
the confidentiality of Schedule B forms,” App. 51a,
and that the Attorney General failed to establish a
substantial relationship between the demand for
Schedule B and a sufficiently important governmental
interest, as well as proper tailoring of means to ends,
App. 44a-47a. Underlining that point is agreement by
ten States as amici that “California’s policy of compelled disclosure is not necessary to the work of policing non-profit organizations.” ECF No. 118, at 2.
Finally, this case’s posture affords the rare opportunity to ensure that the important legal issues raised

35
will not evade judicial review. Government policies
that chill speech often deter challengers; this problem
is magnified where anonymity is the very First
Amendment interest at issue. Here, however, AFPF
has mounted a robust challenge and fended off California’s demands for disclosure throughout years of
litigation, such that the identities of its anonymous
donors remain secure as of this Petition.
Accordingly, AFPF has indisputable standing to
challenge the disclosure demands, and its claims are
ripe and not moot. Unless reversed, the Ninth Circuit’s decision may make it difficult for would-be challengers going forward to demonstrate that a charity
and its donors face dangers comparable to those
demonstrated on the record here—or that disclosure
demands confronted elsewhere in the country appreciably surpass those already incurred and condoned in
California. If the decision below stands, subsequent
challengers will be hard pressed to secure the relief
necessary to ward off a governmental demand for donor identities while a case winds its way to this Court.
These potential problems afford additional reason
why this Court should use this case to take up and
decide the Question Presented.

36
CONCLUSION
The petition should be granted.
Respectfully submitted,
KATHLEEN M. SULLIVAN
DEREK L. SHAFFER
QUINN EMANUEL URQUHART Counsel of Record
& SULLIVAN, LLP
WILLIAM A. BURCK
51 Madison Avenue
JONATHAN G. COOPER
22nd Floor
QUINN EMANUEL URQUHART
New York, NY 10010
& SULLIVAN, LLP
(212) 849-7000
1300 I Street NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@
quinnemanuel.com

Counsel for Petitioner
August 26, 2019

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed 9/11/2018]
————
No. 16-55727
D.C. No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellee,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of California,
Defendant-Appellant.
————
No. 16-55786
D.C. No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of California,
Defendant-Appellee.
————
No. 16-56855
D.C. No. 2:15-cv-03048-R-FFM
————

2a
THOMAS MORE LAW CENTER,
Plaintiff-Appellee,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of the State of California,
Defendant-Appellant.
————
No. 16-56902
D.C. No. 2:15-cv-03048-R-FFM
————
THOMAS MORE LAW CENTER,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of the State of California,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
————
Argued and Submitted June 25, 2018
Pasadena, California
————
Filed September 11, 2018
————
OPINION
————

3a
SUMMARY*
Civil Rights
Before: Raymond C. Fisher, Richard A. Paez and
Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Fisher
The panel vacated the district court’s permanent
injunctions, reversed the bench trial judgments, and
remanded for entry of judgment in favor of the California
Attorney General in two cases challenging California’s
charitable registration requirement as applied to two
non-profit organizations that solicit tax-deductible contributions in the state.
Plaintiffs qualify as tax-exempt charitable organizations under § 501(c)(3) of the Internal Revenue Code,
26 U.S.C. § 501(c)(3). They challenge the Attorney
General of California’s collection of Internal Revenue
Service Form 990 Schedule B, which contains the names
and addresses of their relatively few largest contributors. Plaintiffs argue the state’s disclosure requirement
impermissibly burdens their First Amendment right
to free association.
The panel held that the California Attorney General’s
Schedule B requirement, which obligates charities to
submit the very information they already file each year
with the IRS, survived exacting scrutiny as applied to
the plaintiffs because it was substantially related to
an important state interest in policing charitable fraud.
The panel held that plaintiffs had not shown a significant First Amendment burden on the theory that
complying with the Attorney General’s Schedule B
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

4a
nonpublic disclosure requirement would chill contributions. The panel further concluded that even assuming
arguendo that the plaintiffs’ contributors would face
substantial harassment if Schedule B information
became public, the strength of the state’s interest in
collecting Schedule B information reflected the actual
burden on First Amendment rights because the information was collected solely for nonpublic use, and the
risk of inadvertent public disclosure was slight.
COUNSEL
Alexandra Robert Gordon (argued), Jose A. ZelidonZepeda, Kevin A. Calia, and Emmanuelle S. Soichet,
Deputy Attorneys General; Tamar Pachter, Supervising
Deputy Attorney General; Douglas J. Woods, Senior
Assistant Attorney General; Xavier Becerra, Attorney
General; Office of the Attorney General, San Francisco,
California; for Defendant-Appellant/Cross-Appellee.
Derek Shaffer (argued), William A. Burck, Eric C.
Lyttle, Keith H. Forst, and Jonathan G. Cooper, Quinn
Emanuel Urquhart & Sullivan LLP, Washington, D.C.;
Harold Barza, Quinn Emanuel Urquhart & Sullivan,
LLP, Los Angeles, California; for Plaintiff-Appellee/
Cross-Appellant.
Tara Malloy, J. Gerald Hebert, and Megan P. McAllen,
Campaign Legal Center, Washington, D.C., for Amicus
Curiae Campaign Legal Center.
Jeremy Talcott and Joshua P. Thompson, Pacific Legal
Foundation, Sacramento, California, for Amicus Curiae
Pacific Legal Foundation.
Marc Rotenberg, Alan Butler, James T. Graves, and
John Davisson, Electronic Privacy Information Center,
Washington, D.C., for Amicus Curiae Electronic Privacy
Information Center.

5a
David Weiner and Robert Leider, Arnold & Porter
Kaye Scholer LLP, Washington, D.C., for Amicus
Curiae The Philanthropy Roundtable.
Keith Joseph Miller, Assistant Attorney General;
Dominic E. Draye, Solicitor General; Mark Brnovich,
Attorney General; Office of the Attorney General,
Phoenix, Arizona, for Amici Curiae States of Arizona,
Alabama, Louisiana, Michigan, Nevada, Texas, and
Wisconsin.
Mark Joseph Fitzgibbons, American Target Advertising,
Manassas, Virginia, for Amicus Curiae American
Target Advertising, Inc.
Allyson Newton Ho and John C. Sullivan, Gibson
Dunn & Crutcher LLP, Dallas, Texas; C. Dean McGrath
Jr., McGrath & Associates, Washington, D.C.; for Amici
Curiae Pacific Research Institute, Cato Institute, and
Competitive Enterprise Institute.
Christopher H. McGrath and Samuel S. Sadeghi Paul
Hastings LLP, Costa Mesa, California; George W.
Abele, Paul Hastings LLP, Los Angeles, California;
Brett Harvey, Alliance Defending Freedom, Scottsdale,
Arizona; Nathaniel Bruno, Alliance Defending Freedom,
Washington, D.C.; for Amicus Curiae Alliance Defending
Freedom.
Brian Timothy Burgess, Goodwin Procter LLP,
Washington, D.C.; David J. Zimmer, Goodwin Procter
LLP, Boston, Massachusetts; for Amici Curiae NAACP
Legal Defense and Educational Fund, Inc.
Andrew P. Pugno, Law Offices of Andrew P. Pugno,
Fair Oaks, California, for Amicus Curiae Proposition
8 Legal Defense Fund.
Herbert W. Titus, Jeremiah L. Morgan, William J.
Olson, and Robert J. Olson, William J. Olson P.C.,

6a
Vienna, Virginia; Joseph W. Miller, Ramona, California;
Michael Boos, Washington, D.C.; for Amici Curiae
Free Speech Defense and Education Fund, Free
Speech Coalition, Citizens United, Citizens United
Foundation, National Right to Work Committee, U.S.
Constitutional Rights Legal Defense Fund, U.S.
Justice Foundation, Family Research Council, Western
Center for Journalism, Conservative Legal Defense
and Education Fund, The Leadership Institute, Public
Advocate of the United States, Downsize DC Foundation, Downsize. Org, Gun Owners Foundation, Gun
Owners of America, 60 Plus, 60 Plus Association,
America’s Foundation for Law and Liberty, America’s
Liberty Committee, Citizen Outreach Foundation,
Citizen Outreach, LLC, Law Enforcement Alliance of
America, Liberty Guard, Coalition for a Strong America,
The Jesse Helms Center, Americans for Constitutional
Liberty, Catholicvote.org, Eberle Communications Group,
Inc., Clearword Communications Group, Davidson &
Co., and JFT Consulting.
OPINION
FISHER, Circuit Judge:
We address the constitutionality of a California
charitable registration requirement as applied to two
non-profit organizations that solicit tax-deductible
contributions in the state. Americans for Prosperity
Foundation (the Foundation) and Thomas More Law
Center (the Law Center) qualify as tax-exempt charitable organizations under § 501(c)(3) of the Internal
Revenue Code, 26 U.S.C. § 501(c)(3). They challenge
the Attorney General of California’s collection of Internal
Revenue Service (IRS) Form 990 Schedule B, which
contains the names and addresses of their relatively
few largest contributors. The Attorney General uses
the information solely to prevent charitable fraud, and

7a
the information is not to be made public except in very
limited circumstances. The plaintiffs argue the state’s
disclosure requirement impermissibly burdens their
First Amendment right to free association by deterring individuals from making contributions.
The district court held that the Schedule B requirement violates the First Amendment as applied to the
Foundation and Law Center and permanently enjoined
the Attorney General from demanding the plaintiffs’
Schedule B forms. We have jurisdiction under 28 U.S.C.
§ 1291, and we vacate the injunctions, reverse the
judgments and remand for entry of judgment in the
Attorney General’s favor.
We hold that the California Attorney General’s
Schedule B requirement, which obligates charities to
submit the very information they already file each
year with the IRS, survives exacting scrutiny as applied
to the plaintiffs because it is substantially related to
an important state interest in policing charitable fraud.
Even assuming arguendo that the plaintiffs’ contributors would face substantial harassment if Schedule B
information became public, the strength of the state’s
interest in collecting Schedule B information reflects
the actual burden on First Amendment rights because
the information is collected solely for nonpublic use,
and the risk of inadvertent public disclosure is slight.
I.
A.
California’s Supervision of Trustees and Charitable
Trusts Act requires the Attorney General to maintain
a registry of charitable corporations (the Registry) and
authorizes him to obtain “whatever information, copies
of instruments, reports, and records are needed for
the establishment and maintenance of the [Registry].”

8a
Cal. Gov’t Code § 12584. To solicit tax-deductible contributions from California residents, an organization
must maintain membership in the Registry. See id.
§ 12585. Registry information is open to public inspection, subject to reasonable rules and regulations adopted
by the Attorney General. See id. § 12590.
As one condition of Registry membership, the Attorney
General requires charities to submit a complete copy
of the IRS Form 990 they file with the IRS, including
attached schedules. See Cal. Code Regs. tit. 11, § 301.1
One of these attachments, Schedule B, requires 501(c)(3)
organizations to report the names and addresses of
their largest contributors. Generally, they must report
“the names and addresses of all persons who contributed . . . $5,000 or more (in money or other property)
during the taxable year.” 26 C.F.R. § 1.6033-2(a)(2)(ii)(f).
Special rules, however, apply to organizations, such as
the Foundation and Law Center, meeting certain
support requirements. These organizations need only
“provide the name and address of a person who
contributed . . . in excess of 2 percent of the total
contributions . . . received by the organization during
the year.” Id. § 1.6033-2(a)(2)(iii)(a). An organization
with $10 million in receipts, for example, is required
to disclose only contributors providing at least $200,000
in financial support. Here, for any year between 2010
1

In July 2018, the IRS announced it would no longer require
certain tax-exempt organizations, other than 501(c)(3) organizations, to report the names and addresses of their contributors
on Schedule B. See Press Release, U.S. Dep’t of the Treasury,
Treasury Department and IRS Announce Significant Reform
to Protect Personal Donor Information to Certain Tax-Exempt
Organizations (July 16, 2018), https://home.treasury.gov/news/
press-releases/sm426. Federal law, however, continues to require
501(c)(3) organizations, such as the plaintiffs, to file Schedule B
information with the IRS.

9a
and 2015, the Law Center was obligated to report no
more than seven contributors on its Schedule B, and
the Foundation was required to report no more than
10 contributors – those contributing over $250,000 to
the Foundation.
The IRS and the California Attorney General both
make certain filings of tax-exempt organizations publicly available but exclude Schedule B information
from public inspection. See 26 U.S.C. § 6104; Cal Gov’t
Code § 12590; Cal. Code Regs. tit. 11, § 310. At the
outset of this litigation, the Attorney General maintained an informal policy treating Schedule B as a
confidential document not available for public inspection on the Registry. See Americans for Prosperity
Found. v. Harris, 809 F.3d 536, 542 (9th Cir. 2015)
(AFPF I). In 2016, the Attorney General codified that
policy, adopting a regulation that makes Schedule B
information confidential and exempts it from public
inspection except in a judicial or administrative proceeding or in response to a search warrant. See Cal.
Code Regs. tit. 11, § 310 (July 8, 2016). Under the new
regulation:
Donor information exempt from public inspection pursuant to Internal Revenue Code
section 6104(d)(3)(A) shall be maintained as
confidential by the Attorney General and
shall not be disclosed except as follows:
(1) In a court or administrative proceeding
brought pursuant to the Attorney General’s
charitable trust enforcement responsibilities;
or
(2) In response to a search warrant.
Id. § 310(b). In accordance with this regulation, the
Attorney General keeps Schedule Bs in a separate file

10a
from other submissions to the Registry and excludes
them from public inspection on the Registry website.
B.
Thomas More Law Center is a legal organization
founded to “restore and defend America’s Judeo-Christian
heritage” by “represent[ing] people who promote Roman
Catholic values,” “marriage and family matters, freedom from government interference in [religion]” and
“opposition to the imposition of Sharia law within the
United States.” Americans for Prosperity Foundation
was founded in 1987 as “Citizens for a Sound Economy
Educational Foundation,” with the mission of “further[ing] free enterprise, free society-type issues.” The
Foundation hosts conferences, issues policy papers and
develops educational programs worldwide to promote
the benefits of a free market. It operates alongside
Americans for Prosperity, a 501(c)(4) organization
focused on direct issue advocacy.
Charities like the Foundation and the Law Center
are overseen by the Charitable Trusts Section of the
California Department of Justice, which houses the
Registry and a separate investigative and legal enforcement unit (the Investigative Unit). The Registry Unit
processes annual registration renewals and maintains
both the public-facing website of registered charities
and the confidential database used for enforcement.
The Investigative Unit analyzes complaints of unlawful
charity activity and conducts audits and investigations based on those complaints.
Beginning in 2010, the Registry Unit ramped up its
efforts to enforce charities’ Schedule B obligations, sending thousands of deficiency letters to charities that
had not complied with the Schedule B requirement.
Since 2001, both the Law Center and the Foundation

11a
had either filed redacted versions of the Schedule B or
not filed it with the Attorney General at all. Each plaintiff had, however, annually filed a complete Schedule
B with the IRS. In 2012, the Registry Unit informed
the Law Center it was deficient in submitting
Schedule B information. In 2013, it informed the
Foundation of the same deficiency.
C.
In response to the Attorney General’s demands, the
Law Center and the Foundation separately filed suit,
alleging that the Schedule B requirement unconstitutionally burdens their First Amendment right to free
association by deterring individuals from financially
supporting them. The district court granted both plaintiffs’ motions for a preliminary injunction, concluding
they had raised serious questions going to the merits
of their cases and demonstrated that the balance of
hardships tipped in their favor. See Americans for
Prosperity Found. v. Harris, No. 2:14-CV-09448-RFFM, 2015 WL 769778 (C.D. Cal. Feb. 23, 2015). The
Attorney General appealed.
While those appeals were pending, we upheld the
Schedule B requirement against a facial constitutional
challenge brought by the Center for Competitive
Politics. See Ctr. for Competitive Politics v. Harris, 784
F.3d 1307, 1317 (9th Cir. 2015). Applying exacting
scrutiny, we held both that the Schedule B requirement furthers California’s compelling interest in
enforcing its laws and that the plaintiff had failed to
show the requirement places an actual burden on First
Amendment rights. See id. at 1316–17. We left open
the possibility, however, that a future litigant might
“show ‘a reasonable probability that the compelled disclosure of its contributors’ names will subject them to
threats, harassment, or reprisals from either Govern-

12a
ment officials or private parties’ that would warrant
relief on an as-applied challenge.” Id. at 1317 (alteration
omitted) (quoting Buckley v. Valeo, 424 U.S. 1, 74 (1976)).
The Law Center and the Foundation argue they
have made such a showing. In considering the appeal
from the preliminary injunction in their favor, we
disagreed. See AFPF I, 809 F.3d at 540. We held that
the plaintiffs had shown neither an actual chilling
effect on association nor a reasonable probability of
harassment at the hands of the state from the Attorney
General’s demand for nonpublic disclosure of Schedule
B forms. See id. The Law Center and the Foundation
had proffered some evidence that private citizens might
retaliate against their contributors if Schedule B information became public, but “[t]he plaintiffs’ allegations
that technical failures or cybersecurity breaches are
likely to lead to inadvertent public disclosure of their
Schedule B forms [were] too speculative to support
issuance of an injunction.” Id. at 541.
We nevertheless identified some risk that the Attorney
General could be compelled by § 12590 to make Schedule
B information available for public inspection in the
absence of a “rule[]” or “regulation[],” Cal. Gov’t Code
§ 12590, formalizing the Attorney General’s discretionary
policy of maintaining Schedule B confidentiality. See
AFPF I, 809 F.3d at 542. The Attorney General had
proposed a regulation to exempt Schedule B forms
from the general requirement to make Registry filings
“open to public inspection,” Cal. Gov’t Code § 12590,
but the state had not yet adopted the proposed regulation. We held that a narrow injunction precluding public
disclosure of Schedule B information would address
the risk of public disclosure pending the Attorney General’s adoption of the proposed regulation. We therefore
vacated the district court’s orders precluding the Attorney

13a
General from collecting Schedule B information from
the plaintiffs and instructed the court to enter new
orders preliminarily enjoining the Attorney General
only from making Schedule B information public. See
AFPF I, 809 F.3d at 543.2
After presiding over a bench trial in each case, the
district court held the Schedule B requirement unconstitutional as applied to the Foundation and the Law
Center. See Thomas More Law Ctr. v. Harris, No. CV
15-3048-R, 2016 WL 6781090 (C.D. Cal. Nov. 16, 2016);
Americans for Prosperity Found. v. Harris, 182 F.
Supp. 3d 1049 (C.D. Cal. 2016). The district court first
rejected the plaintiffs’ facial challenges, holding they
were precluded by our opinion in Center for Competitive
Politics. It then held that the Attorney General had
failed to prove the Schedule B requirement was substantially related to a sufficiently important governmental
interest, as necessary to withstand exacting scrutiny.
The court reasoned that the Attorney General had no
need to collect Schedule Bs, because he “has access to
the same information from other sources,” Thomas
More Law Ctr., 2016 WL 6781090, at *2, and had
failed to demonstrate the “necessity of Schedule B
forms” in investigating charity wrongdoing, Americans
for Prosperity Found., 182 F. Supp. 3d at 1053. The
court also concluded there was “ample evidence” establishing the plaintiffs’ employees and supporters face
public hostility, intimidation, harassment and threats
“once their support for and affiliation with the organization becomes publicly known.” Id. at 1055. The court
rejected the proposition that the Attorney General’s
2

On remand, the district court also prohibited the Attorney
General from obtaining relevant discovery from the Foundation’s
contributors. This was one of several questionable evidentiary
rulings the court issued in the plaintiffs’ favor.

14a
informal confidentiality policy could “effectively avoid
inadvertent disclosure” of Schedule B information,
citing a “pervasive, recurring pattern of uncontained
Schedule B disclosures” by the Registry Unit. Id. at
1057. Even after the Attorney General codified the
non-disclosure policy, the court concluded that this
risk of inadvertent public disclosure remained. See
Thomas More Law Ctr., 2016 WL 6781090, at *5.
Having found for the plaintiffs on their First
Amendment freedom of association claims, the court
entered judgment for the plaintiffs and permanently
enjoined the Attorney General from enforcing the
Schedule B requirement against them. The Attorney
General appealed the judgments. The plaintiffs crossappealed, challenging the district court’s holding that
precedent foreclosed a facial attack on the Schedule B
requirement. The Law Center also cross-appealed the
district court’s adverse rulings on its Fourth Amendment and preemption claims, and the district court’s
failure to award it attorney’s fees.
II.
“In reviewing a judgment following a bench trial,
this court reviews the district court’s findings of fact
for clear error and its legal conclusions de novo.”
Dubner v. City & County of San Francisco, 266 F.3d
959, 964 (9th Cir. 2001). “[W]e will affirm a district
court’s factual finding unless that finding is illogical,
implausible, or without support in inferences that may
be drawn from the record.” United States v. Hinkson,
585 F.3d 1247, 1263 (9th Cir. 2009) (en banc) (footnote
omitted).
III.
We address whether the Attorney General’s Schedule
B requirement violates the First Amendment right to

15a
freedom of association as applied to the plaintiffs. We
apply “exacting scrutiny” to disclosure requirements.
See Doe v. Reed, 561 U.S. 186, 196 (2010). “That standard
‘requires a substantial relation between the disclosure
requirement and a sufficiently important governmental interest.’” Id. (quoting Citizens United v. FEC, 558
U.S. 310, 366–67 (2010)). “To withstand this scrutiny,
‘the strength of the governmental interest must reflect
the seriousness of the actual burden on First Amendment rights.’” Id. (quoting Davis v. FEC, 554 U.S. 724,
744 (2008)).
The plaintiffs contend “[t]he ‘substantial relation’
element requires, among other things, that the State
employ means ‘narrowly drawn’ to avoid needlessly
stifling expressive association.” They cite Louisiana ex
rel. Gremillion v. NAACP, 366 U.S. 293, 297 (1961)
(“[W]hile public safety, peace, comfort, or convenience
can be safeguarded by regulating the time and manner
of solicitation, those regulations need to be ‘narrowly
drawn to prevent the supposed evil.’” (citation omitted)
(quoting Cantwell v. Connecticut, 310 U.S. 296, 307
(1940))), Shelton v. Tucker, 364 U.S. 479, 488 (1960)
(“In a series of decisions this Court has held that,
even though the governmental purpose be legitimate
and substantial, that purpose cannot be pursued by
means that broadly stifle fundamental personal liberties when the end can be more narrowly achieved.”),
and McCutcheon v. FEC, 134 S. Ct. 1434, 1456–57
(2014) (plurality opinion) (“Even when the Court is not
applying strict scrutiny, we still require ‘a fit that is
not necessarily perfect, but reasonable; that represents
not necessarily the single best disposition but one whose
scope is in proportion to the interest served, . . . that
employs not necessarily the least restrictive means
but . . . a means narrowly tailored to achieve the desired
objective.’” (alterations in original) (quoting Board of

16a
Trustees of State Univ. of N.Y. v. Fox, 492 U.S. 469,
480 (1989))). We are not persuaded, however, that the
standard the plaintiffs advocate is distinguishable
from the ordinary “substantial relation” standard that
both the Supreme Court and this court have consistently applied in disclosure cases such as Doe and
Family PAC v. McKenna, 685 F.3d 800, 805–06 (9th
Cir. 2012). To the extent the plaintiffs ask us to apply
the kind of “narrow tailoring” traditionally required in
the context of strict scrutiny, or to require the state to
choose the least restrictive means of accomplishing its
purposes, they are mistaken. See, e.g., Citizens United
v. Schneiderman, 882 F.3d 374, 381 (2d Cir. 2018)
(rejecting the plaintiffs’ request “to apply strict scrutiny
and to hold that any mandatory disclosure of a member
or donor list is unconstitutional absent a compelling
government interest and narrowly drawn regulations
furthering that interest”); AFPF I, 809 F.3d at 541
(“The district court’s conclusion that the Attorney
General’s demand for national donor information may
be more intrusive than necessary does not raise serious
questions because ‘exacting scrutiny is not a leastrestrictive-means test.’” (quoting Chula Vista Citizens
for Jobs & Fair Competition v. Norris, 782 F.3d 520,
541 (9th Cir. 2015) (en banc))); Ctr. for Competitive
Politics, 784 F.3d at 1312 (“[The plaintiff’s argument]
that the Attorney General must have a compelling
interest in the disclosure requirement, and that the
requirement must be narrowly tailored in order to
justify the First Amendment harm it causes[,] . . . is a
novel theory, but it is not supported by our case law or
by Supreme Court precedent.”).
In short, we apply the “substantial relation” standard the Supreme Court applied in Doe. “To withstand
this scrutiny, ‘the strength of the governmental interest
must reflect the seriousness of the actual burden on

17a
First Amendment rights.’” Doe, 561 U.S. at 196 (quoting Davis, 554 U.S. at 744).
A. The Strength of the Governmental Interest
It is clear that the disclosure requirement serves
an important governmental interest. In Center for
Competitive Politics, 784 F.3d at 1311, we recognized
the Attorney General’s argument that “there is a
compelling law enforcement interest in the disclosure
of the names of significant donors.” See also id. at
1317. The Attorney General observed that “such information is necessary to determine whether a charity is
actually engaged in a charitable purpose, or is instead
violating California law by engaging in self-dealing,
improper loans, or other unfair business practices,” id.
at 1311, and we agreed that “[t]he Attorney General
has provided justifications for employing a disclosure
requirement instead of issuing subpoenas,” id. at 1317.
In AFPF I, we reiterated that “the Attorney General’s
authority to demand and collect charitable organizations’ Schedule B forms . . . furthers California’s
compelling interest in enforcing its laws.” AFPF I, 809
F.3d at 538–39.
These conclusions are consistent with those reached
by the Second Circuit, which recently upheld New
York’s Schedule B disclosure requirement against a
challenge similar to the one presented here. The attorney general explained that the Schedule B disclosure
requirement allows him to carry out “his responsibility
to protect the public from fraud and self-dealing among
tax-exempt organizations.” Schneiderman, 882 F.3d at
382. The court agreed with the state that
knowing the source and amount of large donations can reveal whether a charity is doing
business with an entity associated with a
major donor. The information in a Schedule B

18a
also permits detection of schemes such as the
intentional overstatement of the value of
noncash donations in order to justify excessive
salaries or perquisites for its own executives.
Collecting donor information on a regular
basis from all organizations facilitates investigative efficiency, and can help the Charities
Bureau to obtain a complete picture of the
charities’ operations and flag suspicious activity
simply by using information already available
to the IRS. Because fraud is often revealed
not by a single smoking gun but by a pattern
of suspicious behavior, disclosure of the
Schedule B can be essential to New York’s
interest in detecting fraud.
Id. (alterations, citations and internal quotation marks
omitted). The Schedule B requirement, therefore, served
the state’s important “interests in ensuring organizations that receive special tax treatment do not abuse
that privilege and . . . in preventing those organizations from using donations for purposes other than
those they represent to their donors and the public.”
Id.
The plaintiffs nonetheless question the strength of
the state’s governmental interest, arguing the Attorney
General’s need to collect Schedule B information is
belied by the evidence that he does not use the information frequently enough to justify collecting it en masse,
he is able to investigate charities without Schedule B
information and he does not review individual Schedule
B forms until he receives a complaint, at which point
he has at his disposal tools of subpoena and audit
to obtain the Schedule B information he needs. The
district court credited these arguments, concluding
that Schedule B information is not “necessary” to the

19a
Attorney General’s investigations because: the Registry,
whose sole job it is to collect and maintain complete
registration information, does not actively review
Schedule B forms as they come in; Schedule Bs have
not been used to trigger investigations; and the Attorney
General can obtain a Schedule B through subpoenas
and audits when a case-specific need arises. See
Americans for Prosperity Found., 182 F. Supp. 3d at
1053–54.
We addressed these same arguments, of course,
in Center for Competitive Politics, 784 F.3d at 1317,
where we expressly rejected the proposition that the
Schedule B requirement is insufficiently tailored because
the state could achieve its enforcement goals through
use of its subpoena power or audit letters. We noted
that the state’s quick access to Schedule B filings
“increases [the Attorney General’s] investigative efficiency” and allows him to “flag suspicious activity.” Id.
For example, as the Attorney General argued in that
case,
having significant donor information allows
the Attorney General to determine when an
organization has inflated its revenue by overestimating the value of “in kind” donations.
Knowing the significant donor’s identity allows
her to determine what the “in kind” donation
actually was, as well as its real value. Thus,
having the donor’s information immediately
available allows her to identify suspicious
behavior. She also argues that requiring
unredacted versions of Form 990 Schedule B
increases her investigative efficiency and
obviates the need for expensive and burdensome audits.
Id. at 1311.

20a
The evidence at trial confirms our earlier conclusions. Belinda Johns, the senior assistant attorney
general who oversaw the Charitable Trusts Section for
many years, testified that attempting to obtain a
Schedule B from a regulated entity after an investigation began was unsatisfactory. She testified that her
office would want “to look at [the] Schedule B . . . the
moment we thought there might be an issue with the
charity.” “[I]f we subpoenaed it or sent a letter to the
charity, that would tip them off to our investigation,
which would allow them potentially to dissipate more
assets or hide assets or destroy documents, which
certainly happened several times; or it just allows
more damage to be done to [the] charity if we don’t
have the whole document at the outset.” Rather than
having “to wait extra days,” she wanted to “take the
action that needs to be taken as quickly as possible.”
She explained that her office relied on Schedule Bs to
“tell us whether or not there was an illegal activity
occurring.” Where such activity was found, she would
“go into court immediately and . . . request a
[temporary restraining order] from the court to freeze
assets.”
Johns’ successor, Tania Ibanez, testified similarly
that “getting a Schedule B through a[n] audit letter is
not the best use of my limited resources.”
Because it’s time-consuming, and you are
tipping the charity off that they are about to
be audited. And it’s been my experience when
the charity knows or when the charity gets
the audit letter, it’s not the best way of
obtaining records. We have been confronted
in situations where the charity will fabricate
records. Charities have given us incomplete
records, nonresponsive records. Charities have

21a
destroyed records, and charities have engaged
in other dilatory tactics.
Sonja Berndt, a deputy attorney general in the
Charitable Trusts Section, confirmed that attempting
to obtain Schedule Bs through the auditing process
would entail substantial delay.
The district court’s other conclusions are equally
flawed. Although the state may not routinely use
Schedule B information as it comes in, the Attorney
General offered ample evidence of the ways his office
uses Schedule B information in investigating charities
that are alleged to have violated California law.
See Cal. Corp. Code §§ 5227, 5233, 5236 (providing
examples of the role the Attorney General plays in
investigating nonprofit organizations that violate
California law). Current and former members of the
Charitable Trusts Section, for example, testified that
they found the Schedule B particularly useful in
several investigations over the past few years, and
provided examples. They were able to use Schedule B
information to trace money used for improper purposes in connection with a charity serving animals
after Hurricane Katrina; to identify a charity’s founder
as its principal contributor, indicating he was using
the research charity as a pass-through; to identify
self-dealing in that same charity; to track a for-profit
corporation’s use of a non-profit organization as an
improper vessel for gain; and to investigate a cancer
charity’s gift-in-kind fraud.3
3

The Foundation points out that the Attorney General identified only five investigations in the past 10 years in which the state
has used Schedule B information to investigate a charity. The
Attorney General, however, identified an additional five investigations that were still ongoing. The district court did not allow
the Attorney General’s witnesses to testify about those ongoing

22a
In sum, the record demonstrates that the state has
a strong interest in the collection of Schedule B
information from regulated charities. We agree with
the Second Circuit that the disclosure requirement
“clearly further[s]” the state’s “important government
interests” in “preventing fraud and self-dealing in
charities . . . by making it easier to police for such
fraud.” Schneiderman, 882 F.3d at 384.
The district court reached a different conclusion, but
it did so by applying an erroneous legal standard. The
district court required the Attorney General to demonstrate that collection of Schedule B information was
“necessary,” Thomas More Law Ctr., 2016 WL 6781090,
at *2, that it was no “more burdensome than necessary”
and that the state could not achieve its ends “by more
narrowly tailored means,” id. at *2–3. Because it
was “possible for the Attorney General to monitor
charitable organizations without Schedule B,” the
court concluded the requirement is unconstitutional.
Id. at *2. The “more burdensome than necessary” test
the district court applied, however, is indistinguishable
from the narrow tailoring and least-restrictive-means
tests that we have repeatedly held do not apply here.
The district court’s application of this standard, therefore, constituted legal error.
Because the district court applied an erroneous legal
standard, it consistently framed the legal inquiry as
whether it was possible “that the Attorney General
could accomplish her goals without the Schedule B.”
Id. at *3. Under the substantial relation test, however,
the state was not required to show that it could
accomplish its goals only by collecting Schedule B
investigations, because the Attorney General understandably
refused to name the charities under current investigation.

23a
information. The state instead properly and persuasively relied on evidence to show that the up-front
collection of Schedule B information improves the efficiency and efficacy of the Attorney General’s important
regulatory efforts. Even if the Attorney General can
achieve his goals through other means, nothing in the
substantial relation test requires him to forgo the
most efficient and effective means of doing so, at least
not absent a showing of a significant burden on First
Amendment rights. As Steven Bauman, a supervising
investigative auditor for the Charitable Trusts Section
testified, “We could complete our investigations if you
took away many of the tools that we have. We just
wouldn’t be as effective or as efficient.”
Because the strict necessity test the district court
applied is not the law, the district court’s analysis does
not alter our conclusion that the state has a strong
interest in the collection of Schedule B information
from regulated charities.
B. The Seriousness of the Actual Burden on First
Amendment Rights
Having considered the strength of the governmental
interest, we turn to the actual burden on the plaintiffs’
First Amendment rights.
The Supreme Court has concluded that “compelled
disclosure has the potential for substantially infringing the exercise of First Amendment rights.” Buckley
v. Valeo, 424 U.S. 1, 66 (1976). To assess “the possibility
that disclosure will impinge upon protected associational activity,” id. at 73, we consider “any deterrent
effect on the exercise of First Amendment rights,” id.
at 65.
We may examine, for example, the extent to which
requiring “disclosure of contributions . . . will deter

24a
some individuals who otherwise might contribute,”
including whether disclosure will “expose contributors
to harassment or retaliation.” Id. at 68. “[T]hat one or
two persons refused to make contributions because
of the possibility of disclosure” will not establish a
significant First Amendment burden. Id. at 72. Nor
will a showing that “people may ‘think twice’ about
contributing.” Family PAC, 685 F.3d at 807. “[D]isclosure requirements,” however, “can chill donations
to an organization by exposing donors to retaliation,”
Citizens United, 558 U.S. at 370, and “[i]n some instances
fears of reprisal may deter contributions to the point
where the movement cannot survive,” Buckley, 424
U.S. at 71. In such cases, the First Amendment
burdens are indeed significant.
A party challenging a disclosure requirement, therefore, may succeed by proving “a substantial threat
of harassment.” Id. at 74. As a general matter,
“those resisting disclosure can prevail under the First
Amendment if they can show ‘a reasonable probability
that the compelled disclosure of personal information
will subject them to threats, harassment, or reprisals
from either Government officials or private parties.’”
Doe, 561 U.S. at 200 (alteration omitted) (quoting
Buckley, 424 U.S. at 74); see also Citizens United, 558
U.S. at 370.4
4

In making this showing, we agree with the Attorney General
that the plaintiffs must show a reasonable probability of threats,
harassment or reprisals arising from the Schedule B requirement
itself. But this does not mean the plaintiffs cannot rely on evidence
showing, for example, that their members have been harassed for
other reasons, or evidence that similar organizations have suffered a loss in contributions as a result of Schedule B disclosure.
To be sure, the extent to which the plaintiffs’ evidence is tied
directly to, or is attenuated from, the experience of the plaintiffs
themselves and the California Attorney General’s Schedule B

25a
Here, the plaintiffs contend requiring them to comply
with the Attorney General’s Schedule B disclosure
requirement will impose a significant First Amendment burden in two related ways. First, they contend
requiring them to comply with the Schedule B requirement will deter contributors. Second, they argue
disclosure to the Attorney General will subject their
contributors to threats, harassment and reprisals. We
consider these contentions in turn.
1. Evidence That
Contributors

Disclosure

Will

Deter

We begin by considering whether disclosure will
deter contributors. We first consider evidence presented
by the Foundation. We then consider evidence presented by the Law Center.
Christopher Joseph Fink, the Foundation’s chief
operating officer, testified that prospective contributors’ “number one concern is about being disclosed.” He
testified that “they are afraid to have their information in the hands of state government or a federal
government or in the hands of the public.” He testified
that business owners “are afraid if they are associated
with our foundation or with Americans for Prosperity,
their businesses would be targeted or audited from the
state government.” Teresa Oelke, the Foundation’s vice
president of state operations, described two individuals who, she believed, stopped supporting the Foundation
in light of actual or feared retaliation by the IRS. One
contributor “did business with the Government,” and
he and his business associates “did not feel like they
requirement in particular goes to the weight of that evidence. But
the plaintiffs may rely on any evidence that “has any tendency to
make a fact more or less probable than it would be without the
evidence.” Fed. R. Evid. 401(a).

26a
could take on the risk of continuing to give to us.”
Another contributor allegedly stopped giving “because
he, his business partner and their business had experienced seven different reviews from government agencies,
including individual IRS audits, both personally and
their businesses, and their family was not willing to
continue enduring the emotional, financial, time stress
and the stress that it placed on their business.” Oelke
testified that, on average, the Foundation and Americans
for Prosperity combined lose “roughly three donors a
year” due to “their concern that they are going to be
disclosed and the threats that they believe that being
disclosed lays to either their business, their families or
just their employees.” Paul Schervish, an emeritus
professor of sociology, testified that, in his opinion,
disclosure to the California Attorney General would
chill contributions to the Foundation, although he
conceded that he had not actually spoken to any of the
Foundation’s contributors. Foundation President Tim
Phillips testified that contributors see the California
Attorney General’s office as “a powerful partisan
office.” The Foundation also points to evidence that, in
its view, shows that some California officials harbor a
negative attitude toward Charles and David Koch.
The Law Center introduced a letter from a contributor who chose to make a $25 contribution anonymously
out of fear that ISIS would break into the Law Center’s
office, obtain a list of contributors and target them.
Schervish, the sociology professor, opined that the
Law Center’s “disclosure of Schedule B to the registry
would chill contributions.” He acknowledged, however,
that he had not spoken with any of the Law Center’s
existing or prospective contributors, and he could not
point to any contributor who had reduced or eliminated his or her support for the Law Center due to the

27a
fear of disclosure – a common weakness in the Law
Center’s evidence.
For example, Thomas Monaghan, the Law Center’s
co-founder and most well-known contributor, testified
that he is not aware of any Law Center contributor
who was “harassed in some way because they made a
donation.” Despite being included “at the top of a
list . . . of the most antigay persons in the country”
(allegedly because of his financial support for the Law
Center), he remains “perfectly willing” to be listed on
the Law Center’s website as “one of the people who
helped to establish” the Law Center. Similarly, the
Law Center’s president testified that he has never had
a conversation with a potential contributor who was
unwilling to contribute to the Law Center because of
the public controversy surrounding the Law Center or
its disclosure requirements. For years, moreover, the
Law Center has over-disclosed contributor information
on Schedule Bs filed with the IRS. Although by law the
Law Center is required to disclose only those contributors furnishing 2 percent or more of the organization’s
receipts (about five to seven contributors a year), it has
instead chosen to disclose all contributors providing
$5,000 or more in financial support (about 23 to 60
contributors a year). This voluntary over-disclosure
tends to undermine the Law Center’s contention that
Schedule B disclosure meaningfully deters contributions.
Considered as a whole, the plaintiffs’ evidence shows
that some individuals who have or would support the
plaintiffs may be deterred from contributing if the
plaintiffs are required to submit their Schedule Bs to
the Attorney General. The evidence, however, shows
at most a modest impact on contributions. Ultimately,
neither plaintiff has identified a single individual whose
willingness to contribute hinges on whether Schedule

28a
B information will be disclosed to the California Attorney
General. Although there may be a small group of
contributors who are comfortable with disclosure to
the IRS, but who would not be comfortable with
disclosure to the Attorney General, the evidence does
not show that this group exists or, if it does, its
magnitude. As the Second Circuit explained:
While we think it plausible that some donors
will find it intolerable for law enforcement
officials to know where they have made donations, we see no reason to believe that this
risk of speech chilling is more than that which
comes with any disclosure regulation. In fact,
all entities to which these requirements apply
already comply with the federal law mandating that they submit the selfsame information
to the IRS. Appellants offer nothing to suggest
that their donors should more reasonably fear
having their identities known to New York’s
Attorney General than known to the IRS.
Schneiderman, 882 F.3d at 384.
The mere possibility that some contributors may
choose to withhold their support does not establish a
substantial burden on First Amendment rights. A
plaintiff cannot establish a significant First Amendment burden by showing only “that one or two persons
refused to make contributions because of the possibility of disclosure,” Buckley, 424 U.S. at 72, or that
“people may ‘think twice’ about contributing,” Family
PAC, 685 F.3d at 807. The evidence presented by
the plaintiffs here does not show that disclosure to
the Attorney General will “actually and meaningfully
deter contributors,” id., or that disclosure would entail
“the likelihood of a substantial restraint upon the
exercise by [their contributors] of their right to free-

29a
dom of association,” NAACP v. Alabama ex rel. Patterson,
357 U.S. 449, 462 (1958).5 Cf. Bates. v. City of Little
Rock, 361 U.S. 516, 521 n.5 (1960) (between 100 and
150 members declined to renew their NAACP membership, citing disclosure concerns); Dole v. Serv.
Emps. Union, AFL-CIO, Local 280, 950 F.2d 1456,
1460 (9th Cir. 1991) (placing particular weight on two
letters explaining that because meeting minutes might
be disclosed, union members would no longer attend
meetings).
The Schedule B requirement, moreover, is not a
sweeping one. It requires the Foundation and the Law
Center to disclose only their dozen or so largest
contributors, and a number of these contributors are
already publicly identified, because they are private
foundations which by law must make their expenditures public. As applied to these plaintiffs, therefore,
the Schedule B requirement is a far cry from the
broad and indiscriminate disclosure laws passed in the
1950s to harass and intimidate members of unpopular
organizations. See, e.g., Gremillion, 366 U.S. at 295
(invalidating a state law requiring every organization
operating in the state “to file with the Secretary of
State annually ‘a full, complete and true list of the
names and addresses of all of the members and officers’
in the State”); Shelton, 364 U.S. at 480 (invalidating a
state law “compel[ing] every teacher, as a condition of
5

“In NAACP, the Court was presented . . . with ‘an uncontroverted showing that on past occasions revelation of the identity
of its rank-and-file members has exposed those members to
economic reprisal, loss of employment, [and] threat of physical
coercion,’ and it was well known at the time that civil rights
activists in Alabama and elsewhere had been beaten and/or
killed.” Schneiderman, 882 F.3d at 385 (second alteration in
original) (quoting NAACP, 357 U.S. at 462).

30a
employment in a state-supported school or college, to
file annually an affidavit listing without limitation
every organization to which he has belonged or regularly
contributed within the preceding five years”).
In sum, the plaintiffs have not shown a significant
First Amendment burden on the theory that complying with the Attorney General’s Schedule B nonpublic
disclosure requirement will chill contributions.
2. Evidence That Disclosure to the Attorney
General Will Subject Contributors to Threats,
Harassment and Reprisals
Alternatively, the plaintiffs seek to establish a First
Amendment burden by showing that, if they are
required to disclose their Schedule B information to
the Attorney General, there is “a reasonable probability that the compelled disclosure of personal information
will subject [their contributors] to threats, harassment, or reprisals from either Government officials or
private parties.” Doe, 561 U.S. at 200 (alteration omitted) (quoting Buckley, 424 U.S. at 74). This inquiry
necessarily entails two questions: (1) what is the risk
of public disclosure; and (2), if public disclosure does
occur, what is the likelihood that contributors will be
subjected to threats, harassment or reprisals? We
consider these questions in reverse order.
a. Likelihood of Retaliation
The first question, then, is whether the plaintiffs
have shown that contributors are likely to be subjected
to threats, harassment or reprisals if Schedule B
information were to become public. We again consider
the Foundation’s evidence first, followed by the Law
Center’s evidence.

31a
The Foundation’s evidence undeniably shows that
some individuals publicly associated with the Foundation have been subjected to threats, harassment or
economic reprisals. Lucas Hilgemann, the Foundation’s
chief executive officer, testified that he was harassed
and targeted, and his personal information posted
online, in connection with his work surrounding union
“right to work” issues in Wisconsin. Charles and David
Koch have received death threats, and Christopher
Fink, the Foundation’s chief operating officer, has
received death threats for publicly contributing to the
Foundation through his family’s private foundation.
Art Pope, a member of the Foundation’s board of directors, and a contributor through his family foundation,
testified that he received a death threat and has been
harassed by “a series of articles” that falsely accuse
him of “funding global warming deni[al].” His businesses have been boycotted, although we hesitate to
attribute those boycotts to Pope’s association with the
Foundation.6
6

Pope says his business, Variety Wholesalers, was boycotted
in part because of his affiliation with the Foundation. But Pope
was the state budget director of North Carolina and is publicly
associated with a large number of organizations and candidates.
Despite publicly contributing to the Foundation since 2004, and
to the Foundation’s predecessor since 1993, he did not receive
threats or negative attention until 2010, in connection with his
involvement in the North Carolina elections. This same problem
plagues much of the plaintiffs’ evidence. In many instances, the
evidence of harassment pertains to individuals who are publicly
identified with a number of controversial activities or organizations, making it difficult to assess the extent to which the alleged
harassment was caused by a connection to the Foundation or the
Law Center in particular. Most of the individuals who have
experienced harassment, moreover, have been more than mere
contributors, again making it difficult to isolate the risk of
harassment solely from being a large contributor. The plaintiffs

32a
In some cases, moreover, the Foundation’s actual or
perceived contributors may have faced economic
reprisals or other forms of harassment. Teresa Oelke,
for instance, cited
a donor whose business was targeted by an
association, a reputable association in that
state. A letter was sent to all the school boards
in that state encouraging [them] to discontinue awarding this individual’s business
contracts because of his assumed association
with Americans for Prosperity and Americans
for Prosperity Foundation. . . . That individual reduced his contributions in half, so from
$500,000 annually to 250,000 based on the
pressure from his board that remains in place
today.
Hilgemann, the Foundation’s CEO, suggested that
during the “right to work” campaign in Wisconsin in
2012, an opposition group “pulled together a list of
suspected donors to the Foundation because of their
interactions with groups like ours in the past that had
been publicized. [Opponents] boycotted their businesses.
They made personal and private threats against them,
their families and their business and their employees.”7

have presented little evidence bearing on whether harassment
has occurred, or is likely to occur, simply because an individual
or entity provided a large financial contribution to the Foundation or the Law Center.
7

Like much of the plaintiffs’ evidence, the harassment allegations recounted by Oelke and Hilgemann are conclusory rather
than detailed. Although we understand the plaintiffs’ interest
in protecting their contributors’ identities from disclosure, we
cannot imagine why the plaintiffs have not provided more
detailed evidence to substantiate and develop their allegations of

33a
The Law Center, too, has presented some evidence
to suggest individuals associated with the Law Center
have experienced harassment, although it is less clear
to what extent it results solely from that association.
The Law Center, for instance, points to: a smattering
of critical letters, phone calls and emails it has received
over the years; the incident in which Monaghan was
placed on a list of “the most antigay persons in the
country” after the Law Center became involved in a
controversial lawsuit; and threats and harassment its
clients, such as Robert Spencer and Pamela Geller,
have received based on their controversial public activities. As noted, however, Monaghan could not recall
any situation in which a contributor to the Law Center
was harassed, or expressed concerns about being
harassed, on account of having contributed to the Law
Center.
On the one hand, this evidence plainly shows at
least the possibility that the plaintiffs’ Schedule B
contributors would face threats, harassment or reprisals if their information were to become public. Such
harassment, however, is not a foregone conclusion. In
2013, after acquiring copies of the Foundation’s 2001
and 2003 Schedule B filings, the National Journal
published an article publicly identifying many of the
Foundation’s largest contributors.8 If, as the plaintiffs
contend, public disclosure of Schedule B information
would subject their contributors to widespread retaliaretaliation – something we are confident they could have accomplished without compromising their contributors’ anonymity.
8

The record does not reflect how the National Journal acquired
this information. No one has suggested that the California Attorney
General’s office was the source, nor could it have been, as the
Foundation was not reporting its Schedule B contributors to the
state in 2001 or 2003.

34a
tion, we would expect the Foundation to present evidence
to show that, following the National Journal’s unauthorized Schedule B disclosure, its contributors were
harassed or threatened. No such evidence, however,
has been presented.
Ultimately, we need not decide whether the plaintiffs have demonstrated a reasonable probability that
the compelled disclosure of Schedule B information
would subject their contributors to a constitutionally
significant level of threats, harassment or reprisals if
their Schedule B information were to become public.
See Doe, 561 U.S. at 200.9 As we explain next, we are
not persuaded that there exists a reasonable probability that the plaintiffs’ Schedule B information will
become public as a result of disclosure to the Attorney
General. Thus, the plaintiffs have not established a
reasonable probability of retaliation from compliance
with the Attorney General’s disclosure requirement.
b. Risk of Public Disclosure
The parties agree that, as a legal matter, public
disclosure of Schedule B information is prohibited.
California law allows for public inspection of charitable trust records, with the following exception:
Donor information exempt from public inspection pursuant to Internal Revenue Code
section 6104(d)(3)(A) shall be maintained as

9

The district court concluded the plaintiffs have shown a
“reasonable probability” that public disclosure of their Schedule
B contributors would subject them to such threats and harassment. Because this constitutes a mixed question of law and fact,
however, we review the question de novo. See In re Cherrett, 873
F.3d 1060, 1066 (9th Cir. 2017).

35a
confidential by the Attorney General and
shall not be disclosed except as follows:
(1) In a court or administrative proceeding
brought pursuant to the Attorney General’s
charitable trust enforcement responsibilities;
or
(2) In response to a search warrant.
Cal. Code Regs. tit. 11, § 310(b).10 The plaintiffs argue,
however, that their Schedule B information may become
public because the Attorney General has a poor track
record of shielding the information from the public
view.
We agree that, in the past, the Attorney General’s
office has not maintained Schedule B information as
securely as it should have, and we agree with the
plaintiffs that this history raises a serious concern.
The state’s past confidentiality lapses are of two varieties: first, human error when Registry staff miscoded
Schedule B forms during uploading; and second, a
software vulnerability that failed to block access to the
Foundation’s expert, James McClave, as he probed the
Registry’s servers for flaws during this litigation.
We are less concerned with the latter lapse. McClave
discovered that by manipulating the hexadecimal
ending of the URL corresponding to each file on the
Registry website, he could access a file that was confidential and did not correspond to a clickable link on
10

The plaintiffs suggest California’s regulations are not as
protective as federal regulations because federal law imposes criminal penalties for unauthorized disclosure of information on tax
returns. See 26 U.S.C. § 7213. Federal law, however, criminalizes
only willful unauthorized disclosure; the differences between
federal and California law are therefore immaterial to risk of
inadvertent public disclosure at issue here.

36a
the website. That is, although documents were deemed
“confidential,” that meant only that they were not
visible to the public; it did not mean they were not still
housed on the public-facing Registry website. By altering the single digit at the end of the URL, McClave
was able to access, one at a time, all 350,000 of the
Registry’s confidential documents. This lapse was a
singularity, stemming from an issue with the Attorney
General’s third-party security vendor. When it was
brought to the Attorney General’s attention during
trial, the vulnerability was quickly remedied. There is
no evidence to suggest that this type of error is likely
to recur.
We are more concerned with human error. As part
of an iterative search on the public-facing website of
the Registry, McClave found approximately 1800 confidential Schedule Bs that had been misclassified as
public over several years. The Attorney General promptly
removed them from public access, but some had remained
on the website since 2012, when the Registry began
loading its documents to servers.
Much of this error can be traced to the large amount
of paper the Registry Unit processes around the same
time each year. The Registry Unit receives over 60,000
registration renewals annually, and 90 percent are
filed in hard copy. It processes each by hand before
using temporary workers and student workers to scan
them into an electronic record system. The volume and
tediousness of the work seems to have resulted in some
staff occasionally mismarking confidential Schedule
Bs as public and then uploading them to the publicfacing site.
Recognizing the serious need to protect confidentiality, however, the Registry Unit has implemented stronger
protocols to prevent human error. It has implemented

37a
“procedural quality checks . . . to sample work as it [is]
being performed” and to ensure it is “in accordance
with procedures on handling documents and [indexing
them] prior to uploading.” It has further implemented
a system of text-searching batch uploads before they
are scanned to the Registry site to ensure none contains Schedule B keywords. At the time of trial in
2016, the Registry Unit had halted batch uploads
altogether in favor of loading each document individually, as it was refining the text-search system. After
forms are loaded to the Registry, the Charitable Trusts
Section runs an automated weekly script to identify
and remove any documents that it had inadvertently
misclassified as public. There is also no dispute that
the Registry Unit immediately removes any information that an organization identifies as having been
misclassified for public access.
Nothing is perfectly secure on the internet in 2018,
and the Attorney General’s data are no exception, but
this factor alone does not establish a significant risk
of public disclosure. As the Second Circuit recently
explained, “[a]ny form of disclosure-based regulation –
indeed, any regulation at all – comes with some risk of
abuse. This background risk does not alone present
constitutional problems.” Schneiderman, 882 F.3d at
383.
Although the plaintiffs have shown the state could
afford to test its own systems with more regularity,
they have not shown its cybersecurity protocols are
deficient or substandard as compared to either the
industry or the IRS, which maintains the same confidential information.11 We agree with the Second Circuit
11

Although the plaintiffs contend that the Charitable Trusts
Section’s protective measures are inadequate because they impose
no physical or technical impediments to prevent employees from

38a
that “there is always a risk somebody in the Attorney
General’s office will let confidential information slip
notwithstanding an express prohibition. But if the
sheer possibility that a government agent will fail to
live up to her duties were enough for us to assume
those duties are not binding, hardly any government
action would withstand our positively philosophical
skepticism.” Id. at 384.
Although the district court appears to have concluded that there is a high risk of public disclosure
notwithstanding the promulgation of § 310 and the
Attorney General’s adoption of additional security measures, the court appears to have rested this conclusion
solely on the state’s past “inability to ensure confidentiality.” Thomas More Law Ctr., 2016 WL 6781090,
at *5. In light of the changes the Attorney General has
adopted since those breaches occurred, however, the
evidence does not support the inference that the
Attorney General is likely to inadvertently disclose
either the Law Center’s or the Foundation’s Schedule
B in the future. The risk of inadvertent disclosure of
any Schedule B information in the future is small, and
the risk of inadvertent disclosure of the plaintiffs’
Schedule B information in particular is smaller still.
To the extent the district court found otherwise, that
finding was clearly erroneous.

emailing Schedule Bs externally or printing them in the office,
the record does not show that the IRS maintains a more secure
internal protocol for its handling of Schedule B information or
that the Charitable Trusts Section is failing to meet any particular security standard. Nonetheless, we take seriously the concerns
raised here by the plaintiffs and amici, and we encourage all
interested parties to work cooperatively to ensure that Schedule
B information in the hands of the Attorney General remains
confidential.

39a
Given the slight risk of public disclosure, we cannot
say that the plaintiffs have shown “a reasonable
probability that the compelled disclosure of personal
information will subject them to threats, harassment,
or reprisals.” See Doe, 561 U.S. at 200 (alteration
omitted) (quoting Buckley, 424 U.S. at 74).
In sum, the plaintiffs have not shown that compliance with the Attorney General’s Schedule B requirement
will impose significant First Amendment burdens. The
plaintiffs have not demonstrated that compliance with
the state’s disclosure requirement will meaningfully
deter contributions. Nor, in light of the low risk of
public disclosure, have the plaintiffs shown a reasonable probability of threats, harassment or reprisals.
Because the burden on the First Amendment right to
association is modest, and the Attorney General’s
interest in enforcing its laws is important, Ctr. for
Competitive Politics, 784 F.3d at 1317, “the strength of
the governmental interest . . . reflect[s] the seriousness
of the actual burden on First Amendment rights.” Doe,
561 U.S. at 196 (quoting Davis, 554 U.S. at 744). As
applied to the plaintiffs, therefore, the Attorney
General’s Schedule B requirement survives exacting
First Amendment scrutiny.
IV.
The plaintiffs’ facial challenges also fail. In AFPF I,
we held that we were “bound by our holding in Center
for Competitive Politics, 784 F.3d at 1317, that the
Attorney General’s nonpublic Schedule B disclosure
regime is facially constitutional.” AFPF I, 809 F.3d
at 538. That holding constitutes the law of the case.
See Ranchers Cattlemen Action Legal Fund United
Stockgrowers of Am. v. U.S. Dep’t of Agric., 499 F.3d
1108, 1114 (9th Cir. 2007) (“[T]he general rule [is] that
our decisions at the preliminary injunction phase do

40a
not constitute the law of the case. Any of our conclusions on pure issues of law, however, are binding.”
(citations and internal quotation marks omitted)).
Even if we were to consider the facial challenges anew,
the evidence adduced at these trials does not prove the
Schedule B requirement “fails exacting scrutiny in a
‘substantial’ number of cases, ‘judged in relation to
[its] plainly legitimate sweep.’” Ctr. for Competitive
Politics, 784 F.3d at 1315 (quoting United States v.
Stevens, 559 U.S. 460, 473 (2010)).
We also reject the Law Center’s cross-appeal as to
its Fourth Amendment and preemption claims. These
claims were not proved at trial. We decline to consider
the Law Center’s motion for attorney’s fees because it
was not presented to the district court. Finally, we
deny the Law Center’s motion for judicial notice and
the Attorney General’s motion to strike portions of the
Law Center’s reply brief.
The judgments of the district court are reversed.
The permanent injunctions are vacated. The case is
remanded for entry of judgments in favor of the
Attorney General.
INJUNCTIONS VACATED; JUDGMENTS REVERSED; CASES REMANDED.
The Law Center’s motion for judicial notice, filed
February 12, 2018 (Dkt. 45, No. 16-56855) is DENIED.
The Attorney General’s motion to strike, filed
February 13, 2018 (Dkt. 47, No. 16-56855), is DENIED.

41a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
[Filed 4/21/2016]
————
Case No. CV 14-9448-R
————
AMERICANS FOR PROSPERITY FOUNDATION,
v.

Plaintiff,

KAMALA HARRIS, in her Official Capacity as
Attorney General of California,
Defendant.
————
ORDER FOR JUDGMENT
IN FAVOR OF PLAINTIFF
For the reasons that follow, this Court grants Americans For Prosperity Foundation’s (“AFP”) motion for a
permanent injunction to enjoin the Attorney General
of California from demanding its Schedule B form.
After conducting a full bench trial, this Court finds the
Attorney General’s Schedule B disclosure requirement
unconstitutional as-applied to AFP.
Plaintiff AFP is a non-profit corporation organized
under Internal Revenue Code section 501(c)(3) that
funds its activities by raising charitable contributions
from donors throughout the country, including in
California. California state law requires charitable
organizations, such as AFP, to file a copy of its IRS
Form 990, including its Schedule B, with the State
Registry. See e.g., Cal. Code Regs. tit. 11, § 301. An

42a
organization’s Schedule B includes all the names and
addresses of every individual nationwide who donated
more than $5,000 to the charity during a given tax
year. While a nonprofit’s federal tax return, IRS Form
990, must be made available to the public, an organization’s Schedule B does not. 26 U.S.C. § 6104(b),
(d)(3)(A).
Since 2001, AFP has filed its Form 990 as part of its
periodic reporting with the Attorney General, without
including its Schedule B. For each year from 2001
through 2010, the Attorney General accepted AFP’s
registration renewal and listed AFP as an active
charity in compliance with the law. In a letter dated
March 7, 2013, the Attorney General declared AFP’s
2011 filing incomplete because it did not include the
organization’s unredacted Schedule B. In December
2014, AFP brought the present action seeking an order
preliminarily enjoining the Attorney General from
demanding its Schedule B. Among other claims, AFP
argued that the California law requiring disclosure of
its Schedule B to the Attorney General was facially
unconstitutional. AFP also argued that the disclosure
requirement was unconstitutional as-applied to it.
On February 23, 2015, this Court granted AFP’s
motion for preliminary injunction, finding that the
Plaintiff had raised serious questions going to the
merits of its case and demonstrated that the balance
of hardships sharply favored Plaintiff. That decision
was appealed by the Attorney General and remanded
by the Ninth Circuit. Americans for Prosperity Found.
v. Harris, 809 F.3d 536 (9th Cir. 2015). In its remand,
the Ninth Circuit held that this Court is bound by its
previous decision in Center for Competitive Politics v.
Harris, 784 F.3d 1307, 1317 (9th Cir. 2015)—that the
Attorney General’s nonpublic Schedule B disclosure

43a
regime was not facially unconstitutional. Americans
for Prosperity Found., 809 F.3d at 538. The Ninth
Circuit did, however, instruct this Court to have a trial
on the as-applied challenge. Id. at 543.
Although AFP argues that this Court is not bound
by the Ninth Circuit’s prior rulings on its facial
challenge since the record before the Court is much
denser now than it was then, the “strong medicine” of
facial invalidation need not and generally should not
be administered when the statute under attack is
unconstitutional as-applied to the challenger before
the court. See U.S. v. Stevens, 559 U.S. 460, 482–83
(2010) (Alito, J., dissenting). Accordingly, the Court
focuses solely on AFP’s as-applied challenge.
I.
Courts review First Amendment challenges to disclosure requirements under an “exacting scrutiny”
standard. John Doe No. 1 v. Reed, 561 U.S. 186, 187
(2010); Citizens United v. FEC, 558 U.S. 310, 366
(2010). Exacting scrutiny “requires a ‘substantial
relation’ between the disclosure requirement and a
‘sufficiently important’ governmental interest.” This
encompasses a balancing test. In order for a government action to survive exacting scrutiny, “the strength
of the governmental interest must reflect the seriousness of the actual burden on First Amendment rights.”
John Doe No. 1, 561 U.S. at 196.
A. Strength of Governmental Interest
Defendant argues that the state law requiring that
all charities file a complete copy of IRS Form 990
Schedule B places no actual burden on First Amendment rights and is substantially related to the Attorney
General’s compelling interest in enforcing the law and
protecting the public. Before the Ninth Circuit, as well

44a
as this Court, the Attorney General has claimed that
her use for Schedule B information is compelling since
that information reveals not just how much revenue a
charity receives, but also who is donating it and how it
is being donated. Additionally, the Attorney General
claims that such information allows her to determine
whether an organization has violated the law, including laws against self-dealing, improper loans, interested
persons, or illegal or unfair business practices. The
Court finds two issues with this stated purpose. First,
over the course of trial, the Attorney General was hard
pressed to find a single witness who could corroborate
the necessity of Schedule B forms in conjunction with
their office’s investigations. And second, even assuming arguendo that this information does genuinely
assist in the Attorney General’s investigations, its
disclosure demand of Schedule B is more burdensome
than necessary.
i. Sufficiently Important Governmental Interest
Although Center for Competitive Politics found that
the Attorney General’s “disclosure requirement bears
a ‘substantial relation’ to a ‘sufficiently important’ government interest,” this Court, unlike the Ninth Circuit,
had the benefit of holding a bench trial in the matter
and was left unconvinced that the Attorney General
actually needs Schedule B forms to effectively conduct
its investigations. 784 F.3d at 1317 (quoting Citizens
United, 558 U.S. at 366). As a threshold matter, the
record is undisputed that AFP has been registered
with the Attorney General since 2001 and has never
included a Schedule B with its annual filings. For each
year from 2001 through 2010, the Attorney General
accepted AFP’s annual registration and listed the
foundation as an active charity in compliance with the
law. It was not until 2013 that the Attorney General

45a
first notified AFP that its 2011 filing was incomplete
because of the lack of Schedule B. The only logical
explanation for why AFP’s ‘lack of compliance’ went
unnoticed for over a decade is that the Attorney General
does not use the Schedule B in its day-to-day business.
In fact, such an admission was made by David Eller,
the Registrar for the Registry of Charitable Trusts in
the Department of Justice. (Eller Test. 3/3/16 Vol. II,
p. 75:16–20). As for the investigative unit of the Charitable Trusts Section, trial testimony confirmed that
auditors and attorneys seldom use Schedule B when
auditing or investigating charities. Steven Bauman,
a supervising investigative auditor for the Attorney
General, testified that out of the approximately 540
investigations conducted over the past ten years in the
Charitable Trusts Section, only five instances involved
the use of a Schedule B. (Bauman Test. 3/4/16, p. 22:4–
23:25). In fact, as to those five investigations identified, the Attorney General’s investigators could not
recall whether they had unredacted Schedule Bs on
file before initiating the investigation. And even in
instances where a Schedule B was relied on, the relevant information it contained could have been obtained
from other sources. (Bauman Test. 3/4/16, p. 31:8–32:10).
ii. Narrowly Tailored
The Attorney General argues that exacting scrutiny
does not require the least restrictive means. This contention is supported by the Ninth Circuit’s previous
review in this case. Americans for Prosperity Found.,
809 F.3d at 541. However, the court only references
Chula Vista Citizens for Jobs & Fair Competition v.
Norris for such a position. 782 F.3d 520, 541 (9th Cir.
2015). In Chula Vista, association members alleged
that the city’s elector and petition-proponent disclosure requirements for ballot initiatives violated their

46a
First Amendment rights to freedom of speech and
association. The Ninth Circuit upheld these disclosure
requirements after weighing the government’s interests in the integrity of the electoral process and the
public’s informational interest against the relatively
small burden imposed on the association members’
First Amendment rights. Id. at 538.
In the context of elections and campaign finance
disclosure laws, which have been the majority of cases
in recent years applying exacting scrutiny, unique
considerations apply that specifically shape and define
the application of exacting scrutiny. See Ctr. for
Competitive Politics, 784 F.3d at 1312 n.2 (“most of
the cases in which we and the Supreme Court have
applied exacting scrutiny arise in the electoral context”);
e.g., Citizens United, 558 U.S. 310; John Doe No. 1, 561
U.S. 186; Davis v. FEC, 554 U.S. 724 (2008); Buckley
v. Valeo, 424 U.S. 1 (1976); Family PAC v. McKenna,
685 F.3d 800 (9th Cir. 2012); Human Life of Wash.,
Inc. v. Brumsickle, 624 F.3d 990 (9th Cir. 2010). There
are such substantial governmental interests in “provid[ing] the electorate with information” about the sources
of election-related spending, in “deter[ring] actual
corruption,” in “avoid[ing] the appearance of corruption,” and in “gathering the data necessary to detect
violations of . . . contribution limits,” that the Supreme
Court has held that campaign-finance disclosure requirements are per se “the least restrictive means” of achieving
the government’s interests. Buckley, 424 U.S. at 66–
68. Because disclosure requirements are inherently
the least restrictive means of achieving the state’s
aims in the electoral context, the Ninth Circuit has
held that in cases challenging mandatory disclosures
in the electoral context “exacting scrutiny is not a
least-restrictive-means test.” Chula Vista, 782 F.3d at
541. That holding is properly limited to the electoral

47a
context. In the context of associational rights, however,
“even though the governmental purpose [may] be legitimate and substantial, that purpose cannot be pursued
by means that broadly stifle fundamental personal
liberties when the end can be more narrowly achieved.”
Louisiana v. NAACP, 366 U.S. 293, 296 (1961).
Here, like in NAACP, even assuming the Attorney
General presented a sufficiently important governmental interest, its interests can be more narrowly
achieved as evidenced by the testimony of the Attorney
General’s own attorneys. During trial, the Attorney
General’s investigators testified that they have successfully completed their investigations without using
Schedule Bs, even in instances where they knew
Schedule Bs were missing. For example, Mr. Bauman
testified that he has reviewed Form 990s in connection
with audits that did not include Schedule Bs. (Bauman
Test. 3/4/16, p. 27:12–14). Specifically, he admitted
that he successfully audited those charities and found
wrongdoing without the use of Schedule Bs. (Id. at
27:18–23). In fact, Mr. Bauman admitted that he successfully audited charities for years before the Schedule B
even existed. (Bauman Dep., TX-731, p. 49:2–15). It is
clear that the Attorney General’s purported Schedule
B submission requirement demonstrably played no
role in advancing the Attorney General’s law enforcement goals for the past ten years. The record before
the Court lacks even a single, concrete instance in
which pre-investigation collection of a Schedule B did
anything to advance the Attorney General’s investigative, regulatory or enforcement efforts. If heightened
scrutiny means anything, it at least requires the
Government to convincingly show that its demands
are substantially related to a compelling interest,
including by being narrowly tailored to achieve that
interest. While this Court cannot find such a dis-

48a
closure requirement facially invalid, it is prepared to
find it unconstitutional as-applied to AFP, especially
in light of the requirement’s burdens on AFP’s First
Amendment rights.
B. Actual Burden on First Amendment Rights
Setting aside the Attorney General’s failure to establish a substantial relationship between her demand
for AFP’s Schedule B and a compelling governmental
interest, AFP would independently prevail on its asapplied challenge because it has proven that disclosing
its Schedule B to the Attorney General would create a
burden on its First Amendment rights. While the Ninth
Circuit in Center for Competitive Politics foreclosed
any facial challenge to the Schedule B requirement, it
specifically left open the possibility that a party could
show “‘a reasonable probability that the compelled disclosure of [its] contributors’ names will subject them to
threats, harassment, or reprisal from either Government officials or private parties’ that would warrant
relief on an as-applied challenge.” 784 F.3d at 1317
(quoting McConnell v. FEC, 540 U.S. 93, 199 (2003)).
As the Supreme Court has held, unfounded speculation, conclusory statements, fear, and uncertainty
untethered to the requirement at issue are insufficient. Buckley, 424 U.S. at 64, 69, 71–72. However, “[a]
strict requirement that chill and harassment be directly
attributable to the specific disclosure from which the
exemption is sought would make the task even more
difficult.” Id. at 74. Examples of the type of evidence
sufficient to succeed on an as-applied challenge include
past or present harassment of members due to their
associational ties, or of harassment directed against
the organization itself, or a pattern of threats or specific manifestations of public hostility. Id. This Court

49a
is more than satisfied that such a showing was made
at trial.
During the course of trial, the Court heard ample
evidence establishing that AFP, its employees, supporters and donors face public threats, harassment,
intimidation, and retaliation once their support for
and affiliation with the organization becomes publicly
known. For example, Lucas Hilgemann, Chief Executive
Officer of AFP, testified that in 2013, the security
staff of AFP alerted him that a technology contractor
working inside AFP headquarters posted online that
he was “inside the belly of the beast” and that he could
easily walk into Mr. Hilgemann’s office and slit his
throat. (Hilgemann Test. 2/23/16 Vol. I, p. 57:2–14). That
individual was also found in AFP’s parking garage,
taking pictures of employees’ license places. (Id. at
57:15–23). Another witness and major donor, Art Pope,
testified about an AFP event in Washington D.C. in
2011. Mr. Pope testified that after protestors attempted
to enter the building and disrupt the event, they began
to push and shove AFP guests to keep them inside of
the building. (Pope Test. 2/24/16 Vol. II, p. 47:7–15).
Mr. Pope attempted to help a woman in a wheelchair
exit the building; however the protestors had blocked
their path. (Pope Test. 2/25/16 Vol. I, p. 21:20–22:12).
Once they finally exited the building, they still had to
go through a hostile crowd that was shouting, yelling
and pushing. (Id. at 22:22–23:2). At another event in
Wisconsin, after speaking to a crowd of AFP supporters, Mr. Hilgemann was threatened by a protestor who
used multiple slurs and spit in Mr. Hilgemann’s face.
(Hilgemann Test. 2/23/16 Vol. I, p. 48:12–49:15).
Again, at another event in Michigan where an AFP
tent was set up, several hundred protestors surrounded the tent and used knives and box-cutters to
cut at the ropes of tent, eventually causing the large

50a
tent to collapse with AFP supporters still inside. (Id.
at 50:16–51:25).
The Court also heard from Mark Holden, General
Counsel for Koch Industries, who testified that Charles
and David Koch, two of AFP’s most high-profile associates, have faced threats, attacks, and harassment,
including death threats. (Holden Test. 2/23/16 Vol. II,
p. 30:17–35:13). Not only have these threats been
made to the Koch brothers because of their ties with
AFP, but death threats have also been made against
their families, including their grandchildren. (Id. at
31:3–10). Mr. Pope has faced similar death threats due
to his affiliation with AFP and has even encountered
boycotts of his nationwide stores, Variety Wholesalers.
(Pope Test. 2/24/16 Vol. II, p. 22:8–15, 29:5–17). In
December 2013, about 130 protestors picketed in front
of his stores, in part, because of his affiliation with
AFP. (Id. 32:24–33:2). As a result of these boycotts,
threats, and exposure, Mr. Pope testified that he considered stopping funding or providing support to AFP.
(Id. at 50:1–3).
The Court can keep listing all the examples of
threats and harassment presented at trial; however,
in light of these threats, protests, boycotts, reprisals,
and harassment directed at those individuals publically associated with AFP, the Court finds that AFP
supporters have been subjected to abuses that warrant
relief on an as-applied challenge. And although the
Attorney General correctly points out that such abuses
are not as violent or pervasive as those encountered in
NAACP v. Alabama or other cases from that era, this
Court is not prepared to wait until an AFP opponent
carries out one of the numerous death threats made
against its members.

51a
II.
A final argument to consider by the Attorney
General is that its office is only seeking disclosure of
AFP’s Schedule B for nonpublic use and therefore
there is no potential for public targeting of private
donors; however, the Attorney General’s inability to
keep confidential Schedule Bs private is of serious
concern. In its previous order remanding this case,
the Ninth Circuit found that “plaintiffs [] have raised
serious questions as to whether the Attorney General’s
current policy actually prevents public disclosure.”
Americans for Prosperity Found., 809 F.3d at 542.
As made abundantly clear during trial, the Attorney
General has systematically failed to maintain the confidentiality of Schedule B forms.
Pursuant to the Attorney General’s purported confidentiality policy, Schedule Bs should never be accessible
through its Registry’s public website. The Attorney
General’s Registry receives more than 60,000 renewal
filings each year, 90% of which are paper filings. Once
the Registry receives these filings, it is supposed to scan
and then electronically store the documents, separately
tagging confidential documents such as Schedule Bs.
Kevis Foley, former Registrar, testified at her deposition that separating out Schedule Bs and other confidential materials from public filings is “very tedious,
very boring work” and that “there is room for errors to
be made.” (Foley Dep. TX-734, p. 174:8–21). While
human error can sometimes be unavoidable, the amount
of careless mistakes made by the Attorney General’s
Registry is shocking.
During the course of this litigation, AFP conducted
a search of the Attorney General’s public website and
discovered over 1,400 publically available Schedule
Bs. (TX-56). Within 24 hours, all of those confidential

52a
documents were removed from the Registry’s website.
(TX-736, p. 107:12–15). Just one example of the Attorney
General’s inadvertent disclosures was the Schedule B
for Planned Parenthood Affiliates of California. The
Attorney General was made aware that the Registry
had publically posted Planned Parenthood’s confidential Schedule B, which included all the names and
addresses of hundreds of donors. (TX-131). An investigator for the Attorney General admitted that “posting
that kind of information publically could be very damaging to Planned Parenthood . . .” (Johns Test. 2/25/16
Vol. II, p. 41:18–21). All told, AFP identified 1,778
confidential Schedule Bs that the Attorney General
had publically posted on the Registry’s website, including 38 which were discovered the day before this trial.
(McClave Test. 2/24/16 Vol. I, p. 27:6–32:17). The pervasive, recurring pattern of uncontained Schedule B
disclosures—a pattern that has persisted even during
this trial—is irreconcilable with the Attorney General’s
assurances and contentions as to the confidentiality of
Schedule Bs collected by the Registry.
The Attorney General has continuously maintained
that the Registry is underfunded, understaffed, and
underequipped when it comes to the policy surrounding Schedule Bs. The current Registrar effectively
acknowledges that the Registry’s approach to maintaining the supposed confidentiality of Schedule Bs
have been indefensible. Not only did he admit that
information has been improperly classified, which
would make it available to the public, but he also
conceded that the Registry has more work to do before
it can get a handle on maintaining confidentiality.
(Eller Test. 3/3/16 Vol. II, p. 95:7–11).
While the Attorney General will have this Court
believe that proper procedures are now in place to

53a
prevent negligent disclosures of Schedule Bs, the
Court is unconvinced. Once a confidential Schedule B
has been publically disseminated via the internet,
there is no way to meaningfully restore confidentiality. Given the extensive disclosures of Schedule Bs,
even after explicit promises to keep them confidential,
the Attorney General’s current approach to confidentiality obviously and profoundly risks disclosure of
any Schedule B the Registry may obtain from AFP.
Accordingly, the Court finds against the Attorney
General on the alternative grounds that her current
confidentiality policy cannot effectively avoid inadvertent disclosure.
III.
Because AFP has prevailed on its First Amendment
as-applied challenge, it is entitled to declaratory and
injunctive relief. Equitable relief has long been recognized as appropriate to prevent government officials
from acting unconstitutionally. Free Enter. Fund v.
Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 491
n.2 (2010) (quoting Corr. Servs. Corp. v. Malesko, 534
U.S. 61, 74 (2001)). Injunctive relief is particularly
appropriate to prevent state officials from violating
the First Amendment by compelling the disclosure of
the names of an organization’s supporters. See Brown
v. Socialist Workers ‘74 Campaign Comm. (Ohio), 459
U.S. 87, 101–02 (1982); Louisiana v. NAACP, 366 U.S.
at 297.
A “plaintiff seeking a permanent injunction must
satisfy a four-factor test before a court may grant such
relief.” eBay Inc. v. MercExchange, L.L.C., 547 U.S.
388, 391 (2006). Specifically, the plaintiff “must demonstrate: (1) that it has suffered an irreparable injury;
(2) that remedies available at law, such as monetary
damages, are inadequate to compensate for that injury;

54a
(3) that considering the balance of hardships between
the plaintiff and defendant, a remedy in equity is
warranted; and (4) that the public interest would not
be disserved by a permanent injunction.” Id. Each of
these factors weighs in favor of an injunction here.
AFP has suffered irreparable harm. The Attorney
General’s requirement that AFP submit its Schedule
B chills the exercise of its donor’s First Amendment
freedoms to speak anonymously and to engage in expressive association. Among other things, plaintiffs have
demonstrated that the Schedule B disclosure requirement places donors in fear of exercising their First
Amendment right to support AFP’s expressive activity;
the effect then is to diminish the amount of expressive
and associational activity by AFP. Moreover, if AFP
refuses to comply with the Attorney General’s Schedule
B submission requirement, the Attorney General has
threatened to cancel its charitable registration, which
would preclude it from exercising its First Amendment
right to solicit funds in California. Any “loss of First
Amendment freedoms . . . unquestionably constitutes
irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373
(1976) (plurality opinion); accord, e.g., Doe v. Harris,
772 F.3d 563, 583 (9th Cir. 2014); Valle Del Sol Inc. v.
Whiting, 709 F.3d 808, 828 (9th Cir. 2013); Sanders
Cnty. Republican Cent. Comm. v. Bullock, 698 F.3d
741, 748 (9th Cir. 2012); Farris v. Seabrook, 677 F.3d
858, 868 (9th Cir. 2012); Thalheimer v. City of San
Diego, 645 F.3d 1109, 1128 (9th Cir. 2011). In particular, the government causes “irreparable injury” when,
as here, it places individuals “in fear of exercising their
constitutionally protected rights of free expression,
assembly, and association.” Allee v. Medrano, 416 U.S.
802, 814–15 (1974).

55a
Additionally, AFP’s irreparable First Amendment
injuries cannot adequately be compensated by damages or any other remedy available at law. Unlike a
monetary injury, violations of the First Amendment
“cannot be adequately remedied through damages.”
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1138 (9th
Cir. 2009).
The balance of hardships also favors granting an
injunction. Once AFP’s donor information is disclosed,
it cannot be clawed back. Thus, if the Attorney General
is allowed to compel AFP to disclose its Schedule B,
the ensuing intimidation and harassment of AFP’s
donors, and resulting chilling effect on First Amendment rights, cannot be undone. See Hollingsworth
v. Perry, 558 U.S. 183, 196 (2010). By contrast, the
Attorney General has offered no evidence that she will
suffer injury if AFP does not produce its Schedule B.
The Attorney General does not review Schedule Bs
upon collection and virtually never uses them to investigate wrongdoing. Indeed, the Attorney General has
gone without AFP’s Schedule Bs for over a decade, yet
she has demonstrated no harm from not possessing
it. Balancing the disclosure requirement’s burden on
First Amendment interests against any negligible
burden that an injunction might impose, it is clear
that the balance of hardships supports enjoining the
Attorney General.
Finally, the public interest favors an injunction.
As the Ninth Circuit has “consistently recognized,”
there is a “significant public interest in upholding
First Amendment principles.” Doe v. Harris, 772 F.3d
at 683 (quoting Sammartano v. First Judicial Dist.
Court, 303 F.3d 959, 974 (9th Cir. 2002)); accord, e.g.,
Thalheimer, 645 F.3d at 1129; Klein, 584 F.3d at 1208.
In sum, the four-factor test establishes that injunctive

56a
relief is appropriate to bar the Attorney General from
demanding Schedule Bs from AFP as part of their
annual registration renewal. Brown, 492 U.S. at 101–
02; Louisiana v. NAACP, 366 U.S. at 297.
IT IS HEREBY ORDERED that the Attorney General
is Permanently Enjoined from Requiring AFP to File
with the Registry a Periodic Written Report Containing a Copy of its Schedule B to IRS Form 990. AFP
Shall No Longer Be Considered Deficient or Delinquent in its Reporting Requirement because it Does
Not File its Confidential Schedule B with the Attorney
General. Each Party Shall Bear its Own Costs.
Dated: April 21, 2016.
/s/ Manuel L. Real
HON. MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

57a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed 12/29/2015]
————
No. 15-55446
D.C. No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellee,
v.
KAMALA D. HARRIS, Attorney General, in her
Official Capacity as Attorney General of California,
Defendant-Appellant.
————
No. 15-55911
D.C. No. 2:15-cv-03048-R-FFM
————
THOMAS MORE LAW CENTER,
Plaintiff-Appellee,
v.
KAMALA D. HARRIS, Attorney General, in her
Official Capacity,
Defendant-Appellant.
————
Appeals from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
————

58a
Argued and Submitted December 9, 2015
Pasadena, California
————
OPINION
Before: Stephen Reinhardt, Raymond C. Fisher and
Jacqueline H. Nguyen, Circuit Judges.
PER CURIAM:
Nonprofit organizations Americans for Prosperity
Foundation and Thomas More Law Center challenge
the Attorney General of California’s collection of Internal
Revenue Service (IRS) Form 990 Schedule B, which
contains identifying information for their major donors.
They argue the nonpublic disclosure requirement is
unconstitutional as applied to them because it impermissibly burdens First Amendment rights to free
speech and association by deterring individuals from
financially supporting them. The district court entered
preliminary injunctions preventing the Attorney General
from demanding the plaintiffs’ Schedule B forms pending a trial on the merits. We have jurisdiction under
28 U.S.C. § 1292, and we vacate the injunctions with
instructions to enter new orders preliminarily enjoining the Attorney General from publicly disclosing, but
not from collecting, the plaintiffs’ Schedule B forms.
I.
California’s Supervision of Trustees and Fundraisers for Charitable Purposes Act (Charitable Purposes
Act) requires the Attorney General to maintain a
Registry of Charitable Trusts and authorizes her to
obtain “whatever information, copies of instruments,
reports, and records are needed for the establishment
and maintenance of the [Registry].” Cal. Gov’t Code
§ 12584. An organization must maintain membership

59a
in the Registry to solicit tax-deductible donations from
California residents, see id. § 12585, and as one condition of membership, the Attorney General requires each
organization to annually submit the complete IRS
Form 990 Schedule B, see Cal. Code Regs. tit. 11, § 301.
Schedule B, which a charitable organization files with
the IRS, lists the names and addresses of persons who
have given $5,000 or more to the organization during
the preceding year.
The Attorney General’s Schedule B disclosure requirement seeks only nonpublic disclosure of these forms,
and she seeks them solely to assist her in enforcing
charitable organization laws and ensuring that charities in the Registry are not engaging in unfair business
practices. See Ctr. for Competitive Politics v. Harris,
784 F.3d 1307, 1311 (9th Cir. 2015). The Attorney
General does not assert any state interest in public
disclosure of Schedule B forms. To the contrary, her
longstanding policy of treating Schedule B forms as
confidential, as well as her proposed regulation formalizing that policy, confirm that the state has no
interest in public disclosure.1 This regime is readily
distinguishable from state requirements mandating
public disclosure – such as those often found in the
regulation of elections – that are intended to inform
the public and promote transparency. See, e.g., John
Doe No. 1 v. Reed, 561 U.S. 186, 197 (2010); Buckley
v. Valeo, 424 U.S. 1, 66-67 (1976); Family PAC v.
McKenna, 685 F.3d 800, 806 (9th Cir. 2012).
1

We take judicial notice of the Attorney General’s proposed
regulation. See California Regulatory Notice Register, 50-Z Cal.
Regulatory Notice Register 2280-84 (Dec. 11, 2015), http://www.
oal.ca.gov/res/docs/pdf/notice/50z-2015.pdf; see also Disabled Rights
Action Comm. v. Las Vegas Events, Inc., 375 F.3d 861, 866 n.1
(9th Cir. 2004).

60a
We are bound by our holding in Center for Competitive Politics, 784 F.3d at 1317, that the Attorney
General’s nonpublic Schedule B disclosure regime is
facially constitutional. Compelled disclosure requirements are evaluated under exacting scrutiny, which
requires the strength of the governmental interest to
reflect the seriousness of the actual burden on a plaintiff’s First Amendment rights. See id. at 1312. In that
case, brought as a facial challenge, we held the Attorney
General’s authority to demand and collect charitable
organizations’ Schedule B forms falls within “her general subpoena power” and furthers California’s compelling
interest in enforcing its laws. Id. at 1317. Applying
exacting scrutiny, we rejected the facial challenge to
the disclosure requirement because the plaintiff failed
to show it placed an actual burden on First Amendment rights. See id. at 1314-15, 1317. We left open the
possibility, however, that a future litigant might “show
a reasonable probability that the compelled disclosure
of its contributors’ names will subject them to threats,
harassment, or reprisals from either Government
officials or private parties that would warrant relief on
an as-applied challenge.” Id. at 1317 (alteration and
internal quotation marks omitted).
The plaintiffs here, two charitable organizations
engaged in advocacy some may consider controversial,
argue they have made such a showing. They contend
disclosure to the state will infringe First Amendment
rights by deterring donors from associating with and
financially supporting them, and therefore that the
Attorney General should be enjoined from collecting
their Schedule B forms, even for nonpublic use in
enforcing the law.
The district court preliminarily enjoined the Attorney
General from demanding and enforcing her demand

61a
for IRS Form 990 Schedule B from the plaintiffs.2 The
Attorney General has appealed these orders.
II.
We review the district court’s grant of a preliminary
injunction for abuse of discretion, reviewing findings
of fact for clear error and conclusions of law de novo.
See id. at 1311. Reversal for clear error is warranted
when the district court’s factual determination is illogical, implausible or lacks support in inferences that
may be drawn from facts in the record. See United
States v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009)
(en banc). A court may grant a preliminary injunction
when a party shows “serious questions” going to the
merits of its claim, a balance of hardships that tips
sharply in its favor, a likelihood of irreparable harm
and that an injunction is in the public interest. See All.
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1135
(9th Cir. 2011).
The plaintiffs argue the Attorney General must be
enjoined from demanding and collecting their Schedule
B forms on two theories. First, they argue confidential
disclosure to her office itself chills protected conduct or
would lead to persecution and harassment of their
donors by the state or the public. Second, they argue
that, notwithstanding her voluntary policy against
disclosing Schedule B forms to the public, the Attorney
General may change her policy or be compelled to
release the forms under California law, and that the
resulting public disclosure will lead to harassment of

2

The district court’s orders expressly enjoin only the collection
of the plaintiffs’ Schedule B forms, but, in doing so, necessarily
prevent the Attorney General from disclosing those forms to the
public.

62a
their donors by members of the public, chilling protected conduct. We address these theories in turn.
A. The District Court Abused its Discretion by
Enjoining the Attorney General from Collecting
the Plaintiffs’ Schedule B Forms for Law
Enforcement Use.
Neither plaintiff has shown anything more than
“broad allegations or subjective fears” that confidential disclosure to the Attorney General will chill participation or result in harassment of its donors by the
state or the public. Dole v. Serv. Emps. Union, Local
280, 950 F.2d 1456, 1460 (9th Cir. 1991) (quoting
McLaughlin v. Serv. Emps. Union, Local 280, 880 F.2d
170, 175 (9th Cir. 1989)) (internal quotation mark
omitted). The district court abused its discretion by
enjoining the Attorney General from demanding the
plaintiffs’ Schedule B forms given the absence of
evidence showing confidential disclosure would cause
actual harm. See Ctr. for Competitive Politics, 784 F.3d
at 1316 (“[N]o case has ever held or implied that a
disclosure requirement in and of itself constitutes
First Amendment injury.”); see also Park Vill. Apartment
Tenants Ass’n v. Mortimer Howard Trust, 636 F.3d
1150, 1160 (9th Cir. 2011) (explaining that an overbroad injunction is an abuse of discretion). To the extent
the district court found actual chilling or a reasonable
probability of harassment from confidential disclosure
to the Attorney General, those findings are clearly
erroneous.
First, the plaintiffs have not shown the demand for
nonpublic disclosure of their Schedule B forms to the
Attorney General has actually chilled protected conduct or would be likely to do so. See Ctr. for Competitive
Politics, 784 F.3d at 1314 (finding no “actual burden”
on First Amendment rights). Notably, neither plaintiff

63a
has alleged that annual disclosure of Schedule B forms
to the IRS had any chilling effect. Americans for
Prosperity Foundation proffered a declaration from its
vice president for development asserting its donors
“worry that disclosure to the Attorney General will
lead to their own persecution at the hands of state
officials.”3 The declaration, however, does not show
that any donor has declined, or would decline, to
support the Foundation as a result of this worry. No
evidence supports the district court’s conclusion that
donors have expressed “their unwillingness to continue to participate if such limited disclosure [to the
Attorney General] is made.”
Thomas More Law Center’s evidence similarly fails
to show its donors have been or would be chilled from
contributing by the Attorney General’s mere collection
of Schedule B forms. The declaration from its president and chief counsel states only that donors “would
be deterred” from donating if exposed to the type of
harassment the Law Center incurs for its public activities, but says nothing to suggest donors have been or
would be deterred by confidential disclosure of their
identifying information to the Attorney General.
Second, the plaintiffs have not shown a “reasonable
probability” of harassment at the hands of the state
if the Attorney General is permitted to collect their
Schedule B forms for nonpublic use. See Brown v.
3

Although much of the plaintiffs’ evidence includes hearsay,
the district court did not abuse its discretion by considering it at
the preliminary injunction stage. See Herb Reed Enters., LLC v.
Florida Entm’t Mgmt., Inc., 736 F.3d 1239, 1250 n.5 (9th Cir.
2013) (“Due to the urgency of obtaining a preliminary injunction
at a point when there has been limited factual development, the
rules of evidence do not apply strictly to preliminary injunction
proceedings.”).

64a
Socialist Workers ’74 Campaign Comm. (Ohio), 459
U.S. 87, 99-101 (1982) (detailing “a past history of
government harassment,” including “massive” FBI
surveillance and a concerted effort to interfere with an
organization’s political activities); Ctr. for Competitive
Politics, 784 F.3d at 1316. Americans for Prosperity
Foundation has offered no evidence that it has been
subjected to government harassment or hostility. It
relies on an October 24, 2013 press release from the
California Fair Political Practices Commission that,
in announcing a settlement with two nonprofit organizations accused of violating campaign finance laws,
inaccurately characterized those organizations as part
of Charles and David Koch’s network of “dark money”
nonprofit corporations. This error was later corrected,
but Americans for Prosperity Foundation argues that
because Charles and David Koch are closely associated
with the Foundation, the release demonstrates the type
of past government harassment sufficient to support
its challenge. This single, isolated incident, directed
not against the Foundation but against prominent
public figures, falls far short of “suggest[ing] that
[government] hostility toward” Americans for Prosperity
Foundation “is ingrained and likely to continue.”
Brown, 459 U.S. at 101.
Similarly, Thomas More Law Center has produced
no evidence of state harassment or targeting beyond
its bare and unsubstantiated allegation that enforcement of the Schedule B disclosure requirement is
politically motivated. The district court concluded
the Center raised serious questions on the merits by
“pos[ing] questions . . . whether the groups [the Attorney
General] is demanding donor information from are
being particularly selected for such inquiries.” But
here, as in Center for Competitive Politics, there is “no
indication in the record that the Attorney General’s

65a
disclosure requirement was adopted or is enforced in
order to harass members of the registry in general or
[the plaintiffs] in particular.” Ctr. for Competitive
Politics, 784 F.3d at 1313.
Nor have the plaintiffs shown a “reasonable probability,” id. at 1317, of harassment by members of the
public due to disclosure to the Attorney General for
nonpublic use. The plaintiffs’ allegations that technical failures or cybersecurity breaches are likely to
lead to inadvertent public disclosure of their Schedule
B forms are too speculative to support issuance of an
injunction.
The district court also erred in concluding an injunction was warranted because there were serious questions
about the Attorney General’s right to collect Schedule
B information as to non-California donors. The district
court’s conclusion that the Attorney General’s demand
for national donor information may be more intrusive
than necessary does not raise serious questions because
“exacting scrutiny is not a least-restrictive-means
test.” Chula Vista Citizens for Jobs & Fair Competition
v. Norris, 782 F.3d 520, 541 (9th Cir. 2015) (en banc).
The government “need only ensure that its means are
substantially related” to a sufficiently important interest. Human Life of Wash., Inc. v. Brumsickle, 624 F.3d
990, 1013 (9th Cir. 2010); see also Ctr. for Competitive
Politics, 784 F.3d at 1312.
In sum, the plaintiffs have failed to demonstrate any
actual burden on First Amendment rights flowing
from the Attorney General’s demand for and collection
of their Schedule B forms for nonpublic use. As we
have held, compelled nonpublic disclosure of Schedule
B forms to the Attorney General is not itself First
Amendment injury. See Ctr. for Competitive Politics,
784 F.3d at 1314. Without showing actual harm, the

66a
plaintiffs cannot enjoin the Attorney General from
enforcing the disclosure requirement.4 See id.
B. The District Court Did Not Abuse its Discretion
by Enjoining Public Disclosure of the Plaintiffs’
Schedule B Forms.
The plaintiffs have raised serious questions, however,
as to whether Schedule B forms collected by the state
could be available for public inspection under California law, notwithstanding the Attorney General’s good
faith policy to the contrary. We are not convinced the
evidence offered by either plaintiff sufficiently establishes that such public disclosure would result in First
Amendment harm. Nevertheless, under our narrow
and deferential review at this stage in the proceedings,
and given the Attorney General’s own position that
Schedule B forms should not be publicly disclosed, we
need not hold that the district court abused its
discretion to the extent it preliminarily enjoined public
disclosure pending trial.
This court’s earlier dictum that “it appears doubtful”
the Attorney General would be compelled to make
Schedule B information publicly available focused on
the California Public Records Act (CPRA). See Ctr.
for Competitive Politics, 784 F.3d at 1316 n.9. CPRA
allows the public to request certain records except
those, as relevant here, “the disclosure of which is
exempted or prohibited pursuant to federal or state
4

Even had the plaintiffs shown some First Amendment harm
from the disclosure requirement, they would not necessarily have
raised serious questions entitling them to an injunction. Under
exacting scrutiny, they would have to demonstrate serious questions as to whether the state’s “compelling interest” in enforcing
the law reflected the “actual burden” on their First Amendment
rights. Ctr. for Competitive Politics, 784 F.3d at 1312, 1314.

67a
law.” See Cal. Gov’t Code § 6254(k). The Attorney
General argues that because 26 U.S.C. § 6103 and
26 U.S.C. § 6104 prevent the IRS from disclosing
Schedule B forms to the public, she too is prohibited
from disclosing Schedule B forms “pursuant to federal
. . . law.” But § 6103 prevents disclosure of return
information filed directly with the IRS; it does not
prevent state officials from publicly disclosing return
information collected by the state directly from taxpayers. See Stokwitz v. United States, 831 F.2d 893,
894 (9th Cir. 1987). The same is likely true of § 6104.
See Ctr. for Competitive Politics, 784 F.3d at 1319.
It is therefore unclear whether the Attorney General
could avoid disclosing Schedule B forms under Government Code § 6254(k) based on § 6103 or § 6104.
Even if the Attorney General is not required to
publicly disclose Schedule B forms under CPRA, Center
for Competitive Politics did not address the independent public inspection requirement under the Charitable
Purposes Act, which provides that filings in the
Registry of Charitable Trusts “shall be open to public
inspection” subject to “reasonable rules and regulations adopted by the Attorney General.” Cal. Gov’t
Code § 12590 (emphasis added). Although the Attorney
General has proposed a regulation limiting public
inspection of Schedule B forms, no such rule or regulation is currently in force. The Charitable Purposes Act
might require public inspection under these circumstances.
The plaintiffs therefore have raised serious questions as to whether the Attorney General’s current
policy actually prevents public disclosure. Because
the Attorney General agrees with the plaintiffs that
Schedule B information should not be publicly disclosed, and because she is in the process of promulgating

68a
a regulation prohibiting such public disclosure, a preliminary injunction prohibiting public disclosure of
donor information promotes, rather than undermines,
the state’s policy. It serves the interests of the state by
allowing it to resist efforts to compel public disclosure
pending formal adoption of a regulation to accomplish
the plaintiffs’ and the state’s shared objective of preventing disclosure to the public. As a preliminary
injunction of this nature would further the state’s public
policy as well as allay the concerns of the plaintiffs,
there is no harm in allowing that aspect of the injunction that serves to prevent public disclosure to remain
in effect on a temporary basis.
In the absence of harm to the state, the plaintiffs or
the public from a modified injunction, we decline to use
our appellate authority to hold that the district court
abused its discretion with respect to that part of the
injunction that helps enforce the state’s public policy.
III.
An injunction properly tailored to the plaintiffs’
concerns would address the risk of public disclosure by
enjoining the Attorney General and her agents from
making Schedule B information public, pending a
decision on the merits of the plaintiffs’ as-applied
challenges. The plaintiffs have not, however, shown
they are entitled to an injunction preventing the
Attorney General from demanding their Schedule B
forms, enforcing that demand, and using the forms to
enforce California law.
We therefore vacate the district court’s orders granting preliminary injunctions and instruct the district
court to enter new orders preliminarily enjoining the
Attorney General only from making Schedule B information public. The injunctions may not preclude the

69a
Attorney General from obtaining and using Schedule
B forms for enforcement purposes. The district court
shall permit the parties to address whether the injunctions should include exceptions to the bar against
public disclosure, such as those enumerated in the
Attorney General’s proposed regulation. Each party
shall bear its own costs on appeal.
ORDERS VACATED.
Counsel
Kamala D. Harris, Attorney General of California,
Douglas J. Woods, Senior Assistant Attorney General,
Sacramento, California; Tamar Pachter, Supervising
Deputy Attorney General, Emmanuelle S. Soichet,
Deputy Attorney General, Alexandra Robert Gordon
(argued), Deputy Attorney General, San Francisco,
California; Kim L. Nguyen (argued), Deputy Attorney
General, Los Angeles, California, for defendantappellant.
Harold A. Barza and Carolyn Homer Thomas, Quinn
Emanuel Urquhart & Sullivan, LLP, Los Angeles,
California; Derek L. Shaffer (argued), William A. Burck,
Jonathan G. Cooper and Crystal R. Nwaneri, Quinn
Emanuel Urquhart & Sullivan, LLP, Washington,
D.C., for plaintiff-appellee Americans for Prosperity
Foundation.
Louis H. Castoria (argued) and Sheila M. Pham,
Kaufman Dolowich & Voluck, LLP, San Francisco,
California, for plaintiff-appellee Thomas More Law
Center.

70a
APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
[Filed 2/23/2015]
————
Case No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
vs.
KAMALA HARRIS, in her Official Capacity as
Attorney General of California,
Defendant.
————
ORDER GRANTING MOTION FOR A
PRELIMINARY INJUNCTION
Plaintiff Americans for Prosperity Foundation (“Foundation”) has applied for a preliminary injunction order
to prevent Defendant Kamala Harris, in her Official
Capacity as Attorney General of California, from
demanding, or from taking any action to implement or
enforce her demand for, the names and addresses of
the Foundation’s donors, particularly as contained in
Schedule B to IRS Form 990.
The current request is almost identical to one made
in another case in this Circuit, Center for Competitive
Politics v. Harris, No. 14-15978 (9th Cir.) (hereinafter
referred to as the “CCP” case). The district court in
that case denied preliminary injunctive relief on the
basis that a prima facie showing of a First Amendment

71a
violation had not been attempted. CCP, 2014 WL
2002244, at *6 (E.D. Cal. May 14, 2014). However, on
January 6, 2015, the Ninth Circuit effectively reversed
the district court’s denial by issuing an injunction
pending appeal in CCP. That injunction prohibits the
Attorney General from taking “any action against the
Center for Competitive Politics for failure to file an unredacted IRS Form 990 Schedule B pending further
order of this court.” CCP, No. 14-5978, Dkt. 34 (9th
Cir. Jan. 6, 2015). The Ninth Circuit issued such
injunction following the Attorney General’s letter to
that plaintiff threatening to fine the Center’s employees and suspend its registration if it did not hand over
its Schedule B. An almost identical letter was sent to
Plaintiff in this case.
“A preliminary injunction should be issued upon a
clear showing of either (1) probable success on the merits
and possible irreparable injury or (2) sufficiently serious
questions going to the merits to make them fair ground
for litigation and a balance of hardships tipping decidedly toward the party requesting the preliminary
relief.” City of Angoon v. Marsh, 749 F.2d 1413, 1415
(9th Cir. 1984). “These are not really entirely separate
tests, but are merely extremes of a single continuum.
Id. (relying on Lopez v. Heckler, 725 F.2d 1489, 1498
(9th Cir. 1984)). Because the four factor test for evaluating a preliminary injunction pending appeal appears
to be identical to that for a preliminary injunction
and no prima facie showing is necessary, the Ninth
Circuit’s issuance of injunctive relief in the CCP case
is instructive. See Humane Soc’y of U.S. v. Gutierrez,
523 F. 3d 990, 991 (9th Cir. 2008) (“In deciding whether
to issue a stay pending appeal, the court considers ‘(1)
whether the stay applicant has made a strong showing
that he is likely to succeed on the merits; (2) whether
the applicant will be irreparably injured absent a stay;

72a
(3) whether issuance of the stay will substantially
injure the other parties interested in the proceeding;
and (4) where the public interest lies.’”).
Once any necessary prima facie showing is made,
the burden shifts and a defendant must demonstrate
the existence of both a “compelling” state interest
exists and “a substantial relationship between the information sought and [that] overriding and compelling
state interest.” Brown v. Socialist Workers ’74 Campaign
Comm. (Ohio), 459 U.S. 87, 92 (1982). Plaintiff has
raised serious questions going to the merits and
demonstrated that the balance of hardships sharply
favor Plaintiff.
Plaintiff has sufficiently questioned the nature of
Defendant’s interest, noting it pertains to national
donor information and that Defendant lacks express
statutory authority to access such information. Moreover,
even if such interest was compelling, Plaintiff has
offered numerous, less intrusive alternatives which
could satisfy Defendant’s oversight and law enforcement goals. “The fact that . . . alternatives ‘could
advance the Government's asserted interest in a
manner less intrusive to . . . First Amendment rights’
indicate[s] that [a] law [i]s ‘more extensive than
necessary.’” Thompson v. Western States Med. Ctr.,
533 U.S. 357, 357 (2002) (relying on Central Hudson
Gas & Electric Corp. v. Public Serv. Comm’n of New
York, 447 U.S. 557, 566 (1980)).
Finally, the balance of the hardships sharply favors
Plaintiff because Defendant has not suffered harm
from not possessing Plaintiff’s Schedule B for the last
decade. The hardship Plaintiff would face from disclosure, however, is far greater and likely irreparable.
When, as here, an ordinance infringes on First Amendment rights of those “seeking to express their views”

73a
the “balance of equities and the public interest . . . tip
sharply in favor of enjoining the ordinance.” Klein v.
City of San Clemente, 584 F.3d 1196, 1208 (9th Cir.
2009).
Accordingly, having considered the application and
supporting papers, and following a hearing on
February 17, 2015:
IT IS HEREBY ORDERED that the Attorney General
is preliminarily enjoined from demanding, and/or from
taking any action to implement or to enforce her
demand for, a copy of the Foundation’s Schedule B to
IRS Form 990 or any other document that would
disclose the names and addresses of the Foundation’s
donors, until this Court issues a final judgment.
IT IS SO ORDERED.
DATED: February 23, 2015
By /s/ Manuel L. Real
Hon. Manuel L. Real
United States District Judge

74a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed 3/29/2019]
————
No. 16-55727
D.C. No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellee,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of the State of California,
Defendant-Appellant.
————
No. 16-55786
D.C. No. 2:14-cv-09448-R-FFM
————
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official Capacity as Attorney
General of the State of California,
Defendant-Appellee.
————
No. 16-56855
D.C. No. 2:15-cv-03048-R-FFM
————

75a
THOMAS MORE LAW CENTER,
Plaintiff-Appellee,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of the State of California,
Defendant-Appellant.
————
No. 16-56902
D.C. No. 2:15-cv-03048-R-FFM
————
THOMAS MORE LAW CENTER,
Plaintiff-Appellant,
v.
XAVIER BECERRA, in his Official Capacity as
Attorney General of the State of California,
Defendant-Appellee.
————
Filed March 29, 2019
————
Before: Raymond C. Fisher, Richard A. Paez,
and Jacqueline H. Nguyen, Circuit Judges.
————
Order;
Dissent by Judge Ikuta;
Reply to Dissent by Judges Fisher, Paez, and Nguyen
————

76a
ORDER DENYING PETITIONS FOR
REHEARING EN BANC
————
SUMMARY*
Civil Rights
The panel denied petitions for rehearing en banc on
behalf of the court.
In its opinion, the panel held that California Attorney
General’s Service Form 990, Schedule B requirement,
which obligates charities to submit the information
they file each year with the Internal Revenue Service
pertaining to their largest contributors, survived exacting scrutiny as applied to the plaintiffs because it was
substantially related to an important state interest in
policing charitable fraud.
Dissenting from the denial of rehearing en banc,
Judge Ikuta, joined by Judges Callahan, Bea, Bennett
and R. Nelson, stated that the panel’s reversal of the
district court’s decision was based on appellate factfinding and was contrary to the reasoning and spirit of
decades of Supreme Court jurisprudence, which affords
substantial protections to persons whose associational
freedoms are threatened. Judge Ikuta wrote that under
the panel’s analysis, the government can put the First
Amendment associational rights of members and contributors at risk for a list of names it does not need, so
long as it promises to do better in the future to avoid
public disclosure of the names. Judge Ikuta wrote that
given the inability of governments to keep data secure,

*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

77a
the panel’s standard puts anyone with controversial
views at risk.
Responding to the dissent from the denial of rehearing en banc, Judge Fisher, Paez and Nguyen stated
that the panel’s decision to apply exacting scrutiny
was consistent with Supreme Court precedent, Ninth
Circuit precedent, and out-of-circuit precedent. The panel
noted that the two circuits that have addressed the
issue both have held that exacting, rather than strict
scrutiny apply and that the nonpublic Schedule B
reporting requirements satisfy the First Amendment
because they allow state and federal regulators to
protect the public from charitable fraud without subjecting major contributors to the threats, harassment
or reprisals that could flow from public disclosure.
ORDER
Judge Paez and Judge Nguyen have voted to deny
the petitions for rehearing en banc and Judge Fisher
has so recommended.
The full court was advised of the petitions for rehearing en banc. A judge requested a vote on whether to
rehear the matter en banc. The matter failed to receive
a majority of the votes of the nonrecused active judges
in favor of en banc consideration. Fed. R. App. P. 35.
The petitions for rehearing en banc (Nos. 16-55727
and 16-55786, filed September 25, 2018 - Dkt. 106;
and Nos. 16-56855 and 16-56902, filed September 26,
2018 - Dkt. 67) are DENIED.
IKUTA, Circuit Judge, with whom CALLAHAN, BEA,
BENNETT, and R. NELSON, Circuit Judges, join,
dissenting from denial of rehearing en banc:
Controversial groups often face threats, public hostility, and economic reprisals if the government compels

78a
the organization to disclose its membership and contributor lists. The Supreme Court has long recognized
this danger and held that such compelled disclosures
can violate the First Amendment right to association.
See, e.g., NAACP v. Alabama ex rel. Patterson, 357
U.S. 449, 462 (1958).
For this reason, the Supreme Court has given significant protection to individuals who may be victimized
by compelled disclosure of their affiliations. Where
government action subjects persons to harassment and
threats of bodily harm, economic reprisal, or “other
manifestations of public hostility,” NAACP v. Alabama,
357 U.S. at 462, the government must demonstrate a
compelling interest, id. at 463; Bates v. Little Rock, 361
U.S. 516, 524 (1960), there must be a substantial
relationship between the information sought and the
compelling state interest, Gibson v. Fla. Legislative
Investigation Comm., 372 U.S. 539, 546 (1963), and the
state regulation must “be narrowly drawn to prevent the
supposed evil,” Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293, 297 (1961) (internal quotation marks
omitted) (quoting Cantwell v. Connecticut, 310 U.S.
296, 307 (1940)).
This robust protection of First Amendment free
association rights was desperately needed here. In this
case, California demanded that organizations that
were highly controversial due to their conservative
positions disclose most of their donors, even though, as
the district court found, the state did not really need
this information to accomplish its goals. Although the
state is required to keep donor names private, the district court found that the state’s promise of confidentiality
was illusory; the state’s database was vulnerable to
hacking and scores of donor names were repeatedly
released to the public, even up to the week before

79a
trial. See Ams. for Prosperity Found. v. Harris, 182
F. Supp. 3d 1049, 1057 (C.D. Cal. 2016). Moreover, as
the district court found, supporters whose affiliation
had previously been disclosed experienced harassment
and abuse. See id. at 1055–56. Their names and
addresses, and even the addresses of their children’s
schools, were posted online along with threats of
violence. Some donors’ businesses were boycotted. In
one incident, a rally of the plaintiff’s supporters was
stormed by assailants wielding knives and box cutters,
who tore down the rally’s tent while the plaintiff’s
supporters struggled to avoid being trapped beneath
it. In light of the powerful evidence at trial, the district
court held the organizations and their donors were
entitled to First Amendment protection under the
principles of NAACP v. Alabama. See id. at 1055.
The panel’s reversal of the district court’s decision
was based on appellate factfinding and crucial legal
errors. First, the panel ignored the district court’s factfinding, holding against all evidence that the donors’
names would not be made public and that the donors
would not be harassed. See Ams. for Prosperity Found.
v. Becerra, 903 F.3d 1000, 1017, 1019 (9th Cir. 2018)
(“AFPF II”). Second, the panel declined to apply NAACP
v. Alabama, even though the facts squarely called for
it. See id. at 1008–09. Instead, the panel applied a
lower form of scrutiny adopted by the Supreme Court
for the unique electoral context. See Buckley v. Valeo,
424 U.S. 1, 64, 68 (1976). The panel’s approach will
ensure that individuals affiliated with controversial
organizations effectively have little or no protection
from compelled disclosure. We should have taken this
case en banc to correct this error and bring our case
law in line with Supreme Court jurisprudence.

80a
I
The Supreme Court has established a clear test
for cases like this one. While the Court has modified
the test to fit different contexts, it has not wavered
from the principle that the First Amendment affords
organizations and individuals substantial protection
when the government tries to force disclosure of ties
that could impact their freedom of association.
A
The Supreme Court decisions protecting against
forced disclosures that threaten individuals’ freedom
of association arose in a series of cases involving the
NAACP. See, e.g., NAACP v. Alabama, 357 U.S. 449;
Bates, 361 U.S. 516; Gremillion, 366 U.S. 293; Gibson,
372 U.S. 539. The Court considered numerous attempts
by states to compel disclosure of NAACP membership
information at a time when those members faced a wellknown risk of “economic reprisal, loss of employment,
threat of physical coercion, and other manifestations
of public hostility.” NAACP v. Alabama, 357 U.S. at
462; see also Gremillion, 366 U.S. at 295–96; Bates,
361 U.S. at 523–24.
In this broader context, the Court recognized that
“[i]t is hardly a novel perception that compelled disclosure of affiliation with groups engaged in advocacy
may constitute as effective a restraint on freedom
of association” as more direct restrictions on speech.
NAACP v. Alabama, 357 U.S. at 462. “[F]reedom of
association for the purpose of advancing ideas and
airing grievances is protected by the Due Process
Clause of the Fourteenth Amendment from invasion
by the States . . . not only against heavy-handed
frontal attack, but also from being stifled by more

81a
subtle governmental interference.” Bates, 361 U.S. at
523 (citations omitted).
Because state disclosure requirements can abridge
First Amendment associational rights, the Court held
such requirements were subject to heightened scrutiny.
Once a plaintiff carries the burden of showing that
a state-required disclosure may result “in reprisals
against and hostility to the members,” Gremillion, 366
U.S. at 296, the state has to show: (1) a sufficiently
compelling interest for requiring disclosure, see NAACP
v. Alabama, 357 U.S. at 462–63; (2) that the means
were substantially related to that interest, Gibson,
372 U.S. at 549; and (3) that the means were narrowly
tailored, Gremillion, 366 U.S. at 296. While the Supreme
Court has articulated this three-part test in various
ways, it has made clear that the test affords substantial protection to persons whose associational freedoms
are threatened.
B
The Court modified the NAACP v. Alabama test
for application in the electoral context. See Buckley,
424 U.S. at 64, 68. Buckley recognized the importance
of applying “[t]he strict test established by NAACP v.
Alabama . . . because compelled disclosure has the
potential for substantially infringing the exercise of
First Amendment rights,” but it adjusted the test
for government action that affects elections when the
plaintiffs could not establish that disclosure would
subject them to threats or harassment. Id. at 66. It
makes sense to adapt the NAACP v. Alabama test for
the electoral context, where the government’s interest
is uniquely important. Influence in elections may result
in influence in government decisionmaking and the
use of political power; therefore, the government’s
crucial interest in avoiding the potential for corruption

82a
and hidden leverage outweighs incidental infringement on First Amendment rights. Id. at 66–68, 71. The
interests served by disclosure outside the electoral
context, such as policing types of charitable fraud, pale
in comparison to the crucial importance of ensuring
our election system is free from corruption or its
appearance.
Given the unique electoral context, Buckley held
that, for the first prong, the governmental interest must
be “sufficiently important to outweigh the possibility
of infringement” of First Amendment rights; the government did not need to show a compelling government
interest. Id. at 66. For the second prong, it still held
there must be a “substantial relation between the
governmental interest and the information required to
be disclosed.” Id. at 64 (footnote and internal quotation
marks omitted) (quoting Gibson, 372 U.S. at 547).
As to the third prong of the test, Buckley fashioned
a per se rule: it deemed the disclosure requirement to
be “the least restrictive means of curbing the evils of
campaign ignorance and corruption that Congress
found to exist.” Id. at 68. Buckley based this conclusion
on its recognition that Congress always has a substantial interest in combating voter ignorance by providing
the electorate with information about the sources and
recipients of funds used in political campaigns in order
to deter actual corruption and avoid the appearance of
corruption, and in gathering data necessary to detect
violations of separate political contribution limits. Id.
at 66–68. Because, “in most applications,” disclosure is
“the least restrictive means of curbing the evils of campaign ignorance and corruption,” the narrow tailoring
prong of the NAACP v. Alabama test is satisfied. Id.
at 68.

83a
Recognizing the distinction between elections and
other justifications for disclosure, the Supreme Court
has applied Buckley’s test only in cases that involve
election-related disclosures, a context in which the
Supreme Court has already established that disclosure is the least restrictive means of reaching Congress’s
goals. See, e.g., Doe v. Reed, 561 U.S. 186, 196–97
(2010); Citizens United v. FEC, 558 U.S. 310, 369–70
(2010). These cases did not discuss whether disclosure
was narrowly tailored to address the government’s
concern; Buckley already held that it is. For example,
Doe v. Reed recognized the government’s interest in
“preserving the integrity of the electoral process” and
“promoting transparency and accountability in the
electoral process,” and thus there was no need to
discuss narrow tailoring. 561 U.S. at 197–98. The
Court likewise did not focus on the narrow tailoring
requirement in Citizens United, noting Buckley’s
holdings that “disclosure could be justified based on a
governmental interest in ‘provid[ing] the electorate
with information’ about the sources of election-related
spending,” and that “disclosure is a less restrictive alternative to more comprehensive regulations of speech.”
558 U.S. at 367, 369 (quoting Buckley, 424 U.S. at 66).
The Court’s limited application of the Buckley test,
confined to cases in the electoral context in which the
government’s aim is to serve goals like “transparency
and accountability,” has not displaced the stringent
standard set out in NAACP v. Alabama. Indeed, the
NAACP v. Alabama standard was likely not triggered
in the election cases, given that they did not involve
evidence that compelled disclosure would give rise to
public hostility to the plaintiff’s members or donors.
The Court has maintained NAACP v. Alabama’s standard outside of the electoral context, thus reasserting
the validity of that standard after Buckley. See, e.g.,

84a
In re Primus, 436 U.S. 412, 432 (1978) (holding that
where a state seeks to infringe upon a party’s First
Amendment freedom of association, the state must
justify that infringement with “a subordinating interest
which is compelling” and must use means that are
“closely drawn to avoid unnecessary abridgment of
associational freedoms”) (first quoting Bates, 361 U.S.
at 524; then quoting Buckley, 424 U.S. at 25); see also
Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984) (holding that infringement of the right to associate “may be
justified by regulations adopted to serve compelling
state interests, unrelated to the suppression of ideas,
that cannot be achieved through means significantly
less restrictive of associational freedoms”). Thus,
there is no doubt that the NAACP v. Alabama test—
requiring a compelling government interest, a substantial relation between the sought disclosure and
that interest, and narrow tailoring so the disclosure
does not infringe on First Amendment rights more
than necessary—remains applicable for cases arising
outside of the electoral context, where a plaintiff needs
its crucial protection against forced disclosures that
threaten critical associational rights.
C
Until recently, the circuit courts, including the
Ninth Circuit, have agreed that NAACP v. Alabama is
still good law, and they have applied it when considering state action that has the effect of burdening
individuals’ First Amendment rights by requiring
disclosure of associational information.1 In Familias
1

See, e.g., United States v. Comley, 890 F.2d 539, 543–44 (1st
Cir. 1989) (“Once [a prima facie showing of First Amendment
infringement] is made, the burden then shifts to the government
to show both a compelling need for the material sought and that
there is no significantly less restrictive alternative for obtaining

85a
Unidas v. Briscoe, for instance, the Fifth Circuit
struck down a Texas statute that empowered a county
judge to compel public disclosure of the names of
organizations that interfered with the operation of
public schools. 619 F.2d 391, 394 (5th Cir. 1980). In
that case, the judge had compelled disclosure of the
names of Mexican-American students and adults who
were members of a group seeking reform of the Hondo
public schools. The Fifth Circuit recognized that the
Supreme Court had upheld compulsory disclosures of
membership lists only when the underlying state
interest is compelling and legitimate, and the
disclosure requirement is “drawn with sufficiently
narrow specificity to avoid impinging more broadly
upon First Amendment liberties than is absolutely
necessary.” Id. at 399 (citing Buckley, 424 U.S. at 68).

the information.”); Wilson v. Stocker, 819 F.2d 943, 949 (10th Cir.
1987) (“The law must be substantially related to a compelling governmental interest, and must be narrowly drawn so as to be the
least restrictive means of protecting that interest.”); Humphreys,
Hutcheson, & Moseley v. Donovan, 755 F.2d 1211, 1222 (6th Cir.
1985) (upholding the challenged provisions in part because they
“are carefully tailored so that first amendment freedoms are not
needlessly curtailed”); Clark v. Library of Cong., 750 F.2d 89, 94
(D.C. Cir. 1984) (“[T]he government must demonstrate that the
means chosen to further its compelling interest are those least
restrictive of freedom of belief and association.”); Master Printers
of Am. v. Donovan, 751 F.2d 700, 705 (4th Cir. 1984) (“To survive
the ‘exacting scrutiny’ required by the Supreme Court, . . . the
government must show that the disclosure and reporting requirements are justified by a compelling government interest, and that
the legislation is narrowly tailored to serve that interest.”); see
also Perry v. Schwarzenegger, 591 F.3d 1147, 1159–61 (9th Cir.
2010); Dole v. Serv. Emps. Union, AFL-CIO, Local 280, 950 F.2d
1456, 1461 (9th Cir. 1991); Brock v. Local 375, Plumbers Int’l
Union of Am., 860 F.2d 346, 350 (9th Cir. 1988).

86a
Our cases have likewise remained faithful to NAACP
v. Alabama. For example, Brock v. Local 375, Plumbers
International Union of America recognized that once a
plaintiff shows that disclosure will result in “harassment, membership withdrawal, or discouragement of
new members,” or otherwise chill associational rights,
heightened scrutiny applies: the government must
demonstrate that the information sought “is rationally
related to a compelling governmental interest,” and
that the disclosure requirement is the least restrictive
means of obtaining that information. 860 F.2d 346,
350 (9th Cir. 1988) (citing Buckley, 424 U.S. at 64, 68;
Shelton v. Tucker, 364 U.S. 479, 488 (1960)). We
reaffirmed this approach in Perry v. Schwarzenegger,
where we emphasized that “[i]nfringements on [the
freedom to associate] may be justified by regulations
adopted to serve compelling state interests, unrelated
to the suppression of ideas, that cannot be achieved
through means significantly less restrictive of associational freedoms.” 591 F.3d 1147, 1159 (9th Cir. 2010)
(quoting Roberts, 468 U.S. at 623).2
In recent years, a few outliers have emerged and
broken from the uniform application of NAACP v.
Alabama when considering challenges to governmentrequired disclosure. We applied Buckley, rather than
NAACP v. Alabama, in two cases involving state
disclosure requirements outside the electoral context.
See Ams. for Prosperity Found. v. Harris, 809 F.3d 536,
538–39 (9th Cir. 2015) (per curiam) (“AFPF I”); Ctr. for
Competitive Politics v. Harris, 784 F.3d 1307, 1312–14
(9th Cir. 2015) (“CCP”). The Second Circuit has
2

Although these cases cite both to Buckley and to cases setting
out the NAACP v. Alabama test, see, e.g., Brock, 860 F.2d at 350,
they remain faithful to the principles of NAACP v. Alabama by
applying its heightened scrutiny and requiring narrow tailoring.

87a
also recently applied Buckley’s test—without a narrow
tailoring requirement—to a challenge to a government
disclosure requirement outside of the electoral context.
See Citizens United v. Schneiderman, 882 F.3d 374,
382, 385 (2d Cir. 2018). But none of these outliers
offered a convincing rationale for extending Buckley
outside of the electoral context. Equally important,
none addressed a situation in which a plaintiff showed
a reasonable probability of threats or hostility in the
event of disclosure, see Schneiderman, 882 F.3d at 385;
AFPF I, 809 F.3d at 541; CCP, 784 F.3d at 1314, which
is a threshold requirement for the application of NAACP
v. Alabama’s test. Accordingly, these cases do not bear
on whether NAACP v. Alabama’s standard must be
applied when a plaintiff does make such a showing,
regardless whether the application of Buckley is appropriate outside of the electoral context.
II
The facts of this case make clear that the Foundation is entitled to First Amendment protection under
NAACP v. Alabama and that California’s disclosure
requirement cannot be constitutionally applied to the
Foundation.
The Americans for Prosperity Foundation is a
conservative organization dedicated to “educating and
training citizens to be advocates for freedom.”3 It
develops educational programs to “share knowledge
and tools that encourage participants to apply the
principles of a free and open society in their daily
lives.”4

3

Ams. for Prosperity Found., http://americansforprosperityfou
ndation.org (last visited March 11, 2019).
4

Id.

88a
People publicly affiliated with the Foundation have
often faced harassment, hostility, and violence, as
shown by the evidence adduced at trial in this case.
For example, supporters have received threatening
messages and packages, had their addresses and
children’s school addresses posted online in an effort
to intimidate them, and received death threats. One
blogger posted a message stating he contemplated
assassinating a Foundation supporter: “I’m a trained
killer, you know, courtesy of U.S. taxpayers, and it
would be easy as pie to . . . take [him] out.” In the same
vein, a consultant working for the Foundation posted
threats of physical violence against Foundation employees. On a different blog site, a person claiming that he
worked at the Foundation posted that he was “inside
the belly of the beast,” and could “easily walk in and
slit [the Foundation CEO’s] throat.”
Foundation supporters have also been subjected to
violence, not just threats. For instance, at a rally in
Michigan, several hundred protestors wielding knives
and box cutters surrounded the Foundation’s tent
and sawed at the tent ropes until they were severed.
Foundation supporters were caught under the tent
when it collapsed, including elderly supporters who
could not get out on their own. At least one supporter
was punched by the protestors.
Opponents of the Foundation have also targeted its
supporters with economic reprisal. For instance, after
an article published by Mother Jones magazine in
February 2013 revealed donor information, protesters
called for boycotts of the businesses run by six
individuals mentioned in the article. Similarly, Art
Pope, who served on the Foundation’s board of
directors, suffered boycotts of his business.

89a
Given this history of harassment, the Foundation
was reluctant to make information about its donors
public. This concern became acute in 2010, when
California suddenly decided to enforce a long dormant
disclosure law.
California law requires any entity that wishes to
register as a charitable organization to submit a
multitude of tax forms to the state. See Cal. Code Regs.
tit. 11, § 301. Among other requirements, California
requires charitable organizations to file a confidential
federal tax form, Schedule B to IRS Form 990, which
contains the names and addresses of any donors who
meet certain criteria. See id.; 26 U.S.C. § 6033(b); 26
C.F.R. § 1.6033-2(a)(2)(iii)(a). Under its regulations,
California may release Schedule B only in response to
a search warrant or as needed in an enforcement
proceeding brought against a charity by the Attorney
General. See Cal. Code Regs. tit. 11, § 310(b). But as
discussed below, the state’s confidential information is
so vulnerable to hacks and inadvertent disclosure that
Schedule B information is effectively available for the
taking.
In light of the Foundation’s confidentiality concerns,
from 2001 to 2010, it registered as a charity in California
without submitting the donor information its Schedule
B contains.5 Over that entire period, California did
not request the Foundation’s Schedule B or list the
Foundation’s registration as a charity as deficient in
any way. See AFPF II, 903 F.3d at 1006–07.

5

The Foundation’s Schedule B includes the names and
addresses of any person who donated more than 2 percent of
the Foundation’s annual contributions. See 26 C.F.R. § 1.60332(a)(2)(iii)(a).

90a
In 2010, California suddenly increased its efforts
to collect charities’ Schedule Bs, and in 2013 the
state notified the Foundation that its registration
was deficient because it had not submitted Schedule B
donor information. See id. at 1006. In an effort to
protect its donors from likely threats and hostility as
backlash for their affiliation with the Foundation, it
filed suit seeking to enjoin California from enforcing
this requirement against it.
After a multi-day trial, the district court ruled that
the First Amendment protects the Foundation from
forced disclosure of its donor information,6 and it
entered a permanent injunction against California’s
enforcement of the Schedule B requirement as applied
to the Foundation. See Ams. for Prosperity Found., 182
F. Supp. 3d at 1059.
III
The panel reversed, holding that California’s
interest in Schedule B information was “sufficiently
important” and that there was a substantial relation
between the requirement and the state’s interest.
AFPF II, 903 F.3d at 1008 (quoting Doe, 561 U.S. at
196). In reaching this conclusion, the panel made
crucial factual and legal errors.
The panel’s legal error is evident. Although this
case arose outside of the election context, and the
6

The district court initially entered a preliminary injunction
against California’s enforcement against the Foundation. See
AFPF II, 903 F.3d at 1006. A panel of our court reversed in part
on the ground that the Foundation had not shown evidence of
past hostility toward Foundation donors or a reasonable
probability of future hostility. See AFPF I, 809 F.3d at 539–41.
On remand, the Foundation presented evidence of both. See Ams.
for Prosperity Found., 182 F. Supp. 3d 1049.

91a
Foundation established that its members might be
exposed to harassment and abuse if their identities
were made public, the panel mistakenly applied Buckley’s
“exacting scrutiny” and rejected the Foundation’s
argument that a narrow tailoring requirement applied
in this context. See AFPF II, 903 F.3d at 1008–09.
The panel’s factual errors are equally egregious. As
a general rule, appellate courts may not override the
facts found by a district court unless they are clearly
erroneous. In our circuit, “we will affirm a district
court’s factual finding unless that finding is illogical,
implausible, or without support in inferences that may
be drawn from the record.” United States v. Hinkson,
585 F.3d 1247, 1263 (9th Cir. 2009) (en banc). Here,
the panel not only failed to defer to the district court,
but reached factual conclusions that were unsupported by the record.
First, the district court held that disclosure of the
Schedule B information to the state could result in the
names of the Foundation’s donors being released to the
public. See Ams. for Prosperity Found., 182 F. Supp.
3d at 1057. The district court squarely rejected the
state’s argument that no donor information disclosed
to the state would be publicly disclosed because it
would remain confidential on the state’s servers. See
id. The evidence produced at trial in this case provided
overwhelming support for the court’s findings. There
was ample evidence of human error in the operation of
the state’s system. State employees were shown to
have an established history of disclosing confidential
information inadvertently, usually by incorrectly uploading confidential documents to the state website such
that they were publicly posted. Such mistakes resulted
in the public posting of around 1,800 confidential
Schedule Bs, left clickable for anyone who stumbled

92a
upon them. AFPF II, 903 F.3d at 1018. And the public
did find them. For instance, in 2012 Planned Parenthood become aware that a complete Schedule B for
Planned Parenthood Affiliates of California, Inc., for
the 2009 fiscal year was publicly posted; the document
included the names and addresses of hundreds of
donors.
There was also substantial evidence that California’s
computerized registry of charitable corporations was
shown to be an open door for hackers. In preparation
for trial, the plaintiff asked its expert to test the
security of the registry. He was readily able to access
every confidential document in the registry—more
than 350,000 confidential documents—merely by changing a single digit at the end of the website’s URL. See
AFPF II, 903 F.3d at 1018. When the plaintiff alerted
California to this vulnerability, its experts tried to fix
this hole in its system. Yet when the expert used the
exact same method the week before trial to test the
registry, he was able to find 40 more Schedule Bs that
should have been confidential.
In rejecting the district court’s factual conclusions,
the panel violated our standard of review as well as
common sense. The panel concluded that in the future,
all Schedule B information would be kept confidential.
It reasoned that because the state technician was
able to fix the security vulnerability exposed by the
Foundation’s expert, “[t]here is no evidence to suggest
that this type of error is likely to recur.” Id. at 1018.
The panel did not address the fact that even a week
before trial, the state could not prevent a second
disclosure based on the same security vulnerability.
Further, the panel claimed that despite the state’s
long history of inadvertent disclosure of Schedule B
information through human error, the state’s new

93a
efforts to correct human errors through additional
“procedural quality checks” and “a system of textsearching batch uploads before they are scanned to the
Registry site to ensure none contains Schedule B
keywords” would obviate future disclosures. Id. But no
evidence supports this claim, and it is contrary to any
real-world experience.
Second, the district court found that the state did
not have a strong interest in obtaining the Schedule B
submissions to further its enforcement goals. Instead,
it held that California’s up-front Schedule B submission requirement “demonstrably played no role in
advancing the Attorney General’s law enforcement
goals for the past ten years.” Ams. for Prosperity
Found., 182 F. Supp. 3d at 1055. Indeed, California
could not point to “even a single, concrete instance in
which pre-investigation collection of a Schedule B did
anything to advance the Attorney General’s investigative, regulatory or enforcement efforts.” Id. The panel
rejected this well-supported finding based solely on
the conclusory, blanket assertions made by state witnesses that up-front disclosure of donor names increases
“investigative efficiency.” AFPF II, 903 F.3d at 1010.
Yet the Supreme Court has made clear that a state’s
“mere assertion” that there was a substantial relationship between the disclosure requirement and the state’s
goals is not enough to establish such a relationship.
See Bates, 361 U.S. at 525; Gibson, 372 U.S. at 554–
55. And the record does not otherwise support the
panel’s conclusion.
Finally, the district court found ample evidence
that Foundation supporters would likely be subject
to threats or hostility should their affiliations be
disclosed. See Ams. for Prosperity Found., 182 F. Supp.
3d at 1055–56. But based on its unsupported assump-

94a
tion that public disclosure would not occur, the panel
felt justified in disregarding this well-supported conclusion. AFPF II, 903 F.3d at 1017.
Given the panel’s erroneous factual determinations
that there would be no public disclosure of Foundation
donors and that California’s disclosure requirement
was substantially related to its enforcement goals, and
its mistaken legal decision that no narrow tailoring
was required, it is not surprising that the panel easily
arrived at the conclusion that the donors were not
entitled to any protection of their First Amendment
rights.
IV
But contrary to the panel, the full protection of
NAACP v. Alabama was warranted in this case,
because the Foundation’s donors may be exposed to
harassment and abuse if their identities are disclosed,
and the special considerations regarding governmentrequired disclosures for elections are not present. See,
e.g., Primus, 436 U.S. at 432; Brock, 860 F.2d at 350.
Had the panel properly recognized NAACP v. Alabama’s
applicability, it would have considered (1) whether
California presented a compelling interest that is
(2) substantially related to the disclosure requirement,
and (3) whether the requirement was narrowly tailored to the articulated interest. See 357 U.S. at 462–
63; Gibson, 372 U.S. at 546; Gremillion, 366 U.S. at
297.
Applying the correct test, it is clear that California
failed to show that its Schedule B disclosure requirement is “substantially related” to any interest in policing
charitable fraud. A state’s “mere assertion” that there
was a substantial relationship between the disclosure
requirement and the state’s goals is not enough to

95a
establish such a relationship, see Bates, 361 U.S. at
525; Gibson, 372 U.S. at 554–55, and the district
court’s well-supported factual findings establish that
the Schedule Bs are rarely used to detect fraud or to
enhance enforcement efforts.
Nor is California’s disclosure requirement narrowly
tailored; rather, the means “broadly stifle fundamental personal liberties” and “the end can be more narrowly
achieved.” Gremillion, 366 U.S. at 296 (quoting Shelton,
364 U.S. at 488). The state requires blanket Schedule
B disclosure from every registered charity when few
are ever investigated, and less restrictive and more
tailored means for the Attorney General to obtain the
desired information are readily available. In particular,
the Registry can obtain an organization’s Schedule B
through a subpoena or a request in an audit letter once
an investigation is underway without any harm to the
government’s interest in policing charitable fraud.
Moreover, the state failed to provide any example of
an investigation obscured by a charity’s evasive activity
after receipt of an audit letter or subpoena requesting
a Schedule B, although state witnesses made assertions to that effect. See AFPF II, 903 F.3d at 1010–11.
The panel’s erroneous application of Buckley led it to
ignore this requirement completely, and it demanded
no explanation from California for why such a sweeping disclosure requirement—imposed before the state
has any reason to investigate a charity—is justified
given equally effective, less restrictive means exist.
See id. at 1011–12.
Accordingly, under the proper application of the test
to the facts found by the district court, the Foundation
was entitled to First Amendment protection of its
donor lists. Because California failed to show a substantial relation between its articulated interest and

96a
its disclosure requirement, and because it failed to
show that the requirement was narrowly tailored,
California’s Schedule B disclosure requirement fails
the test provided by NAACP v. Alabama, and it should
have been struck down as applied to the Foundation.
The panel’s contrary conclusion eviscerates the
First Amendment protections long-established by the
Supreme Court. By applying Buckley where NAACP v.
Alabama’s higher standard should have been triggered, the panel lowered the bar governments must
surmount to force disclosure of sensitive associational
ties. Under the panel’s standard, a state’s self-serving
assertions about efficient law enforcement are enough
to justify disclosures notwithstanding the threats,
hostility, and economic reprisals against socially disfavored groups that may ensue. And by rejecting the
district court’s factual findings that disclosed donor
lists will become public and expose individuals to real
threats of harm, the panel imposes a next-to-impossible
evidentiary burden on plaintiffs seeking protection of
their associational rights. Indeed, if the Foundation’s
evidence is not enough to show that California cannot
adequately secure its information, no plaintiff will
be able to overcome a state’s empty assurances. “The
possibility of prevailing in an as-applied challenge
provides adequate protection for First Amendment
rights only if . . . the showing necessary to obtain the
exemption is not overly burdensome.” Doe, 561 U.S. at
203 (Alito, J., concurring).
V
In short, the panel’s conclusion is contrary to the
reasoning and spirit of decades of Supreme Court jurisprudence. Under the panel’s analysis, the government
can put the First Amendment associational rights of
members and contributors at risk for a list of names it

97a
does not need, so long as it promises to do better in the
future to avoid public disclosure of the names. Given
the inability of governments to keep data secure, this
standard puts anyone with controversial views at risk.
We should have reheard this case en banc to reaffirm
the vitality of NAACP v. Alabama’s protective doctrine, and to clarify that Buckley’s watered-down
standard has no place outside of the electoral context.
The First Amendment freedom to associate is vital
to a functioning civil society. For groups with “dissident
beliefs,” it is fragile. The Supreme Court has recognized this time and time again, but the panel decision
strips these groups of First Amendment protection.
I dissent from our decision not to correct this error.

98a
FISHER, PAEZ and NGUYEN, Circuit Judges,
responding to the dissent from the denial of rehearing
en banc:
The State of California, like the federal government,
requires tax-exempt § 501(c)(3) organizations to file
annual returns with regulators charged with protecting the public against charitable fraud. Among other
things, these organizations are required to report the
names and addresses of their largest contributors on
IRS Form 990, Schedule B. The information is provided to regulators, who use it to prevent charitable
fraud, but it is not made public. Both circuits to consider the question have concluded that First Amendment
challenges to these requirements are subject to exacting, rather than strict, scrutiny, and both circuits have
held that these requirements satisfy exacting scrutiny.
See Ams. for Prosperity Found. v. Becerra (AFPF II),
903 F.3d 1000 (9th Cir. 2018); Citizens United v.
Schneiderman, 882 F.3d 374 (2d Cir. 2018); Ams. for
Prosperity Found. v. Harris (AFPF I), 809 F.3d 536
(9th Cir. 2015); Ctr. for Competitive Politics v. Harris,
784 F.3d 1307 (9th Cir.), cert. denied, 136 S. Ct. 480
(2015). As these courts have recognized, requiring
the nonpublic disclosure of Schedule B information
comports with the freedom of association protected by
the First Amendment because it allows state and
federal regulators to protect the public from fraud
without exposing contributors to the threats, harassment or reprisals that might follow public disclosure.
I
Organizations operated exclusively for religious,
charitable, scientific or educational purposes are eligible for an exemption from federal and state taxes
under § 501(c)(3) of the Internal Revenue Code and
§ 23701 of the California Revenue & Tax Code.

99a
Organizations avail themselves of this status to avoid
taxes and collect tax-deductible contributions.
Because this favored tax treatment presents opportunities for self-dealing, fraud and abuse, organizations
availing themselves of § 501(c)(3) status are subject to
federal and state oversight. Congress has required every
organization exempt from taxation under § 503(c)(3) to
file an annual information return (Form 990 series)
with the Internal Revenue Service, setting forth detailed
information on its income, expenditures, assets and
liabilities, including, as relevant here, “the total of the
contributions and gifts received by it during the year,
and the names and addresses of all substantial contributors.” 26 U.S.C. § 6033(b)(5). Organizations such
as plaintiffs Americans for Prosperity Foundation and
Thomas More Law Center are required to report the
name and address of any person who contributed the
greater of $5,000 or 2 percent of the organization’s
total contributions for the year. See 26 C.F.R. § 1.60332(a)(2)(iii)(a). An organization with $10 million in
annual revenue, for example, must report contributors
who have given in excess of $200,000 for the year.
Between 2010 and 2015, the Thomas More Law Center
was required to report no more than seven contributors;
Americans for Prosperity Foundation was required to
report no more than 10 contributors – those contributing
over $250,000. Organizations report this information
on IRS Form 990, Schedule B.
This information is reported not only to the IRS
but also to state regulators. California’s Supervision
of Trustees and Charitable Trusts Act requires the
Attorney General to maintain a registry of charitable
organizations and authorizes the Attorney General to
obtain “whatever information, copies of instruments,
reports, and records are needed” for the registry’s

100a
“establishment and maintenance.” Cal. Gov‘t Code
§ 12584. To solicit tax-deductible contributions from
California residents, an organization must maintain
membership in the registry, see id. § 12585, and as one
condition of registry membership, charities must submit
a complete copy of the IRS Form 990 they already file
with the IRS, including Schedule B, see Cal. Code
Regs. tit. 11, § 301.
This contributor information is not made public. See
26 U.S.C. § 6104(d)(1)(A)(i), (3)(A); Cal. Gov‘t Code
§ 12590; Cal. Code Regs. tit. 11, § 310. The California
Attorney General keeps Schedule Bs in a separate file
from other submissions to the registry and excludes
them from public inspection on the registry website.
See AFPF II, 903 F.3d at 1005. Only information that
does not identify a contributor is available for public
inspection.
II
Some § 501(c)(3) organizations object to the Schedule B reporting requirement. They argue that by submitting their Schedule B information to regulators,
they expose their major contributors to threats, harassment and reprisals – from those regulators and from
the public – which in turn discourages contributions.
They argue, therefore, that this requirement violates
the freedom of association protected by the First
Amendment.
The two federal appellate courts to have addressed
the issue, ours and the Second Circuit, have rejected
these claims. See AFPF II, 903 F.3d 1000; Schneiderman,
882 F.3d 374; AFPF I, 809 F.3d 536; Ctr. for Competitive Politics, 784 F.3d 1307. These courts have agreed
that exacting rather than strict scrutiny applies, see
AFPF II, 903 F.3d at 1008; Schneiderman, 882 F.3d at

101a
381–82; AFPF I, 809 F.3d at 541; Ctr. for Competitive
Politics, 784 F.3d at 1312, and that the Schedule B
requirement survives exacting scrutiny, because the
requirement serves an important governmental interest
in preventing charitable fraud without imposing a substantial burden on the exercise of First Amendment
rights.
The dissent from the denial of rehearing en banc
challenges these decisions, arguing that a form of
strict scrutiny applies and that California’s Schedule
B requirement is unconstitutional. In our view, the
dissent’s arguments are not well taken.
III
The bulk of the dissent is devoted to the argument
that we erred by applying exacting scrutiny. According
to the dissent, First Amendment challenges to disclosure requirements are subject to two different tests:
1. In the electoral context, “exacting scrutiny” applies. This “standard requires a
substantial relation between the disclosure
requirement and a sufficiently important
governmental interest. To withstand this
scrutiny, the strength of the governmental
interest must reflect the seriousness of the
actual burden on First Amendment rights.”
Doe v. Reed, 561 U.S. 186, 196 (2010)
(citations and internal quotation marks
omitted).
2. Outside the electoral context, “heightened
scrutiny” applies. This standard requires
(1) a “compelling interest,” (2) “a substantial relationship between the information
sought and the compelling state interest”
and (3) narrow tailoring. Dissent at 5. The

102a
dissent refers to this strict-scrutiny-like
test as “heightened scrutiny” or the
“NAACP v. Alabama test.”
This case does not arise in the electoral context.
Hence, according to the dissent, we should have
applied the dissent’s proposed “heightened scrutiny”
test rather than exacting scrutiny. Had we done so, the
dissent says, we would have invalidated California’s
Schedule B requirement.
We respectfully disagree with the dissent’s contention that First Amendment challenges to disclosure
requirements are subject to two different tests. In our
view, there is only a single test – exacting scrutiny –
that applies both within and without the electoral
context. This test originated in NAACP v. Alabama,
357 U.S. 449 (1958), and the other Civil Rights Era
cases – Bates v. City of Little Rock, 361 U.S. 516 (1960),
Shelton v. Tucker, 364 U.S. 479 (1960), Louisiana ex
rel. Gremillion v. NAACP, 366 U.S. 293 (1961), Gibson
v. Fla. Legislative Investigation Comm., 372 U.S. 539
(1963) – and has been applied more recently in Buckley
v. Valeo, 424 U.S. 1 (1976), Doe and other cases arising
in the electoral context. As Doe explains, the exacting
scrutiny test:
requires a substantial relation between the
disclosure requirement and a sufficiently
important governmental interest. To withstand
this scrutiny, the strength of the governmental interest must reflect the seriousness of the
actual burden on First Amendment rights.
561 U.S. at 196 (citations and internal quotation
marks omitted).
Whereas strict scrutiny requires a compelling interest and narrow tailoring in every case, the interest and

103a
tailoring required under exacting scrutiny varies
from case to case, depending on the actual burden on
First Amendment rights at stake: the governmental
interest must be “sufficiently important” to justify the
“actual burden on First Amendment rights” in the case
at hand. Id. (emphasis added). Thus, where the burden
that a disclosure requirement places on First Amendment rights is great, the interest and the fit must be
as well. See, e.g., Buckley, 424 U.S. at 25 (“Even a
significant interference with protected rights of political
association may be sustained if the State demonstrates a sufficiently important interest and employs
means closely drawn to avoid unnecessary abridgment
of associational freedoms.” (emphasis added) (internal
quotation marks omitted)); Gibson, 372 U.S. at 546
(“Where there is a significant encroachment upon personal liberty, the State may prevail only upon showing
a subordinating interest which is compelling.” (emphasis
added) (quoting Bates, 361 U.S. at 524)); Gremillion,
366 U.S. at 296 (“[E]ven though the governmental
purpose be legitimate and substantial, that purpose
cannot be pursued by means that broadly stifle fundamental personal liberties when the end can be more
narrowly achieved.” (emphasis added) (quoting Shelton,
364 U.S. at 488)); Shelton, 364 U.S. at 488 (same);
Bates, 361 U.S. at 524 (“Where there is a significant
encroachment upon personal liberty, the State may
prevail only upon showing a subordinating interest
which is compelling.” (emphasis added) (citing NAACP
v. Alabama, 357 U.S. 449)); see also R. George Wright,
A Hard Look at Exacting Scrutiny, 85 UMKC L. Rev.
207, 210 (2016). But where, as here, the actual burden
is slight, a weaker interest and a looser fit will suffice.
The dissent’s contention that there are two different
tests is based on the premise that NAACP v. Alabama
applied something other than exacting scrutiny. We

104a
are not persuaded. First, the Supreme Court has already
told us that NAACP v. Alabama applied exacting
scrutiny: “Since NAACP v. Alabama we have required
that the subordinating interests of the State must
survive exacting scrutiny.” Buckley, 424 U.S. at 64.
Second, there is simply no way to read NAACP v.
Alabama as applying anything other than the exacting
scrutiny test described in Doe. The only question the
Court decided in NAACP v. Alabama was whether the
state had “demonstrated an interest in obtaining the
disclosures it seeks from petitioner which is sufficient
to justify the deterrent effect which we have concluded
these disclosures may well have on the free exercise by
petitioner’s members of their constitutionally protected
right of association.” NAACP v. Alabama, 357 U.S. at
463 (emphasis added). The disclosure requirement
failed solely because “Alabama has fallen short of
showing a controlling justification for the deterrent
effect on the free enjoyment of the right to associate
which disclosure of membership lists is likely to have.”
Id. at 466. There is no light between the test applied
in NAACP v. Alabama and the one described in Doe.
In sum, we properly applied exacting scrutiny.
IV
The dissent also challenges our conclusion that
California’s Schedule B requirement survives exacting
scrutiny. As noted, a disclosure requirement withstands
scrutiny under this test if the strength of the governmental interest reflects the seriousness of the
actual burden on First Amendment rights. See Doe,
561 U.S. at 196. Here, the state’s strong interest in
collecting Schedule B information justifies the modest
burden that nonpublic disclosure places on the
exercise of First Amendment rights.

105a
A. Strength of the Governmental Interest
With respect to the state’s interest in collecting
Schedule B information, the evidence was undisputed
that the state uses Schedule B information to investigate charitable fraud. See AFPF II, 903 F.3d at 1011.
“Current and former members of the Charitable Trusts
Section, for example, testified that they found the
Schedule B particularly useful in several investigations over the past few years, and provided examples.
They were able to use Schedule B information to trace
money used for improper purposes in connection with
a charity serving animals after Hurricane Katrina; to
identify a charity’s founder as its principal contributor, indicating he was using the research charity as a
pass-through; to identify self-dealing in that same
charity; to track a for-profit corporation’s use of a nonprofit organization as an improper vessel for gain; and
to investigate a cancer charity’s gift-in-kind fraud.” Id.
Circuits have consistently recognized the strength of
this interest. See, e.g., Schneiderman, 882 F.3d at 384;
Ctr. for Competitive Politics, 784 F.3d at 1311, 1317.
The evidence also was undisputed that up-front
collection of Schedule B information provides the
only effective means of obtaining the information.
State regulators testified that attempting to obtain a
Schedule B from a regulated entity after an investigation begins is ineffective “[b]ecause it’s time-consuming,
and you are tipping the charity off that they are about
to be audited.” AFPF II, 903 F.3d at 1010. Using a
subpoena or audit letter “would tip them off to our
investigation, which would allow them potentially to
dissipate more assets or hide assets or destroy documents, which certainly happened several times; or it
just allows more damage to be done to [the] charity.”

106a
Id.; accord Ctr. for Competitive Politics, 784 F.3d at
1317.
Although the district court questioned the strength
of the governmental interest, it did so by applying an
erroneous legal standard, requiring the state to establish that up-front collection of Schedule B information
was the least restrictive means of obtaining the information, see Ams. for Prosperity Found. v. Harris, 182
F. Supp. 3d 1049, 1053–55 (C.D. Cal. 2016), and
that it would be impossible for the state to regulate
charitable organizations without collecting Schedule B
information, see Thomas More Law Ctr. v. Harris, No.
CV 15-3048-R, 2016 WL 6781090, at *2 (C.D. Cal. Nov.
16, 2016). By applying the wrong legal standard, the
district court abused its discretion, see United States
v. Hinkson, 585 F.3d 1247, 1251 (9th Cir. 2009) (en
banc), and disregarded a previous ruling by this court
in this very case, see AFPF I, 809 F.3d at 541 (rejecting
a least restrictive means test).
B. Actual Burden on First Amendment Rights
To determine the actual burden on First Amendment
rights, we looked at two questions: (1) the likelihood
that the plaintiffs’ Schedule B contributors would face
threats, harassment or reprisals if their Schedule B
information were made public and (2) the likelihood
that the information would become public. See AFPF
II, 903 F.3d at 1015.
We ultimately declined to reach any conclusion with
respect to the first question. See id. at 1017. The
evidence on that question was mixed. Neither plaintiff, for example, identified a single contributor who
would withhold financial support based on the plaintiffs’ compliance with California’s Schedule B disclosure requirement. See id. at 1014. The Thomas More

107a
Law Center, moreover, has consistently over-reported
contributor information on its Schedule B filings,
undermining its contention that reporting deters
contributions. See id. Furthermore, many of the plaintiffs’ Schedule B contributors are already publicly
known. Private foundations, for example, are required
by law to publicly disclose their contributions to the
plaintiffs. See id. at 1015. Other Schedule B contributors – such as Charles and David Koch – are already
publicly identified with the plaintiffs. In addition,
although the evidence showed that individuals who
are associated with the plaintiffs, such as the Koch
brothers, have faced threats or harassment based on
their controversial activities, the plaintiffs “presented
little evidence bearing on whether harassment has
occurred, or is likely to occur, simply because an individual or entity provided a large financial contribution
to the Foundation or the Law Center.” Id. at 1016 &
n.6. In 2013, the National Journal published copies
of the Foundation’s Schedule Bs, but the Foundation
presented no evidence that contributors suffered retaliation as a result. See id. at 1017.
Ultimately, because California, like the federal government and other states, requires only the nonpublic
disclosure of Schedule B information, we did not need
to decide whether, in the event of public disclosure of
the Schedule B information, the plaintiffs’ Schedule B
contributors were likely to encounter threats, harassment or reprisals. See id. at 1017. We acknowledged
the risk of inadvertent public disclosure based on past
confidentiality lapses by the state. See id. at 1018. We
explained, however, that “[t]he state’s past confidentiality lapses [were] of two varieties: first, human
error when Registry staff miscoded Schedule B forms
during uploading; and second, a software vulnerability
that failed to block access to a plaintiff’s expert as he

108a
probed the Registry’s servers for flaws during this
litigation.” Id. at 1018. We explained that the software
problem stemmed from a third-party vendor, had
been “quickly remedied” and was not “likely to recur.”
Id. With respect to the problem of human error, we
explained that
the Registry Unit has implemented stronger
protocols to prevent human error. It has
implemented “procedural quality checks . . .
to sample work as it [is] being performed” and
to ensure it is “in accordance with procedures
on handling documents and [indexing them]
prior to uploading.” It has further implemented a system of text-searching batch uploads
before they are scanned to the Registry site to
ensure none contains Schedule B keywords.
At the time of trial in 2016, the Registry Unit
had halted batch uploads altogether in favor
of loading each document individually, as it
was refining the text-search system. After forms
are loaded to the Registry, the Charitable
Trusts Section runs an automated weekly
script to identify and remove any documents
that it had inadvertently misclassified as
public. There is also no dispute that the Registry
Unit immediately removes any information
that an organization identifies as having been
misclassified for public access.
Id. There was no evidence that these “cybersecurity
protocols are deficient or substandard as compared to
either the industry or the IRS, which maintains the
same confidential information.” Id. at 1019.
We also emphasized that we were addressing an asapplied challenge. See id. The key question, therefore,
was not whether there was a “risk of inadvertent

109a
disclosure of any Schedule B information in the
future,” but rather whether there was a significant
“risk of inadvertent disclosure of the plaintiffs’
Schedule B information in particular.” Id. There can
be no question that this risk – which the district court
failed to consider – is exceedingly small, so the
plaintiffs did not show “a reasonable probability that
the compelled disclosure of [their major] contributors’
names will subject them to threats, harassment, or
reprisals from either Government officials or private
parties.” Buckley, 424 U.S. at 74. The state’s interest
in obtaining the plaintiffs’ Schedule B information
therefore was sufficient under Doe to justify the modest
burden on First Amendment rights. See AFPF II, 903
F.3d at 1019.
V
Our colleagues sensibly declined to rehear this case
en banc. Our decision to apply exacting scrutiny is
consistent with Supreme Court precedent, see Doe,
561 U.S. at 196; Buckley, 424 U.S. at 64, NAACP v.
Alabama, 357 U.S. at 463, Ninth Circuit precedent, see
Ctr. for Competitive Politics, 784 F.3d at 1312–13, and
out-of-circuit precedent, see Schneiderman, 882 F.3d
at 381–82. Likewise, our conclusion that the Schedule
B reporting requirement survives exacting scrutiny is
consistent with both Ninth Circuit and out-of-circuit
precedent. See Schneiderman, 882 F.3d at 383–85;
Ctr. for Competitive Politics, 784 F.3d at 1312–17.
Although only two circuits have addressed the issue,
they have uniformly held that nonpublic Schedule B
reporting requirements satisfy the First Amendment
because they allow state and federal regulators to
protect the public from charitable fraud without subjecting major contributors to the threats, harassment
or reprisals that could flow from public disclosure.

110a
AMERICANS FOR PROSPERITY
FOUNDATION

Educating and Training Americans to be
Courageous Advocates for the Ideas, Principles,
and Policies of a Free and Open Society
For over twenty years, Americans for Prosperity
Foundation has been educating and training citizens
to be advocates for freedom, creating real change at
the local, state, and federal levels. In communities
across the country, Foundation programs share knowledge and tools that encourage participants to apply
the principles of a free and open society in their daily
lives–knowing this leads to the greatest prosperity
and well-being for all.
DONATE

111a

Grassroots Leadership Academy (GLA) is focused on
educating and empowering individuals with the tools
needed to advance a free and open society where
coercion is limited and a bias towards liberty prevails.
GLA provides the necessary skills for those looking to
be effective activists, community mobilizers, and
leaders in their community.
LEARN MORE

112a

